No. ________
IN THE

Supreme Court of the United States
___________

50 MURRAY STREET ACQUISITION LLC,
Petitioner,
v.
JOHN KUZMICH, ET AL.,
_____________

Respondents.

On Petition for a Writ of Certiorari
to the New York Court of Appeals
_____________
PETITION FOR A WRIT OF CERTIORARI
_____________
Jonathan M. Sperling

COVINGTON & BURLING LLP

620 Eighth Avenue
New York, NY 100018

Mark W. Mosier
Counsel of Record
Kevin F. King

COVINGTON & BURLING LLP

One CityCenter
850 Tenth Street, NW
Jack Boeglin
COVINGTON & BURLING LLP Washington, DC 20001
265 Strand
mmosier@cov.com
London WC2R 1BH
(202) 662-6000
Counsel for Petitioner

QUESTIONS PRESENTED
In Stop the Beach Renourishment, Inc. v. Florida
Department of Environmental Protection, 560 U.S.
702 (2010), the Court granted certiorari to settle a
question that had divided lower courts: Can a judicial
decision constitute a taking under the Fifth and Fourteenth Amendments? The eight-justice Court that
decided Stop the Beach was unable to resolve the question. A four-justice plurality concluded that the
Takings Clause applies equally to the judicial branch
as to the legislative and executive branches. But the
remaining justices declined to resolve the issue. Far
from clarifying the law, the Court’s fractured decision
has only exacerbated the confusion in the lower
courts. Some courts now follow the Stop the Beach
plurality opinion and recognize judicial-takings
claims. Others deny that judicial-takings claims are
cognizable. This case presents an opportunity to resolve the question left open in Stop the Beach.
The questions presented are:
1. Whether the Fifth and Fourteenth Amendments
prohibit courts, like other branches of government,
from eliminating established property rights without
just compensation.
2. Whether the New York Court of Appeals effected
an unconstitutional taking by holding, contrary to
decades of settled law and practice, that properties receiving benefits under Section 421-g of the New York
Real Property Tax Law are ineligible for deregulation
under New York’s rent-stabilization laws.

ii
PARTIES TO THE PROCEEDING BELOW AND
RULE 29.6 STATEMENT
Petitioner is 50 Murray Street Acquisition LLC.
Petitioner certifies that its parents are 50 Murray
Mezz One LLC, 50 Murray Mezz Two LLC, 50/53 JV
LLC, Clipper Realty LP, and Clipper Realty Inc.
Respondents are John Kuzmich, Sandra May,
Joshua Socolow, Ignatius Navascues, Kendrick Croasmun, Rishi Khanna, Caitlan Senske, Jamie Axford,
Jonathan Gazdak, Suzy Heimann, Michael Gorzynski, Nikesh Desai, Heidi Burkhart, Ben DryliePerkins, Keiron McCammon, Lisa Atwan, Jennifer
Senske Ryan, Brad Langston, Alejandra Garcia, Lisa
Chu, Scott Reale, Dan Slivjanovski, Shiva Pejman,
Laurie Karr, Adam Seifer, Anand Subramanian,
Darcy Jensen, Elin Thomasian, Hazel Lyons, David
Drucker, Howard Pulchin, Jin Sup Lee, Jenn Wood,
Nicholas Apostolatos, Alex Kelleher, Brian Knapp,
Jeff Rives, Jason Lewis, Laura Fieseler Hickman,
Franklin Yap, and Steven Greenes.

iii
DIRECTLY RELATED PROCEEDINGS
•

Kuzmich v. 50 Murray St. Acquisition LLC,
Nos. 50 & 51 (N.Y.) (opinion issued and
judgment entered June 25, 2019; reargument denied Sept. 12, 2019);

•

West v. B.C.R.E-90 W. St., LLC, Nos. 6589 &
6590 (N.Y. App. Div., First Dep’t) (opinion
issued and judgment entered May 17, 2018);

•

Kuzmich v. 50 Murray St. Acquisition LLC,
No. 5479 (N.Y. App. Div., First Dep’t) (opinion issued and judgment entered Jan. 18,
2018);

•

West v. B.C.R.E.-90 W. St., LLC, No.
157031/15 (N.Y. Sup. Ct.) (opinion issued
and judgment entered July 19, 2017; superseding opinion issued and judgment entered
Jan. 31, 2018); and

•

Kuzmich v. 50 Murray Street Acquisition
LLC, No. 155266/16 (N.Y. Sup. Ct.) (opinion
issued and judgment entered July 3, 2017).

There are no other proceedings in any court
that are directly related to this case.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED ....................................... i
PARTIES TO THE PROCEEDING BELOW
AND RULE 29.6 STATEMENT ........................ ii
DIRECTLY RELATED PROCEEDINGS ................. iii
TABLE OF AUTHORITIES..................................... vii
OPINIONS BELOW ....................................................1
JURISDICTION ..........................................................1
CONSTITUTIONAL, STATUTORY, AND
REGULATORY PROVISIONS INVOLVED ......1
INTRODUCTION ........................................................2
STATEMENT OF THE CASE ....................................5
A. Statutory Background ..................................5
1. The Lower Manhattan Revitalization
Plan ..........................................................5
2. New York’s Rent Stabilization Law ........6
3. Established Interpretation of Section
421-g .........................................................9
B. Facts and Procedural History ....................12
REASONS FOR GRANTING THE PETITION .......15
I.

THE COURT SHOULD RESOLVE THE
QUESTION WHETHER JUDICIAL
ACTION CAN CONSTITUTE A TAKING. ......15
A. The Fractured Decision in Stop the
Beach Has Increased the Confusion
Regarding Judicial Takings. ......................16

v
1. Courts Have Long Been Divided on
Whether Judicial Action Can Be a
Taking. ...................................................16
2. The Stop the Beach Court Did Not
Resolve the Disagreement on
Judicial Takings. ...................................21
3. The Confusion Around Judicial
Takings Has Only Increased Since
Stop the Beach. ......................................23
B. Judicial Takings Are a Significant
Problem Deserving this Court’s
Attention and a Settled Rule of
Decision.......................................................27
II.

THE DECISION BELOW CONSTITUTES
A JUDICIAL TAKING. .....................................30

III. THIS CASE IS A GOOD VEHICLE TO
DECIDE WHETHER JUDICIAL ACTION
CAN CONSTITUTE A TAKING. .....................35
CONCLUSION ..........................................................37
APPENDIX A: New York Court of
Appeals Decision (June 25, 2019)........................ 1a
APPENDIX B: New York Appellate
Division Decision (Jan. 18, 2018) ...................... 33a
APPENDIX C: New York Supreme
Court Summary Judgment Decision
(July 3, 2017) ...................................................... 37a

vi
APPENDIX D: Court of Appeals
Order Denying Motion for
Reargument (Sept. 12, 2019) ............................. 47a
APPENDIX E: Motion for Reargument
in the New York Court of Appeals
(July 25, 2019) ................................................... 48a
APPENDIX F: Constititutional,
Statutory, and Regulatory
Provisions ........................................................... 72a
APPENDIX G: Complaint in Kuzmich v.
50 Murray Street Acquisition LLC .................... 92a
APPENDIX H: Affidavit of J.J. Bistricer
and Excerpts from Attached Exhibits ............. 129a

vii
TABLE OF AUTHORITIES
Page(s)
CASES
Ansonia Residents Ass’n v. New York State
Div. of Hous. & Cmty. Renewal,
75 N.Y.2d 206 (1989).............................................. 6
Brace v. U.S.,
72 Fed. Cl. 337 (Ct. Fed. Cl. 2006) ...................... 20
Brinkerhoff-Faris Tr. & Sav. Co. v. Hill,
281 U.S. 673 (1930) .............................................. 18
Broad River Power Co. v. South Carolina,
281 U.S. 537 (1930) .............................................. 18
Burton v. Am. Cyanamid Co.,
775 F. Supp. 2d 1093 (E.D. Wis. 2011) ............... 25
Carolina-Virginia Racing Ass’n v. Cahoon,
214 F.2d 830 (4th Cir. 1954) ................................ 20
Chicago, B. & Q.R. Co. v. City of Chicago,
166 U.S. 226 (1897) .............................................. 17
Corp. of Presiding Bishop of Church of Jesus
Christ of Latter-Day Saints v. Hodel,
830 F.2d 374 (D.C. Cir. 1987) .............................. 20
Demorest v. City Bank Farmers Trust Co.,
321 U.S. 36 (1944) ................................................ 18

viii
Matter of Domestic P’ship of Walsh &
Reynolds,
No. 51125-8-II, 2019 WL 2597785 (Wash.
Ct. App. June 25, 2019) ....................................... 25
Dworman v. New York State Div. of Hous. &
Cmty. Renewal, 94 N.Y.2d 359 (1999) ................... 8
Fox River Paper Co. v. Railroad Comm’n,
274 U.S. 651 (1927) .............................................. 18
Gibson v. Am. Cyanamid Co.,
760 F.3d 600 (7th Cir. 2014) ................................ 24
Great N. Ry. Co. v. Sunburst Oil & Ref. Co.,
287 U.S. 358 (1932) .............................................. 18
Henry 85 LLC v. Roodman,
No. 154499/2015, 2017 WL 3401332 (N.Y.
Sup. Ct. May 02, 2017) ........................................ 31
Hughes v. Washington,
389 U.S. 290 (1967) .............................................. 18
Jonna Corp. v. City of Sunnyvale, Ca,
No. 17-CV-00956-LHK, 2017 WL 2617983
(N.D. Cal. June 16, 2017) .................................... 27
In re Lazy Days’ RV Ctr. Inc.,
724 F.3d 418 (3d Cir. 2013) ..................... 24, 25, 26
Lingle v. Chevron U.S.A. Inc.,
544 U.S. 528 (2005) .............................................. 33
Loretto v. Teleprompter Manhattan CATV
Corp., 458 U.S. 419 (1982) ................................... 35

ix
Marks v. United States,
430 U.S. 188 (1977) ........................................ 26, 27
Muhlker v. New York & Harlem R.R. Co.,
197 U.S. 544 (1905) ........................................ 17, 18
N. Nat. Gas Co. v. ONEOK Field Servs. Co.,
296 Kan. 906 (2013) ............................................. 25
Nevada Gen. Ins. Co. v. Encee,
No. CV 11-183 JCH/CG, 2012 WL
13081199 (D.N.M. Jan. 6, 2012) .......................... 24
PPW Royalty Tr. by & through Petrie v.
Barton,
841 F.3d 746 (8th Cir. 2016) .......................... 24, 25
PPW Royalty Tr. v. Barton,
No. 14-00513-CV-W-BP, 2015 WL
13263507 (W.D. Mo. Jan. 30, 2015)..................... 26
Penn Central Transp. Co. v. New York City,
438 U.S. 104 (1978) ........................................ 19, 26
Petro-Hunt, L.L.C. v. United States,
126 Fed. Cl. 367 (2016) ........................................ 27
Petro-Hunt, L.L.C. v. United States,
862 F.3d 1370 (Fed. Cir. 2017) ............................ 25
PruneYard Shopping Center v. Robins,
447 U.S. 74 (1980) ................................................ 19
Republic of Argentina v. BG Grp. PLC,
764 F. Supp. 2d 21 (D.D.C. 2011) ........................ 27

x
Robinson v. Ariyoshi,
753 F.2d 1468 (9th Cir. 1985) .............................. 20
Smith v. United States,
709 F.3d 1114 (Fed. Cir. 2013) ............................ 24
Sotomura v. County of Hawaii,
460 F. Supp. 473 (D. Haw. 1978)......................... 20
Stevens v. City of Cannon Beach,
510 U.S. 1207 (1994) .......................... 28, 29, 36, 37
Stuart v. Ryan,
No. 18-14244-CIV, 2018 WL 3453970
(S.D. Fla. June 26, 2018) ..................................... 24
Surfrider Found. v. Martins Beach 1, LLC,
14 Cal. App. 5th 238 (Ct. App. 2017) .................. 26
Town of Ellettsville v. DeSpirito,
111 N.E.3d 987 (Ind. 2018) .................................. 25
Vandevere v. Lloyd,
644 F.3d 957 (9th Cir. 2011) .................... 23, 24, 25
Webb’s Fabulous Pharmacies, Inc. v.
Beckwith,
449 U.S. 155 (1980) .................................. 19, 29, 32
CONSTITUTION, STATUTES &
REGULATIONS
U.S. Const. amend. V ................................................ 22
N.Y. Emergency Tenant Protection Act
of 1974 §§ 8621–8634 ............................................. 6

xi
N.Y. Real Property Tax Law § 421-g ........ 5, 11, 31, 34
N.Y. Rent Regulation Reform Act of
1993 § 6............................................................. 8, 11
N.Y. Unconsol. Law § 8622 ..................................... 6, 7
N.Y. Unconsol. Law § 8623 ................................... 7, 34
N.Y.C. Admin. Code § 26-501 ..................................... 6
N.Y.C. Admin. Code § 26-504 ............................... 8, 11
9 NYCRR § 2520.6 ................................................. 8, 35
9 NYCRR § 2522.5 ................................................. 7, 34
N.Y. S. Res. 5320, 218th Gen. Assemb.,
Reg. Sess. (1995) .................................................... 5
28 R.C.N.Y. § 32-02 (1997) .................................... 9, 31
OTHER AUTHORITIES
Barton H. Thompson, Jr., Judicial
Takings, 76 Va. L. Rev. 1449 (1990) ................... 18
City of New York Rent Guidelines
Board, Rent Guidelines Board Apartment Orders #1 through #49 (1968 to
2018) ....................................................................... 7
Josh Patashnik, Note, Bringing a
Judicial Takings Claim, 64 Stan. L.
Rev. 255 (2012) ..................................................... 27

xii
Louis Kaplow, An Economic Analysis of
Legal Transitions, 99 Harv. L. Rev.
509 (1986) ............................................................. 20
Rent Stabilization in New York City,
New York University Furman
Center for Real Estate & Urban
Policy (Apr. 2012) ................................................... 7

PETITION FOR A WRIT OF CERTIORARI
Petitioner 50 Murray Street Acquisition LLC respectfully petitions for a writ of certiorari to review
the judgment of the New York Court of Appeals.
OPINIONS BELOW
The opinion of the Supreme Court of New York
(App. 37a-46a) is unreported. The opinion of the New
York Appellate Division, First Department, is reported at 157 A.D.3d 556 (2018) (App. 33a-37a). The
opinion of the New York Court of Appeals (App. 1a32a) is reported at 34 N.Y.3d 84 (2019). The New York
Court of Appeals’ order denying the petition for reargument (App. 47a) is unreported.
JURISDICTION
The New York Court of Appeals issued its decision
on June 25, 2019, and denied a timely petition for
reargument on September 12, 2019. This Court has
jurisdiction under 28 U.S.C. § 1257(a).
CONSTITUTIONAL, STATUTORY, AND REGULATORY PROVISIONS INVOLVED
The pertinent constitutional, statutory, and regulatory provisions are reproduced in the appendix to
this petition. App. 72a-91a.

2
INTRODUCTION
This case presents an opportunity to resolve the
question left unanswered in Stop the Beach: whether
judicial action can amount to a taking of private property under the Fifth and Fourteenth Amendments.
The separate opinions in Stop the Beach, none of
which commanded a majority, have sown confusion in
the lower courts, leading to conflicting approaches in
the adjudication of judicial-takings claims. Some
courts have followed the Stop the Beach plurality’s
rule, under which a court effects a judicial taking
when it eliminates an established property right.
Other courts have denied that judicial-takings claims
are cognizable. Still others have adopted hybrid rules
combining elements of the Stop the Beach plurality
and concurring opinions.
This issue is tremendously important. Because
judicial takings of established property rights are accompanied by the force of precedent, they have
sweeping effects beyond the immediate parties. And
judicial-takings claims are frequently high-stakes for
the parties involved, as illustrated by this case, which
affects hundreds of millions of dollars in investments.
There is thus special and urgent need for a clear rule
to determine when and under what circumstances judicial takings occur.
The Court should grant
certiorari to establish that rule and complete the work
left unfinished in Stop the Beach.
The judicial taking at issue here arises from a
New York economic-development program. In 1995,
the New York Legislature lured real-estate developers
and investors to Lower Manhattan with a package of

3
incentives, including tax benefits, to convert commercial properties to new apartment housing. This
program, codified as Section 421-g of the New York
Real Property Tax Law, directed that newly converted
apartment buildings were “fully subject to” New
York’s Rent Stabilization Law, which imposed stringent limits on rents, but also contained “luxury
decontrol” provisions that exempted high-end apartments from rent regulation.
For decades, New York agencies interpreted
“fully subject” to mean that Section 421-g properties
were subject to the full Rent Stabilization Law, including both its rent regulating and rent deregulating provisions. Agencies enshrined this interpretation in regulations and guidance letters, thereby
allowing owners of Section 421-g buildings to deregulate luxury apartments and lease them at market
rates, rather than the much lower rates permitted under the Rent Stabilization Law.
In 2014, Petitioner purchased two Section 421g apartment buildings for more than $540 million. Relying on agency guidance that the luxury-decontrol
provisions applied to these properties, Petitioner
leased the apartments at market rates. Respondents—tenants in Petitioner’s Section 421-g buildings
who signed market leases—then sued, asserting that
their apartments are not subject to decontrol, and that
their rents must be reduced to considerably lower, stabilized rates. In addition, Respondents claimed
entitlement to retroactive refunds, totaling millions of
dollars, for rent overcharges dating back to Petitioner’s purchase of the buildings.

4
In a divided opinion, the New York Court of Appeals ruled for Respondents.
Reversing the
unanimous judgment of the state’s intermediate appellate court and overriding decades of consistent
enforcement by regulators, the Court of Appeals held
that Section 421-g properties are not subject to the
Rent Stabilization Law’s luxury-decontrol provisions.
The ruling strips Petitioner and other investors of
their previously established right to charge market
rents for Section 421-g apartments, “dramatically
chang[ing] the terms of the bargain long after the Legislature’s goals [were] achieved.” App. 31a (DiFiore,
C.J., dissenting). And because the Rent Stabilization
Law grants tenants nearly unlimited lease-renewal
and transfer rights—all without the property owner’s
consent—the ruling likewise subjects Petitioner to a
permanent physical occupation of its property.
By “declar[ing] that what was once an established right of private property no longer exists,” Stop
the Beach, 560 U.S. at 717 (plurality opinion) (quotations marks omitted), the Court of Appeals’ ruling
squarely presents the question that has divided lower
courts since Stop the Beach was decided nearly a decade ago. The Court should grant the petition to clarify
the law governing judicial takings and to hold that the
Court of Appeals’ ruling was an uncompensated taking of Petitioner’s property.

5
STATEMENT OF THE CASE
A.

Statutory Background
1.

The Lower Manhattan Revitalization
Plan

In the early 1990s, Lower Manhattan was an
economically depressed area. Businesses were fleeing
at “an alarming rate,” vacancy rates were at a postWorld War II high, and tax-assessment values were
“in a downward spiral.” N.Y. S. Res. 5320, 218th Gen.
Assemb., Reg. Sess. § 8028, at 5 (1995). To “reverse
the decline in the economy of Lower Manhattan,” the
State of New York in 1995 implemented the Lower
Manhattan Revitalization Plan. Id. at 18.
As part of this Plan, the New York State Legislature enacted Section 421-g of New York’s Real
Property Tax Law, which “provided tax incentives designed to encourage private sector investment … in
lower Manhattan,” including “encourag[ing] the conversion and/or renovation of obsolete commercial
buildings into viable residential housing.” Id. Such
conversions were doubly beneficial: They eliminated
aging and increasingly vacant commercial building
stock while at the same time expanding the limited
supply of housing. See id.
Under the Real Property Tax Law, Section 421g buildings are “fully subject to control” under New
York’s Rent Stabilization Law during the period tax
benefits are received. N.Y. Real Property Tax Law
§ 421-g(6). When a tenant rents a Section 421-g
apartment subject to the Rent Stabilization Law, the
Law’s restrictions remain in effect for the life of the

6
tenancy, including after the expiration of tax benefits,
unless the tenant’s lease expressly states that the
apartment would no longer be rent-stabilized following the expiration of Section 421-g benefits. See id.
2.

New York’s Rent Stabilization Law

The Rent Stabilization Law is a collection of intertwined state and local laws that together limit
rents for apartment housing. See N.Y.C. Admin. Code
§§ 26-501 et seq.; N.Y. Emergency Tenant Protection
Act of 1974, §§ 8621–8634. In addition to governing
apartment buildings with six or more units built before January 1, 1974, the Rent Stabilization Law also
applies to apartment buildings constructed after that
date for which the owner is receiving (or, in some instances, has received) tax breaks, government loans,
or other similar assistance—including tax benefits
under Section 421-g.
The Rent Stabilization Law is designed to serve
a dual purpose: manage the affordability of rents and
“encourage future housing construction by allowing
landlords reasonable rent increases so that they could
profit from the operation of their properties.” Ansonia
Residents Ass’n v. New York State Div. of Hous. &
Cmty. Renewal, 75 N.Y.2d 206, 216 (1989). The law
was intended to be “less onerous” than its predecessor
rent-control regime, id., and to facilitate a “transition
from regulation to a normal market of free bargaining between landlord and tenant,” N.Y. Unconsol.
Law § 8622.
The system of rent stabilization created by the
law regulates the rents that can be charged to new
tenants signing leases for existing apartments and

7
also the amount of any subsequent rent increases. See
generally Andrew Scherer & Hon. Fern Fisher, Residential Landlord Tenant L. in N.Y. § 4:99. Every year,
the Rent Guidelines Board sets maximum increases
owners of rent-stabilized properties can charge for
these vacancy and renewal leases. See id. In some
years, no annual rent increases are authorized; even
when increases are authorized, they are often modest,
typically ranging between 1% to 4% for one-year lease
renewals and 2% to 7% for two-year renewals. 1 The
Rent Stabilization Law also permits increases based
on capital improvements, although the extent and duration of these increases is highly circumscribed. As
a result of these restrictions, rents for stabilized
apartments are generally significantly lower than
rents for comparable market-rate apartments. 2
In addition to regulating rents, the Rent Stabilization Law also grants tenants the equivalent of a
transferrable life estate. Subject only to narrow limitations, the Rent Stabilization Law permits an
incumbent tenant to renew a rent-stabilized lease in
perpetuity without the property owner’s consent. See
N.Y. Unconsol. Law § 8623; 9 NYCRR § 2522.5(b).
The Law also grants tenants the right to transfer the
See Rent Guidelines Board Apartment Orders #1 through #49
(1968 to 2018), The City of New York Rent Guidelines Board,
https://www1.nyc.gov/assets/rentguidelinesboard/pdf/guidelines/aptorders2018.pdf.
1

See Rent Stabilization in New York City, New York University
Furman Center for Real Estate & Urban Policy at 4 (Apr. 2012),
https://furmancenter.org/files/publications/HVS_Rent_Stabilization_fact_sheet_FINAL_4.pdf (By 2011, “stabilized rents [were
on average] about $1,245 per month lower than market-rate
rents in core Manhattan.”).
2

8
tenancy to family members or “[a]ny other person”
who uses the apartment as a primary residence and
“can prove emotional and financial commitment, and
interdependence between such person and the tenant.” 9 NYCRR § 2520.6(o); App. 87a. As a result of
these provisions, tenancies governed by the Rent Stabilization often extend for decades and across
generations, and can continue in perpetuity—effectively depriving owners of the rights to exclude and to
use their property.
In 1993, two years before enactment of Section
421-g, the New York State Legislature amended the
Rent Stabilization Law by adding “luxury decontrol”
provisions. See New York Rent Regulation Reform
Act of 1993 § 6 (amending N.Y.C. Admin. Code § 26504). These provisions permitted deregulation of
rent-stabilized apartments when two criteria were
met. First, the initial rent for a new apartment or the
maximum stabilized monthly rent for an existing
apartment had to exceed $2,000 per month. Second,
the apartment had to become vacant, or its incumbent
tenant(s) must have earned more than $250,000 in
consecutive years. See, e.g., N.Y.C. Admin. Code
§§ 26-504.1, 26-504.2, and 26-504.3 (repealed June 14,
2019). 3

Later amendments increased the monthly-rent decontrol
threshold to $2,500 and reduced the income-based decontrol
threshold to $175,000. See Dworman v. New York State Div. of
Hous. & Cmty. Renewal, 94 N.Y.2d 359, 366 n.1 (1999). Legislation enacted in 2019 repealed the decontrol provisions
altogether. That repeal does not affect this case, because the initial rents for all apartments in the buildings at issue exceeded
the luxury-decontrol threshold then in effect. See infra at 12.
3

9
Apartments that met these decontrol criteria were
permanently exempted from the Rent Stabilization
Law and could be rented at market rates, without regard to the Rent Stabilization Law’s restrictions on
base rents, annual rent increases, or increases based
on capital improvements. Decontrolled units are likewise permanently exempted from the Rent
Stabilization Law’s lease-renewal and succession
rights, such that the duration and terms of a tenancy
are a matter of contract rather than government fiat.
3.

Established Interpretation of Section
421-g

Both before and after Section 421-g’s adoption,
New York state and local agencies consistently took
the position that Section 421-g properties being “fully
subject to control” under the Rent Stabilization Law
meant just that: The properties were subject to the
entirety of that law, including its luxury-decontrol provisions.
For instance, in 1997 the New York City Department of Housing Preservation and Development
issued regulations clarifying that Section 421-g properties are eligible for luxury decontrol. These
regulations, which were adopted through notice-andcomment rulemaking, expressly removed apartments
in Section 421-g buildings from the Rent Stabilization
Law’s requirements if the apartments were “exempt
from rent regulation” under the luxury-decontrol provisions. 28 R.C.N.Y. §§ 32-02, 32-05 (1997).
The Department also implemented this understanding in reports required of owners of Section 421g property. One form required owners to affirm that

10
they would file a rent-stabilization registration for
each apartment “other than exempt dwelling units.”
App. 152a. Another form required owners to submit
copies of rent registrations or documentation showing
the monthly rent for each “luxury unit[’s] … exempt
lease.” App. 155a. Owners were likewise required to
make annual filings confirming that “[a]ll dwelling
units are in compliance with Rent Stabilization or are
Exempt Dwelling Units.”
App. 158a (emphasis
added).
Guidance issued by the New York State Division of Housing and Community Renewal, the state
agency responsible for administering the Rent Stabilization Law, consistently embraced the same
understanding. A guidance letter issued by the Division in 1997 explained that “high-rent deregulation is
available with respect to [Section] 421-g units.” App.
28a. The Division reaffirmed this position in 2000, indicating that “where there are Sec. 421-g benefits
being used and where the first tenant of a newly created apartment is actually charged and actually pays
$2,000 per month or more, the apartment is exempt
from rent regulation from the inception of occupancy.”
App. 150a. In 2002, the Division issued yet another
letter “reiterat[ing] the position taken in [its 2000] letter.” App. 150a.
This regulatory guidance was consistent with
the legislative record surrounding Section 421-g’s enactment. A letter from then-Mayor of New York City
Rudolph Giuliani to then-New York State Senate Majority Leader Joseph Bruno confirms this
understanding. App. 137a–138a. The letter stated
that Section 421-g buildings “would be subject to rent

11
stabilization to the same extent as, but to no greater
extent than, other rent regulation property.” Id. (emphasis added). As a result, Mayor Giuliani concluded,
luxury decontrol “would apply to property receiving
[Section 421-g] benefits.” Id. This letter from Mayor
Giuliani was read into the legislative record and included in the official bill jacket accompanying
Assembly Bill 8028, which enacted Section 421-g.
Writing in reply, Senator Bruno explained that Section 421-g buildings would be “fully subject to the
deregulation provisions” enacted in 1993, and that
Mayor Giuliani’s understanding “comport[ed] with
this Senate’s own reading of this legislation.” App.
139a–140a.
This established interpretation of Section 421g was further cemented by repeated legislative ratification. When the luxury-decontrol provisions were
enacted in 1993, the New York State Legislature specified by statute those categories of properties
ineligible for luxury decontrol. Included in this list
were “Affordable New York Housing Program” buildings under Section 421-a of the Real Property Tax
Law, which like Section 421-g properties are eligible
for tax benefits. See New York Rent Regulation Reform Act of 1993 § 6 (amending N.Y.C. Admin. Code
§ 26-504). But when Section 421-g was enacted just
two years later, the legislature did not add Section
421-g properties to the list of those ineligible for luxury decontrol. Indeed, despite repeatedly amending
the Rent Stabilization Law in the years following Section 421-g’s enactment, the legislature never
exempted Section 421-g properties from the luxurydecontrol provisions.

12
B.

Facts and Procedural History

In 2014, Petitioner purchased the buildings located at 50 Murray Street and 53 Park Place in Lower
Manhattan for $540 million. App. 17a.
The prior owner had converted the properties
from commercial to residential use, and had initially
rented the apartments in both buildings at monthly
rents in excess of the luxury-decontrol threshold.
App. 17a–18a. Accordingly, the prior owner applied
for Section 421-g tax benefits and received a Certificate of Eligibility from the New York City Department
of Housing Preservation and Development, with a
benefits period commencing July 1, 2003. App. 134a.
The prior owner also filed annual certificates with the
Department stating that all of the apartments were
“Exempt Dwelling Units” due to luxury decontrol.
App. 133a.
Before purchasing the properties, Petitioner
confirmed that the properties had been receiving Section 421-g benefits and had been exempted from the
Rent Stabilization Law under the luxury-decontrol
provisions. App. 17a. Petitioner also sought and obtained repeated assurances—including past advisory
opinion letters from the New York State Division of
Housing and Community Renewal and further confirmation from the New York City Department of
Housing Preservation and Development—that the
luxury-decontrol provisions applied to these specific
properties and would continue to apply after the sale.
App. 17a. After purchasing the properties, Petitioner

13
continued to file mandatory annual certificates stating that the apartments were exempt from rent
stabilization due to luxury decontrol. App. 134a-35a.
Respondents rented apartments at 50 Murray
Street and 53 Park Place at market rents. App. 17a.
Their leases accordingly stated that the apartments
were not rent-stabilized. App. 17a. The rents for the
relevant apartments ranged from $3,295 to $10,295
per month, well in excess of the luxury-decontrol
threshold. App. 18a.
In June 2016, Respondents—roughly forty tenants at the two buildings—sued Petitioner in state
court seeking a declaration that their apartments
were not subject to the luxury-decontrol provisions.
App. 94a. Respondents claimed to be “entitled to reimbursement of the excess rent amounts which they
ha[d] paid”—i.e., any rent above the considerably
lower rent-stabilized rate. App. 96a. Respondents
further alleged that they are “entitled to all the rights
of rent stabilized tenants, including but not limited to
regulated rents going forward and the rights of renewal and succession.” App. 96a.
The parties filed cross-motions for summary
judgment. App. 38a. In July 2017, the trial court
awarded summary judgment to Respondents, determining that they were “entitled to [a] declaration”
that the luxury-decontrol provisions do not apply to
their Section 421-g apartments. App. 42a.
The Appellate Division unanimously reversed.
App. 34a. The court criticized the trial court for overlooking basic principles of statutory construction, and
further explained that “the legislature was aware”

14
that “most, if not all, apartments in buildings receiving 421-g benefits would, in fact, never be rentstabilized, because the initial monthly rents of virtually all such apartments were set, as here, at or above
the deregulation threshold.” App. 35a.
On June 25, 2019, in a divided opinion, the New
York Court of Appeals reversed, holding that Section
421-g properties are not eligible for luxury decontrol.
App. 1a. In an opinion authored by Judge Stein, the
majority afforded no weight to the decades-long interpretations of Section 421-g implemented by New
York’s regulatory agencies, App. 7a, gave only a passing mention to the legislative record, App. 11a-12a,
and dismissed evidence of advisory opinions regarding
the applicability of luxury decontrol as “[v]ague claims
of contrary ‘government assurances,’” App. 12a.
Chief Judge DiFiore, in a vigorous dissent, explained that there is no “evidence that anyone ever
construed section 421-g[] as precluding application of
luxury decontrol to section 421-g buildings.” App. 29a.
“To the contrary, it is clear … that the agencies most
closely involved in the implementation of the section
421–g program and the property owners subject to
that program (not to mention the tenants that agreed
to market-rate rents) shared a common understanding—that the entirety of the RSL applied to section
421-g buildings, including its luxury decontrol provisions.” Id.
Chief Judge DiFiore concluded that investors
“rel[ied] on a common sense reading of legislation,
clear legislative history and the representations of implementing agencies,” but none of that “protected

15
them … from the majority’s retroactive reading of
statutory text that dramatically change[d] the terms
of the bargain long after the Legislature’s goals [were]
achieved.” App. 31a.
On July 25, 2019, Petitioner moved for reargument. Citing this Court’s decision in Stop the Beach,
Petitioner argued that the Court of Appeals’ ruling violated the Takings Clause “because it vitiate[d] what
were … established rights of property owners who invested significant sums developing apartments under
§ 421-g.” App. 69a. “By deeming the luxury decontrol
provisions inapplicable to § 421-g properties,” Petitioner argued, the Court of Appeals had “declare[d]
that what was once an established right of private
property no longer exists.” App. 69a (citing Stop the
Beach, 560 U.S. at 715 (plurality opinion)). In doing
so, Petitioner raised the judicial-takings issue at the
same stage, and through the same mechanism, as the
petitioners in Stop the Beach. See 560 U.S. at 712 n.4,
727-28.
On September 12, 2019, the Court of Appeals
denied Petitioner’s motion for reargument in a summary order that did not address Petitioner’s
arguments. App. 47a.
REASONS FOR GRANTING THE PETITION
I.

THE COURT SHOULD RESOLVE THE
QUESTION WHETHER JUDICIAL ACTION
CAN CONSTITUTE A TAKING.

For well over a century, this Court has signaled
that courts, no less than executives or legislatures,
can effect unconstitutional takings. But a majority of

16
the Court has never clearly and unequivocally held as
much. As a result, confusion abounds in the lower
courts. Those courts disagree not only on the threshold question whether the judiciary can engage in a
taking, but also on the test for determining whether a
taking has occurred. The Court should grant certiorari to resolve these important, recurring questions.
A.

The Fractured Decision in Stop the
Beach Has Increased the Confusion Regarding Judicial Takings.

Recognizing the longstanding disagreement
among lower courts regarding the viability of judicialtakings claims, this Court granted certiorari to settle
the issue in Stop the Beach. But an eight-member
Court could not bring clarity to a muddled judicialtakings framework. Although six justices agreed that
the Constitution imposes limits on the judiciary’s ability to eliminate established property rights without
compensation, no rule of decision commanded a majority. The Court’s fractured decision left unresolved
fundamental questions about the judicial-takings doctrine’s governing standards and constitutional
grounding, and has exacerbated the confusion in the
lower courts.
1.

Courts Have Long Been Divided on
Whether Judicial Action Can Be a
Taking.

Even before Stop the Beach, the Court had occasionally addressed whether a court decision that
changes the law in a way that eliminates established
property rights may violate the Constitution. But
those decisions sent conflicting messages to lower

17
courts. While the Court’s earliest and most recent decisions seem to recognize the viability of judicialtakings claims, New Deal-era decisions appeared to
foreclose such claims. These seemingly conflicting decisions made it unclear whether judicial-takings
claims are cognizable.
In two decisions issued more than a century
ago, the Court appeared to accept the view that judicial action could constitute a taking. See Chicago, B.
& Q.R. Co. v. City of Chicago, 166 U.S. 226 (1897);
Muhlker v. New York & Harlem R.R. Co., 197 U.S. 544
(1905). In reviewing a state court’s confirmation of a
jury award compensating a railroad with nominal
damages for the loss of its right of way, the Chicago
Court observed that “a judgment of a state court, even
if it be authorized by statute, whereby private property is taken for the state or under its direction for
public use, without compensation made or secured to
the owner, is … wanting in the due process of law.”
166 U.S. at 241. And in Muhlker, the Court reversed
a New York Court of Appeals ruling that holders of
property adjacent to recently constructed elevated
railway tracks were not due any compensation because—contrary to an earlier state precedent—the
owners held no inconsistent easements. See 197 U.S.
at 570. In so doing, a four-justice plurality reasoned
that “[w]hen the plaintiff acquired his title … the law
of New York … assured to him that his easements of
light and air were secured by contract as expressed in
[earlier] cases, and could not be taken from him without payment of compensation.” Id. at 570.

18
Following Muhlker, “the Court proceeded to
waffle on the issue [of judicial takings] for several decades.” Barton H. Thompson, Jr., Judicial Takings, 76
Va. L. Rev. 1449, 1465 (1990). On one hand, the Court
continued to acknowledge its authority under the Due
Process Clause to review state court decisions declaring the non-existence of allegedly “taken” property
rights and to invalidate those decisions if they rested
on no “fair or substantial basis.” Demorest v. City
Bank Farmers Trust Co., 321 U.S. 36, 42 (1944);
Broad River Power Co. v. South Carolina, 281 U.S.
537, 540, aff’d on rehearing, 282 U.S. 187, 191 (1930);
see Fox River Paper Co. v. Railroad Comm’n, 274 U.S.
651, 654-57 (1927). 4 On the other hand, New Deal-era
decisions rejected the argument that a state court ruling that changes the law violates the Constitution.
See, e.g., Brinkerhoff-Faris Tr. & Sav. Co. v. Hill, 281
U.S. 673, 681 n.8 (1930). In these cases, the Court indicated that state courts could “ordinarily overrule
their own decisions without offending constitutional
guaranties, even though parties may have acted to
their prejudice on the faith of the earlier decisions.”
Id.; see also Great N. Ry. Co. v. Sunburst Oil & Ref.
Co., 287 U.S. 358, 364 (1932).
More recently, the Court applied its takings jurisprudence to judicial action, but without grappling
See also Hughes v. Washington, 389 U.S. 290, 296-97 (1967)
(Stewart, J., concurring) (state court decision violates Takings
Clause where it “constitutes a sudden change in state law, unpredictable in terms of the relevant precedents,” because “a State
cannot be permitted to defeat the constitutional prohibition
against taking property without due process of law by the simple
device of asserting retroactively that the property it has taken
never existed at all”).

4

19
with whether such action should be subject to a takings analysis in the first place. For example, in Webb’s
Fabulous Pharmacies, the Court applied regulatorytakings doctrine—including Penn Central Transp. Co.
v. New York City, 438 U.S. 104 (1978)—to evaluate
whether the Florida Supreme Court’s construction of
a state statute regarding interest on interpleader accounts was a taking.
See Webb’s Fabulous
Pharmacies, Inc. v. Beckwith, 449 U.S. 155, 156–158,
160–164 (1980). Because the state court’s decision
contravened “[t]he usual and general rule” regarding
interest, such that it violated “more than a unilateral
expectation” on the part of creditors, the Court found
a taking. Id. at 161–62; see also id. at 163–64 (“Neither the Florida Legislature by statute, nor the
Florida courts by judicial decree, may accomplish the
result the county seeks simply by recharacterizing the
principal as ‘public money’ because it is held temporarily by the court.”).
Likewise, in PruneYard Shopping Center v.
Robins, 447 U.S. 74 (1980), the Court cited regulatorytakings law when evaluating the California Supreme
Court’s interpretation of a state constitutional provision. See id. at 78–79. Applying the Penn Central
framework, the Court asked whether the state court’s
decision violated “reasonable investment backed expectations.” Id. at 82–84 & n.7. The Court also
considered a related due-process argument. See id. at
84–85.
In the absence of consistent guidance on judicial-takings doctrine from this Court, lower courts
divided on the subject. Some courts—including the

20
D.C. and Fourth Circuits—questioned whether judicial-takings claims are cognizable at all. See, e.g.,
Corp. of Presiding Bishop of Church of Jesus Christ of
Latter-Day Saints v. Hodel, 830 F.2d 374, 381 (D.C.
Cir. 1987) (“The question of whether courts, as opposed to legislative bodies, can ever ‘take’ property in
violation of the Fifth Amendment is an interesting
and by no means a settled issue of law.”); CarolinaVirginia Racing Ass’n v. Cahoon, 214 F.2d 830, 832
(4th Cir. 1954) (“[T]he mere fact that the state court
reversed a former decision to the prejudice of one
party does not take away his property without due
process of law[.]” (cleaned up)); Brace v. U.S., 72 Fed.
Cl. 337, 358-59 (Ct. Fed. Cl. 2006) (“Generally speaking, court orders have never been viewed themselves
as independently giving rise to a taking.”). 5
Conversely, some federal courts—including the
Ninth Circuit—invalidated state court decisions on
the ground that they violated the Takings Clause. For
example, in Robinson v. Ariyoshi, 753 F.2d 1468 (9th
Cir. 1985), the Ninth Circuit held that the Hawaii Supreme Court had effected a judicial taking “when it
overruled earlier cases and [adopted] for the first
time, after more than a century of a different law, …
the common law doctrine of riparian ownership,” effectively stripping property owners of vested water
rights. Id. at 1474; see also Sotomura v. County of Hawaii, 460 F. Supp. 473 (D. Haw. 1978) (separate
Some commentators similarly interpreted this Court’s decisions
as foreclosing judicial-takings claims. See, e.g., Louis Kaplow,
An Economic Analysis of Legal Transitions, 99 Harv. L. Rev. 509,
517 n.10 (1986) (characterizing it as “well accepted that no right
to compensation exists” when changes in common law caused adverse “economic impacts”).

5

21
Hawaii Supreme Court decision altering dividing line
between public and private beach was judicial taking).
In short, before Stop the Beach, the Court’s decisions did not provide clear guidance on whether
judicial action could constitute a taking. This lack of
guidance led to widespread confusion in the lower
courts, including a circuit split, on whether judicialtakings claims are viable.
2.

The Stop the Beach Court Did Not Resolve the Disagreement on Judicial
Takings.

In Stop the Beach, the Court granted certiorari
to resolve the question whether judicial action can
constitute a taking. The Florida Supreme Court had
determined that a statute aimed at restoring and preserving beachfront did not unconstitutionally deprive
beachfront owners of certain littoral property rights
because, in essence, those rights did not previously exist under state law. See Stop the Beach, 560 U.S. at
712. Following this ruling, the property owner petitioned for certiorari, urging the Court to answer a
constitutional question of “ever-increasing” import by
defining clear standards for judicial takings. See Stop
the Beach Renourishment, Inc. v. Florida Dep’t of Envtl. Prot., Petition for a Writ of Certiorari, No. 081151, 2009 WL 698518 (filed Mar. 13, 2009). The
Court granted the petition, but its fractured decision
left unresolved the judicial-takings doctrine’s governing standards and constitutional grounding.
In the plurality opinion, Justice Scalia (joined
by three justices) recognized that the Takings
Clause—unlike many constitutional provisions—“is

22
not addressed to the action of a specific branch or
branches,” but is instead “concerned simply with the
act” of taking private property without just compensation. Stop the Beach, 560 U.S. at 713–14; see U.S.
Const. amend. V (“[N]or shall any person … be deprived of life, liberty, or property, without due process
of law; nor shall private property be taken for public
use, without just compensation.”). Based on the plain
constitutional text, the plurality concluded that “the
Takings Clause bars the State from taking private
property without paying for it, no matter which
branch is the instrument of the taking.” Stop the
Beach, 560 U.S. at 715. Under the plurality’s test, “[i]f
a legislature or a court declares that what was once
an established right of private property no longer exists, it has taken that property[.]” Id. at 715, 717.
Justice Kennedy, joined by Justice Sotomayor,
concurred in part and concurred in the judgment.
Justice Kennedy declined to accept the plurality’s
analysis, but posited instead that “[i]f a judicial decision, as opposed to an act of the executive or the
legislature, eliminates an established property right,
the judgment could be set aside as a deprivation of
property without due process of law.” Id. at 735.
Given longstanding precedent holding that property
regulations may be invalidated on due process
grounds, it was “natural to read the Due Process
Clause as limiting the power of courts to eliminate or
change established property rights.” Id. at 736. More
specifically, in Justice Kennedy’s view, “[t]he Court
would be on strong footing in ruling that a judicial decision that eliminates or substantially changes

23
established property rights, which are a legitimate expectation of the owner, is ‘arbitrary or irrational’
under the Due Process Clause.” Id. at 737.
Finally, Justice Breyer, joined by Justice Ginsburg, concurred in the judgment and declined to
resolve whether judicial-takings claims are cognizable. See id. at 742–45 (Breyer, J., concurring).
Though in agreement that the Florida Supreme
Court’s decision did not constitute a judicial taking,
Justice Breyer found it unnecessary to “specify[] the
precise standard” for such a claim (or even to recognize the existence of such a doctrine). Id. at 744.
Rather, those “questions of constitutional law [were]
better left for another day.” Id. at 742.
3.

The Confusion Around Judicial Takings Has Only Increased Since Stop
the Beach.

Stop the Beach has sown confusion among the
lower courts. Without a governing majority opinion—
or a clear rule of decision—courts have struggled to
address the most basic questions surrounding judicial
takings. Indeed, courts are split regarding whether
judicial-takings claims are cognizable
Some courts, including multiple federal courts
of appeals, have adopted the Stop the Beach plurality’s
test as the governing standard. For example, in
Vandevere v. Lloyd, 644 F.3d 957 (9th Cir. 2011), the
Ninth Circuit “observe[d] that any branch of state government could … effect a taking,” and that any
“federal court remains free to conclude that a state supreme court’s purported definition of a property right

24
really amounts to a subterfuge for removing a pre-existing, state-recognized property right.” Id. at 963 n.4.
The Third and Eighth Circuits have similarly applied
the judicial-takings test endorsed by the Stop the
Beach plurality. See PPW Royalty Tr. by & through
Petrie v. Barton, 841 F.3d 746, 756 (8th Cir. 2016) (judicial-takings claim turned on whether court decision
at issue “eliminate[d] an established property right”);
In re Lazy Days’ RV Ctr. Inc., 724 F.3d 418, 425 (3d
Cir. 2013) (judicial-takings doctrine “‘protects property rights as they are established’” (quoting Stop the
Beach, 560 U.S. at 732)). 6
But other federal courts have questioned, and
in some cases outright rejected, the notion that any
authoritative judicial-takings doctrine exists. For example, the Seventh Circuit has rejected a judicialtakings claim on the ground that “no binding precedent” would support it. Gibson v. Am. Cyanamid Co.,
760 F.3d 600, 626 (7th Cir. 2014); see also id. at n.10
(noting that “only four Justices” had endorsed a judicial takings theory in Stop the Beach). While the
Federal Circuit initially saw Stop the Beach as “recogniz[ing] that a takings claim can be based on the
action of a court,” Smith v. United States, 709 F.3d
1114, 1116 (Fed. Cir. 2013), it has since backtracked,
casting doubt on “the general viability of a judicial
Several federal district courts have followed suit. See, e.g., Stuart v. Ryan, No. 18-14244-CIV, 2018 WL 3453970, at *1 (S.D. Fla.
June 26, 2018) (judicial takings occur where “court effectively
changed the law so as to contravene [a] clearly established
right”); Nevada Gen. Ins. Co. v. Encee, No. CV 11-183 JCH/CG,
2012 WL 13081199, at *7 (D.N.M. Jan. 6, 2012) (judicial takings
occur where “decision stripped away a previously established private property [right] that had not been in doubt”).
6

25
takings claim,” and reasoning that because Stop the
Beach was “a plurality decision,” it is “not a binding
judgment,” Petro-Hunt, L.L.C. v. United States, 862
F.3d 1370, 1386 & n.6 (Fed. Cir. 2017). Some federal
district courts have taken a similar tack. See, e.g.,
Burton v. Am. Cyanamid Co., 775 F. Supp. 2d 1093,
1098–99 (E.D. Wis. 2011) (Because Stop the Beach
plurality is not “binding,” there is “no authority for the
proposition that there can be a judicial taking.”).
State appellate courts have also responded divergently to Stop the Beach. Some have treated the
decision as precedential. See, e.g., Town of Ellettsville
v. DeSpirito, 111 N.E.3d 987, 995–96 (Ind. 2018) (retaining common-law state property rule in part to
avoid effecting a judicial taking under Stop the
Beach). Other state courts have effectively dismissed
Stop the Beach altogether. See, e.g., N. Nat. Gas Co.
v. ONEOK Field Servs. Co., 296 Kan. 906, 939–40
(2013) (characterizing Stop the Beach as “a plurality
opinion with no precedential value”); Matter of Domestic P’ship of Walsh & Reynolds, No. 51125-8-II, 2019
WL 2597785, at *13 (Wash. Ct. App. June 25, 2019)
(rejecting judicial-takings claim because there is “no
federally recognized judicial takings doctrine”).
Where courts have reached the merits of judicial-takings claims, they have disagreed on the test to
apply. As mentioned above, numerous courts—including the Third, Eighth, and Ninth Circuits—have
recognized a version of the judicial-takings rule
adopted by the Stop the Beach plurality. See PPW
Royalty, 841 F.3d at 756; In re Lazy Days’ RV Ctr. Inc.,
724 F.3d at 425; Vandevere, 644 F.3d at 963 n.4. Under that approach, a judicial taking occurs when “a

26
court declares that what was once an established right
of private property no longer exists.” Stop the Beach,
650 U.S. at 716.
But other courts have applied more expansive
approaches—for example by combining the plurality’s
framework with Justice Kennedy’s due-process analysis. See, e.g., Surfrider Found. v. Martins Beach 1,
LLC, 14 Cal. App. 5th 238, 258 (Ct. App. 2017) (finding it “clear” that a “judicial action that would be a
taking if it were a legislative or executive act is unconstitutional, under either the takings clause or the due
process clause”).
Still other courts have taken the position that
conventional, regulatory takings analysis applies to
judicial takings no less than to executive or legislative
takings. See, e.g., PPW Royalty Tr. v. Barton, No. 1400513-CV-W-BP, 2015 WL 13263507, at *11 (W.D.
Mo. Jan. 30, 2015) (under Stop the Beach, “a judicial
takings claim would be analyzed in the same way as
any other alleged violation of the Takings Clause”);
Surfrider, 14 Cal. App. 5th at 259 (suggesting that
Penn Central regulatory-takings factors apply to judicial takings).
And at least one court—the Third Circuit—has
layered additional conditions atop the Stop the Beach
test, declaring that the “adjudication of disputed and
competing claims cannot be a [judicial] taking.” In re
Lazy Days’ RV Ctr. Inc., 724 F.3d at 425.
The lack of consensus regarding a clear rule of
decision may arise in part because Stop the Beach does
not lend itself naturally to a Marks analysis. See

27
Marks v. United States, 430 U.S. 188, 193 (1977). Rather, because “the approaches taken by the plurality
opinion and by Justice Kennedy’s concurrence are logically distinct,” “rely upon two separate constitutional
provisions,” and are not easily compared to determine
which is “narrower,” applying Marks analysis to Stop
the Beach “is not a straightforward task.” Josh
Patashnik, Note, Bringing a Judicial Takings Claim,
64 Stan. L. Rev. 255, 262 (2012).
As these decisions illustrate, courts agree on
only one point: The fractured set of opinions in Stop
the Beach has left the state of judicial takings doctrine
unclear. See, e.g., Jonna Corp. v. City of Sunnyvale,
Ca, No. 17-CV-00956-LHK, 2017 WL 2617983, at *6
(N.D. Cal. June 16, 2017) (“contours” of the judicial
takings doctrine “are unclear”) (quotation marks and
citation omitted); Petro-Hunt, L.L.C. v. United States,
126 Fed. Cl. 367, 378 (2016) (“The contours—and even
the existence—of a judicial takings doctrine has been
debated in federal courts and in legal scholarship.”);
Republic of Argentina v. BG Grp. PLC, 764 F. Supp.
2d 21, 38–39 (D.D.C. 2011) (under Stop the Beach, “no
clear standard exists for what constitutes” a judicial
taking).
B. Judicial Takings Are a Significant Problem Deserving this Court’s Attention and
a Settled Rule of Decision.
Judicial takings are costly, and not just for the
parties involved. Not only do judicial takings frequently cause major losses of property (and property
values), they inherently involve the elimination of
property rules, with effects that sweep well beyond the

28
parties to any particular case. In short, the harms
that flow from judicial takings are both concentrated
and diffuse. The lack of a clear governing standard
for rectifying these harms is a problem in need of this
Court’s attention.
This case illustrates the severe economic harms
that can result from the elimination of well-established property rules.
Petitioner purchased 50
Murray Street and 53 Park Place in 2014 for more
than $540 million, on the express understanding—
confirmed by government officials including the New
York City Department of Housing Preservation and
Development—that the apartments in these buildings
could be rented at market rates. App. 17a. Following
the New York Court of Appeals’ decision, however, not
only must rents “be rolled back to levels which [are]
insufficient to cover mortgage costs and other expenses,” but Respondents are seeking millions of
dollars in supposed “overcharges” for past rent and to
obtain effective life estates in Petitioner’s apartments
by virtue of the Rent Stabilization Law’s renewal and
succession rights. App. 132a; see p. 7-8, supra. Petitioner would not have invested in these properties if
it expected to be stripped by judicial fiat of the right
to charge market rates or terminate a tenancy at the
end of a lease term. It simply “would not have made
economic sense” to do so. App. 30a.
The additional costs that judicial takings impose on non-parties by dint of eliminating established
property rules were a concern Justice Scalia voiced in
his dissent from the denial of certiorari in Stevens v.
City of Cannon Beach, 510 U.S. 1207 (1994) (Scalia,

29
J., dissenting). In Cannon Beach, the Oregon Supreme Court affirmed an order blocking petitioners
from building a seawall on their beachfront property,
on the ground that the Oregon public supposedly had
a longstanding common-law right to use the dry-sand
area of the state’s beaches. See id. at 1332–33. Justice Scalia, joined by Justice O’Connor, questioned the
state court’s decision and noted that its effects would
likely extend far beyond the circumstances of the particular case: “[T]he landgrab (if there is one) may run
the entire length of the Oregon coast.” Id. at 1335.
While “the Supreme Court of Oregon’s vacillations on
the scope of the doctrine of custom make it difficult to
say how much of the coast is covered,” id. at 1335 n.4,
the judicial taking in Cannon Beach potentially implicated upwards of 300 miles of beachfront property.
There are numerous similar examples. See, e.g.,
Nextel Communications of the Mid-Atlantic, Inc. v.
Commonwealth of Pennsylvania, No. 17-1506, 2018
WL 2080201, Petition for a Writ of Certiorari *7 (filed
May 3, 2018) (noting that compensation for all those
similarly situated as petitioner would “exceed[] $500
million”).
Finally, judicial-takings claims are common,
with the uncertainty surrounding judicial-takings
doctrine having led to a significant increase in the
number of judicial-takings-based petitions for a writ
of certiorari filed in this Court. A steady trickle of
such petitions followed this Court’s Webb’s Fabulous

30
Pharmacies decision in 1980. 7 But the filing of such
petitions has accelerated markedly in the wake of
Stop the Beach. 8 The volume of these claims is particularly troubling given that judicial-takings claims
often implicate severe economic consequences for parties and non-parties alike.
II. THE DECISION BELOW CONSTITUTES A
JUDICIAL TAKING.
If this Court holds that a judicial decision eliminating established property rights constitutes an
unconstitutional taking, the decision below cannot
stand.

7 See, e.g., Kimco of Evansville, Inc. v. State of Indiana, No. 09197, 2009 WL 2509225, Petition for Writ of Certiorari (filed August 6, 2009); Goeckel v. Glass, No. 05-764, 2005 WL 3438569,
Petition for Writ of Certiorari (filed December 12, 2005); Phelps
Dodge Corp. and Arizona Pub. Serv. Co. v. The United States et
al., No. 00-1464, 2001 WL 34125404, Petition for Writ of Certiorari (filed Mar. 19, 2001).

At least seven petitions have been filed in the last two Terms.
See Hogen v. Hogen, No. 18-1440, 2019 WL 2153335, Petition for
Writ of Certiorari (filed May 13, 2019); Wallace v. Wallace, No.
18-1404, 2019 WL 2053640, Petition for Writ of Certiorari (filed
May 6, 2019); Stuart v. Ryan, No. 18-85, 2018 WL 3520855, Petition for Writ of Certiorari (filed July 9, 2018); Nextel Commc'ns
of the Mid-Atlantic, Inc. v. Commonwealth of Pennsylvania, No.
17-1506, 2018 WL 2080201, Petition for a Writ of Certiorari (filed
May 3, 2018); Petro-Hunt L.L.C. v. United States of America, No.
17-1090, 2018 WL 704347, Petition for a Writ of Certiorari (filed
Feb. 1, 2018); Stanford v. United States of America, No. 17-809,
2017 WL 6034219 (filed Dec. 1, 2017); L.D. Drilling, Inc. v.
Northern Natural Gas Co., No. 17-786, 2017 WL 5952672, Petition for a Writ of Certiorari (filed Nov. 20, 2017). Many of these
petitions suffered from vehicle problems not present here. See
Part III, infra.
8

31
Under the standard articulated by the Stop the
Beach plurality, the New York Court of Appeals’ decision constituted a taking because that decision
extinguished Petitioner’s well-established right to
charge market rates for the apartments in the buildings at issue here, and to exclude from the property
those unwilling to pay market rents.
Section 421-g provides that properties receiving benefits under the provision are “fully subject to
control under” the Rent Stabilization Law. N.Y. Real
Prop. Tax Law § 421-g(6). Since its enactment in
1995, regulators have consistently taken the view that
the luxury-decontrol provisions in New York’s Rent
Stabilization Law applied to apartments governed by
Section 421-g. In 1997, for instance, New York City’s
Department of Housing Preservation and Development issued regulations recognizing that luxury
decontrol applies to Section 421-g properties. See 28
RCNY §§ 32-02, 32-05 (effective Aug. 1, 1997). The
Department has administered the Section 421-g program consistent with those regulations ever since—
for example, by acknowledging dwelling units subject
to luxury decontrol as a specific exemption both on the
reports required of Section 421-g property owners
upon initial registration and annual re-certification.
See Henry 85 LLC v. Roodman, No. 154499/2015, 2017
WL 3401332, at *9 (N.Y. Sup. Ct. May 02, 2017); App.
152a-59a.
The New York State Division of Housing and
Community Renewal has interpreted Section 421-g in
the same way. In 1997, the Division issued a guidance
letter confirming that “high-rent deregulation is available with respect to [Section] 421-g units.” App. 28a.

32
The Division has not wavered on that position since,
having issued guidance letters in both 2000 and 2002
affirming the interpretation in its 1997 letter. App.
148a-151a.
These settled agency policies were consistent
with the plain meaning of the statute and the underlying legislative record. For example, as noted above,
Section 421-g specifies that properties receiving benefits under the provision are “fully”—not partially or
selectively—“subject to control under” the Rent Stabilization Law. And Section 26-504.2(a), which lists the
types of properties ineligible for luxury decontrol, conspicuously omits any mention of Section 421-g
properties. See supra p. 11-12. The legislative history
further supports this view. See supra p. 11.
Put simply, both before Section 421-g’s enactment and in the years leading up to the Court of
Appeals’ ruling, New York law and practice were clear
that Section 421-g properties were eligible for luxury
decontrol. Indeed, before purchasing the 50 Murray
Street and 53 Park Place properties, Petitioner sought
and received confirmation from New York government agencies, including the Department of Housing
Preservation and Development, that luxury decontrol
would apply to those specific properties. App. 17a. Petitioner’s significant investment was thus made with
much “more than a unilateral expectation,” Webb’s
Fabulous Pharmacies, 449 U.S. at 451, regarding the
applicability of luxury decontrol.
As Chief Judge DiFiore explained in dissent, investors “rel[ied] on a common sense reading of

33
legislation … and the representations of implementing agencies,” but none of that “protected them …
from the majority’s retroactive reading of statutory
text that dramatically change[d] the terms of the bargain long after the Legislature’s goals [were]
achieved.” App. 31a.
By deeming the luxury-decontrol provisions inapplicable to Section 421-g properties, the New York
Court of Appeals therefore “declare[d] that what was
once an established right of private property no longer
exists.” Stop the Beach, 560 U.S. at 715 (plurality
opinion). If left undisturbed, this decision will severely infringe Petitioner’s property rights. 9
Among other things, the decision substantially
diminishes the value of Section 421-g properties, in violation of Petitioner’s (and all other Section 421-g
property owners’) reasonable investment-backed expectations. See Lingle v. Chevron U.S.A. Inc., 544
U.S. 528, 538–39 (2005); see also App. 132a (affidavit
of building owner declaring that the purchase was
made in reliance on luxury decontrol and that it
9 The decision below also violated Petitioner’s due-process rights
because it “eliminates or substantially changes established property rights, which are a legitimate expectation of the owner.”
Stop the Beach, 560 U.S. at 737 (Kennedy, J., concurring). Regulators assured owners that their apartments would be
unregulated, and those assurances played an essential role in attracting the capital necessary for Section 421-g to serve its
purpose. Petitioner invested in the properties at issue in reliance
on the availability of luxury decontrol, and would not have done
so without that safety valve. App. 132a. Exempting the apartments from luxury decontrol now, long after the fact,
“substantially changes” the rights “legitimate[ly] expect[ed]” by
Petitioners. Stop the Beach, 560 U.S. at 737 (Kennedy, J., concurring).

34
“would have not made economic sense” without it).
Moreover, by calling into question the lawfulness of
the market rents Petitioner charged in the past, the
decision threatens Petitioner’s entitlement to retain
past rent collected (which Respondents are suing to
have returned with treble damages).
The Court of Appeals’ ruling also subjects Petitioner to indefinite—potentially permanent—physical
occupation of its property. By retroactively declaring
that Petitioner’s apartments are governed by the Rent
Stabilization Law, the decision below grants Respondents nearly unlimited renewal and succession rights
that together amount to transferrable, rent-stabilized
life estates. 10 Specifically, Respondents have invoked
the rights of an incumbent tenant to renew a rent-stabilized lease in perpetuity without the property
owner’s consent, see N.Y. Unconsol. Law § 8623; 9 NYCRR § 2522.5(b); App. 127a, and to transfer the
tenancy to family members or “[a]ny other person”
who uses the apartment as a primary residence and
“can prove emotional and financial commitment, and

10 Section 421-g provides for rent stabilization to end once its tax
benefits have expired, if the property owner includes a lease rider
explaining that a unit will become decontrolled upon expiration
of benefits. N.Y. Real Property Tax Law § 421-g(6). Petitioner
(and likely many other Section 421-g property owners) did not
include such a rider in its leases because it would have been nonsensical to do so: its apartments were registered with regulators
as not rent-stabilized, and the leases expressly indicated as
much. Although Respondents were aware that their apartments
were not rent stabilized (because their leases said so), under the
Court of Appeals’ ruling the absence of this rider means that the
apartments remain rent stabilized for as long as Respondents
and their successors choose to live there. App. 127a.

35
interdependence between such person and the tenant,” 9 NYCRR § 2520.6(o). As a result of these
provisions, which are subject only to narrow exceptions, rent-stabilized tenancies often extend for
decades and across generations—during which time
the owner is deprived of core property rights, including the ability to use the apartment and exclude
others from entering it. See Loretto v. Teleprompter
Manhattan CATV Corp., 458 U.S. 419, 435-36 (1982).
Accordingly, the decision below authorizes a nonconsensual
physical
occupation
of
Petitioner’s
apartments that constitutes a taking in its own right.
See id. at 438-39.
The Court of Appeals’ interpretation of Section
421-g, by departing from the established interpretation of that provision, thus violates Petitioner’s rights
under the Fifth and Fourteenth Amendments.
III. THIS CASE IS A GOOD VEHICLE TO DECIDE WHETHER JUDICIAL ACTION CAN
CONSTITUTE A TAKING.
A. This case presents no impediments to the
Court clarifying the contours of judicial-takings doctrine. Unlike many cases, the takings analysis does
not turn on disputed factual issues. It was settled as
a matter of New York law and practice prior to the
Court of Appeals decision that Section 421-g property
was eligible for luxury decontrol; the sole question is
whether the court’s holding to the contrary amounts
to an unconstitutional taking.
That the petition presents only legal questions
separates it from recent petitions the Court has denied. Those petitions frequently required highly fact-

36
bound inquiries to decide whether a judicial taking occurred. See, e.g., Hogen, 2019 WL 2153335, at *8
(judicial-takings claim requiring “not only an understanding of the background relating to the quiet title
action below, but also, the background of the settled
law denied the Petitioners concerning their title to the
farmlands conveyed to them”); Wallace, 2019 WL
2053640, at *4 (judicial-takings claim arising out of a
suit by a minority shareholder in a small, familyowned corporation, against his brothers for breach of
fiduciary duty); Stuart, 2018 WL 3520855, at *i, *16
(judicial-taking claim alleging “many factual errors”
in relation to “Petitioner’s established property rights
under Florida law in her permanent residence in Florida (a homestead protected from forced sale by the
Florida Constitution), her one-third interest in her father’s homestead which she acquired by inheritance,
and a one-third interest in the personal property belonging to her deceased parents”). Particularly where
the factual record was not adequately developed below, these kind of fact-intensive merits questions can
be an “obstacle to [this Court’s] review.” Stevens v.
City of Cannon Beach, 510 U.S. 1207, 1213 (1994)
(Scalia, J., dissenting from denial of certiorari).
B. The New York Court of Appeals’ failure to
address whether its ruling constituted a taking poses
no obstacle to this Court’s review. To the contrary, the
posture of this case mirrors that of Stop the Beach—
namely, a petition for a writ of certiorari seeking direct review of a judicial taking by a state high court.
See 560 U.S. at 712 & n.4.

37
In Stop the Beach, this Court made clear that
“where the state-court decision itself is claimed to constitute a violation of federal law, the state court’s
refusal to address that claim put forward in a petition
for rehearing will not bar our review.” 560 U.S. at 712
& n.4. That is what happened here. The judicial taking occurred as a result of the New York Court of
Appeals’ decision, see App. 1a–32a, which reversed the
intermediate appellate court’s decision upholding Petitioner’s right to deregulate the 50 Murray Street and
53 Park Place properties, see App. 33a–36a. Petitioner thus raised its judicial-takings claim at the first
logical opportunity by asserting it in its motion for
reargument in the Court of Appeals. See App. 67a
(“The Court’s ruling eliminates property rights of
apartment owners long recognized by state and local
regulators, and thus implicates the federal Constitution’s Takings Clause and due process limitations
prescribed in [Stop the Beach].”).
CONCLUSION
For the foregoing reasons, Petitioner respectfully
requests that the Court grant this petition.

38
Respectfully submitted,
Jonathan M. Sperling

Mark W. Mosier
COVINGTON & BURLING LLP
Counsel of Record
620 Eighth Avenue
Kevin F. King
New York, NY 100018
COVINGTON & BURLING LLP
One CityCenter
Jack Boeglin
850 Tenth Street, NW
COVINGTON & BURLING LLP Washington, DC 20001
265 Strand
mmosier@cov.com
London WC2R 1BH
(202) 662-6000
October 24, 2019

Counsel for Petitioner

APPENDIX

1a
APPENDIX A
COURT OF APPEALS OF NEW YORK
————
No. 50, No. 51
————
JOHN KUZMICH, et al.,
v.

Appellants,

50 MURRAY STREET ACQUISITION LLC,
Respondent.
————
WILLIAM T. WEST, et al.,
v.

Appellants,

B.C.R.E.—90 WEST STREET, LLC,
Respondent,
————
Argued June 4, 2019
Decided June 25, 2019
————
Attorneys and Law Firms
Case No. 50:
Friedman Kaplan Seiler & Adelman LLP, New York
City (Robert S. Smith of counsel) and Himmelstein,
McConnell, Gribben, Donoghue & Joseph LLP, New
York City for appellants in the first above-entitled
action.

2a
Holwell Shuster & Goldberg LLP, New York
City (James M. McGuire and Gregory Dubinsky of
counsel), Latham & Watkins LLP, New York City
(Jonathan Lippman of counsel) and Washington,
D.C. (Michael E. Bern of the District of Columbia
bar, admitted pro hac vice, of counsel), and Belkin
Burden Wenig & Goldman, LLP, New York City
(Sherwin Belkin and Magda L. Cruz of counsel), for
respondent in the first above-entitled action.
Collins, Dobkin & Miller, LLP, New York City, for
Metropolitan Council on Housing, amicus curiae in
the first above-entitled case.
Rosenberg & Estis, P.C., New York City (Alexander
Lycoyannis, Luise A. Barrack and Nicholas
Kamillatos of counsel), for The Real Estate Board
of New York, amicus curiae in the first aboveentitled action.
Case No. 51:
Friedman Kaplan Seiler & Adelman LLP, New York
City (Robert S. Smith, Christopher M. Colorado and
Anil K. Vassanji of counsel), and Himmelstein,
McConnell, Gribben, Donoghue & Joseph LLP, New
York City (Serge Joseph of counsel), for appellants
in the second above-entitled action.
Belkin Burden Wenig & Goldman, LLP, New York
City (Magda L. Cruz, Sherwin Belkin, Joseph
Burden and William Baney of counsel), for
respondent in the second above-entitled action.
OPINION OF THE COURT
STEIN, J.:
The question presented on these appeals is whether
plaintiffs’ apartments, which are located in buildings
receiving tax benefits pursuant to Real Property Tax

3a
Law (RPTL) § 421–g, are subject to the luxury deregulation provisions of the Rent Stabilization Law
(RSL) (see generally Rent Stabilization Law of 1969
[Administrative Code of City of New York § 26–504.1]).
We conclude that they are not and, therefore, reverse.
I
In each of these cases, plaintiffs are individual
tenants of rented apartments located in lower
Manhattan, which are owned by defendants, 50
Murray Street Acquisition LLC or B.C.R.E. – 90 West
Street, LLC. 1 Defendants have received certain tax
benefits pursuant to section 421–g of the RPTL
in connection with the conversion of their buildings
from office space to residential use. In these actions,
plaintiffs seek, among other things, a declaration that
their apartments are subject to rent stabilization.
Plaintiffs allege that defendants failed to treat the
apartments as rent stabilized even though the receipt
of benefits under RPTL 421–g is expressly conditioned
upon the regulation of rents in the subject buildings.
Defendants maintain that plaintiffs’ apartments are
exempt from rent regulation under the luxury deregulation provisions added to the RSL as part of the Rent
Regulation Reform Act of 1993.2
Supreme Court, in separate orders penned by two
different Justices, denied defendants’ motions for
summary judgment and granted plaintiffs’ cross1

For ease of discussion, we refer to plaintiffs and defendants
in each of these cases collectively.
2

The luxury deregulation provisions permit the elimination
of rent stabilization protections for certain high-rent housing
accommodations upon vacancy or occupation by a high-income
household when the rent has lawfully exceeded the statutory
threshold (see RSL § 26–504.1, et seq.).

4a
motions declaring that the apartments are subject
to rent stabilization. (Kuzmich v 50 Murray St.
Acquisition LLC, 2017 NY Slip Op 31416[U] [Sup Ct,
NY County 2017]; West v. B.C.R.E.-90 W. St., LLC, 65
Misc 3d 349 [Sup Ct, NY County 2018]). Both Justices
reasoned that RPTL 421–g (6) unambiguously states
that, with only one express exception not applicable
here, any provisions of the RSL that limit the
applicability of rent stabilization—including the
luxury deregulation provisions—do not apply to
buildings receiving section 421–g tax benefits.
The Appellate Division separately reversed both
orders and granted defendants’ motions for summary
judgment to the extent of declaring that plaintiffs’
apartments were properly deregulated and are not
subject to rent stabilization (157 A.D.3d 556 [1st Dept.
2018]; 161 A.D. 3d 566, [1st Dept. 2018]). The
Appellate Division held that the luxury deregulation
provisions of the RSL apply to apartments in buildings
receiving tax benefits under RPTL 421-g because, in
the Court’s view, section 421-g did “not create another
exemption” to luxury deregulation (157 A.D 3d at 556).
The Court noted that, under its holding that “421-g
buildings are subject to luxury . . . decontrol, . . . most,
if not all, apartments in buildings receiving 421-g
benefits would, in fact, never be rent-stabilized,
because the initial monthly rents of virtually all such
apartments were set, as here, at or above the deregulation threshold” (157 A.D 3d at 557). Although the
Court acknowledged that “courts should construe
statutes to avoid objectionable, unreasonable or
absurd consequences,” it nevertheless concluded that
the legislature intended for RPTL 421-g (6) to
essentially nullify itself (id. [internal quotation marks
and citation omitted]).

5a
The Appellate Division granted plaintiffs leave to
appeal to this Court, certifying the question of whether
the orders of reversal were properly made.
II
Plaintiffs argue that the plain language of RPTL
421-g (6) makes clear that any provisions of the RSL
that would otherwise operate to exempt apartments
from rent regulation, apart from those provisions
exempting cooperatives and condominiums, do not
apply to buildings receiving section 421-g tax benefits.
Under plaintiffs’ reading of the statute, luxury deregulation does not apply to apartments in such buildings
during the time period in which section 421-g tax
benefits are extended. For their part, defendants
maintain that section 421-g renders the relevant
dwelling units subject to the entire scheme of the RSL,
including the luxury deregulation provisions which do
not include a carve-out for buildings receiving section
421-g benefits.
In 1995, the legislature enacted section 421-g of
the RPTL as part of a broad effort to revitalize lower
Manhattan by providing financial incentives to convert commercial office buildings to residential and
mixed-use buildings (see L 1995, ch 4). To that end, the
statute provides real property tax exemption and
abatement benefits when a nonresidential building is
converted to residential use. RPTL 421-g (6) states, in
pertinent part that,
“[n]otwithstanding the provisions of any local
law for the stabilization of rents in multiple
dwellings or the emergency tenant protection
act of [1974], the rents of each dwelling unit
in an eligible multiple dwelling shall be fully
subject to control under such local law, unless

6a
exempt under such local law from control
by reason of the cooperative or condominium
status of the dwelling unit, for the entire
period for which the eligible multiple dwelling
is receiving benefits pursuant to this section.”3
That subdivision further directs that, after section
421–g benefits terminate,
“such rents shall continue to be subject to
such control, except that such rents that
would not have been subject to such control
but for this subdivision, shall be decontrolled
if the landlord has included in each lease and
renewal thereof for such unit for the tenant
in residence at the time of such decontrol a
notice in at least twelve point type informing
such tenant that the unit shall become
subject to such decontrol upon the expiration
of benefits pursuant to this section” (RPTL
421-g [6]).
“[W]hen presented with a quest of statutory
interpretation, our primary consideration is
to ascertain and give effect to the intention of
the [l]egislature” (Samiento v. World Yacht
Inc., 10 N.Y. 3d 70, 77–78 [2008], quoting
Matter of DaimlerChrysler Corp. v. Spitzer,
7 N.Y. 3d 653, 660 [2006]). Inasmuch as “the
clearest indicator of legislative intent is the
statutory text, the starting point in any case
of interpretation must always be the
language itself, giving effect to the plain
meaning thereof” (Majewski v. Broadalbin–
3

We hereinafter refer to the first clause of this sentence as the
“notwithstanding clause.”

7a
Perth Cent. School Dist., 91 N.Y. 2d 577, 583,
[1998]; see Matter of Avella v. City of New
York, 29 N.Y. 3d 425, 434 [2017]). As we have
repeatedly explained, “courts should construe
unambiguous language to give effect to its
plain meaning” (Matter of DaimlerChrysler
Corp., 7 N.Y. 3d at 660. “Absent ambiguity
the courts may not resort to rules of
construction to [alter] the scope and
application of a statute” because no such
rule “gives the court discretion to declare
the intent of the law when the words are
unequivocal” (Bender v. Jamaica Hosp., 40
N.Y. 2d 560, 562, [1976]; see also McKinney’s
Cons Laws of NY, Statutes § 94, Comment
[“(t)he (l)egislature is presumed to mean what
it says”]).4
The legislature’s intention, as reflected in the
language of the statute at issue here, is clear and
4

When, as here, the “question is one of pure statutory reading
and analysis, dependent only upon accurate apprehension of
legislative intent, we need not and do not defer to [an] agency in
construing [a] statute’” (Matter of Ansonia Residents Assn. v. New
York State Div. of Hous. & Community Renewal, 75 N.Y. 2d 206,
214 [1989] [internal quotation marks and citation omitted]).
Thus, we decline to defer to a private advisory letter issued by the
New York State Division of Housing and Community Renewal
that defendants advance in support of their proffered reading.
Nor do we defer to the regulations promulgated by the New York
City Department of Housing Preservation and Development
upon which defendants rely (see 28 RCNY 32–02, 32–05[a]),
which add an exception for luxury deregulation that is not found
in section 421-g (see Roberts v. Tishman Speyer Props., L.P., 13
N. Y. 3d 270, 285, [2009]; compare Assessor’s Manual, Exemption
Administration, New York State Department of Taxation and
Finance [listing only one exception for cooperatives and
condominiums consistent with the language of the statute]).

8a
inescapable. During “the entire period for which the
eligible multiple dwelling is receiving” RPTL 421–g
benefits, it “shall be fully subject to control” under the
RSL, “notwithstanding the provisions of” that regime
or any other “local law” that would remove those
dwelling units from such control, “unless exempt
under such local law from control by reason of the
cooperative or condominium status of the dwelling
unit” (RPTL 421–g [6] [emphasis added]).5 The statute
does not say that eligible units shall be fully subject to
“the provisions of” any local law for the stabilization of
rents. Put differently, the notwithstanding clause of
the statute evinces the legislature’s intent that any
“local law for the stabilization of rents” that would
exempt the unit from “control under such local law”
does not apply to buildings receiving RPTL 421–g
benefits, with the sole exception being for cooperatives
and condominiums (see People v. Mitchell, 15 N.Y. 3d
93, 97 [2010] [describing a notwithstanding clause as
“the verbal formulation frequently employed for
legislative directives intended to preempt any other
potentially conflicting statute”]).
Defendants’ contention, adopted by the dissent, that
the notwithstanding clause was intended to import
into RPTL 421–g (6) the entire RSL, including those
provisions that would remove the units from control,
cannot be squared with the statutory language.
Indeed, if accepted, defendants’ proffered construction
would simultaneously render superfluous both the
entire notwithstanding clause and the exception for
cooperatives and condominiums. We reject defendants’
5

Contrary to the dissent’s assertion, the word “control,” as
used in this context, does not somehow encompass the
antithetical concept of decontrol or, put differently, the absence
of regulation (see dissenting op, at 100).

9a
suggestion that we read those provisions out of the
statute (see Matter of Mestecky v. City of New York,
30 N.Y. 3d 239, 243 [2017] [“meaning and effect should
be given to every word of a statute and . . . an
interpretation that renders words or clauses
superfluous should be rejected” (internal quotation
marks and citation omitted)]). If the legislature
intended to import the deregulation provisions of the
RSL, it easily could have so stated (see Majewski, 91
N.Y. 2d at 583).
Moreover, defendants’ reading of the statute fails to
give effect to the language in RPTL 421–g (6) that
provides a mechanism for a landlord to “decontrol”
units that “would not have been subject to such control
but for [that] subdivision,” after section 421–g benefits
have terminated. That language clearly contemplates
the suspension of decontrol provisions during the
benefit period, further reaffirming what is unmistakably conveyed in the notwithstanding clause. If
defendants were correct that such units were already
subject to decontrol under the RSL during the receipt
of RPTL 421–g benefits, there would be no need
to provide a mechanism to preserve the ability to
implement decontrol after those benefits terminate.
Defendants and the dissent also fail to reconcile how,
under their reading of the statute, some of the
statutory exemptions from rent stabilization apply—
such as those that exempt buildings renovated after
1974 (see RSL 26–504[a][1])—whereas others, including luxury deregulation, do not.6
6

Defendants contend that plaintiffs’ interpretation of RPTL
421–g would sweep away too much, including section 2524.4(c) of
the Rent Stabilization Code (9 NYCRR), which provides that rent
stabilization does not apply to a housing accommodation that is
not occupied as a “primary residence.” However, as plaintiffs

10a
We further reject the reliance by defendants and the
dissent on the luxury deregulation provisions themselves. Defendants and the dissent emphasize that,
when the legislature enacted the luxury deregulation
provisions in the RSL, it enumerated certain exceptions to such deregulation, including for buildings
receiving benefits under RPTL 421–a and RPTL 489—
both statutes with similar language to that included
in section 421–g—yet, when the legislature enacted
section 421–g two years later, it did not insert an
additional exception in RSL § 26–504.2. Invoking the
canon of statutory construction that enumerated
exceptions are generally considered exclusive, they
contend that the legislature’s decision not to add
section 421–g to the list of exceptions to luxury
deregulation in the RSL is dispositive. We disagree.
RSL § 26–504.2 provides that the high rent accommodations exclusion “shall not apply to housing
accommodations which became or become subject to
this law (a) by virtue of receiving tax benefits pursuant
to [RPTL 421–a] or [RPTL 489] . . . or (b) by virtue of
article seven-C of the multiple dwelling law [the 1982
Loft Law].” Significantly, however, each of those
programs was already in place when the RSL was
amended to add the luxury deregulation provisions.
Section 421–g, on the other hand, was enacted after
RSL § 26–504.2 and, by its clear terms, unquestionably subjects apartments in buildings receiving section 421–g tax benefits to rent stabilization under the
RSL regardless of any contrary provisions of the RSL
that would otherwise result in deregulation. Because
point out, that regulation provides grounds for an owner to evict
a tenant who does not satisfy the primary residency requirement;
it does not provide a mechanism for changing the status of a rentstabilized apartment.

11a
section 421–g itself excepted from luxury deregulation
buildings receiving its benefits, the legislature did not
also need to amend the RSL. The language of RPTL
421–g (6) made the legislature’s intent clear. We
decline defendants’ invitation to construe the legislature’s silence in one statutory scheme to override its
clear intent, as plainly expressed, in another (see
Matter of New York State Assn. of Life Underwriters v.
New York State Banking Dept., 83 N.Y. 2d 353, 363
[1994] [“(i)t is settled that inaction by the (l)egislature
is inconclusive in determining legislative intent”];
People v. Ocasio, 28 N.Y. 3d 178, 183 n 2 [2016] [“such
inaction is susceptible to varying interpretations”]).
The statutory language unambiguously establishes
the legislature’s intent in this case, and the legislative
history is not the to the contrary. In that regard, we
reject the attempt by defendants and the dissent to a
contextually use legislative history to “muddy clear
statutory language” (Milner v. Department of Navy,
562 U.S. 562, 572 [2011]); see Wallace v. New York, 40
F. Supp. 3d 278, 314 n 34 [E.D. N.Y. 2014] [“the
isolated statements of . . . individual legislators—and
more so, nonlegislators—contained within the
legislative history cannot establish legislative intent”];
see also Exxon Mobil Corp. v. Allapattah Servs., Inc.,
545 U.S. 546, 569 [2005]; Doe v. Pataki, 120 F.3d 1263,
1277 [2d Cir.1997], cert denied 522 U.S. 1122 [1998]).
The letter from the Mayor to the Senate Majority
Leader that is relied upon by the dissent begins by
stating, “you asked that the legislation [which had
already passed in the Assembly] be amended to ensure
that any residential units created as a result of the
legislation are subject to the most current Rent
Stabilization Laws of the State [i.e., luxury decontrol]”
(Mayor Letter, Bill Jacket, L 1995 ch 4 at 51).
However, the language of the bill—which the Senator

12a
apparently found objectionable—was never amended
and the Mayor’s letter does not serve to alter the
language of the statute. Moreover, as the dissent
acknowledges, other aspects of the legislative history
can be read to demonstrate a contrary intention,
including a memorandum in support of the bill from
the Mayor’s Director of State Legislative Affairs that
predated the bill’s passage in the Assembly (Mem in
Support, Bill Jacket, L 1995 ch 4 at 45). Additionally,
contrary to defendants’ argument, embraced by the
dissent, the broad statutory purpose underlying
section 421–g—to revitalize lower Manhattan—is not
inconsistent with the stabilization of rents, which was
plainly contemplated under the subdivision that we
are called upon to interpret in these appeals. The goals
of revitalization and increasing affordable housing
stock are not mutually exclusive, and the language of
subdivision (6) confirms that the legislature intended
to further both aims when enacting section 421–g.
Vague claims of contrary “government assurances”
allegedly relied upon by developers receiving generous
tax benefits (dissenting op, at 6) simply do not serve to
alter the statutory text.
For all of these reasons, we conclude that apartments in buildings receiving tax benefits pursuant to
RPTL 421–g are not subject to luxury deregulation.
Plaintiffs’ remaining contentions are rendered academic.
Accordingly, in Kuzmich v 50 Murray St. Acquisition
LLC, the order of the Appellate Division should be
reversed, with costs, defendant 50 Murray Street
Acquisition LLC’s motion for summary judgment
denied, plaintiffs’ motion for partial summary
judgment seeking a declaration in their favor granted,
the case remitted to Supreme Court for further

13a
proceedings in accordance with this opinion, and the
certified question answered in the negative. In West v.
B.C.R.E. 90-W. St., LLC the order of the Appellate
Division should be reversed, with costs, defendant
B.C.R.E. 90—West Street, LLC’s motion for summary
judgment denied, plaintiffs’ motion insofar as it sought
summary judgment seeking a declaration in their
favor granted, the case remitted to Supreme Court for
further proceedings in accordance with this opinion,
and the certified question answered in the negative.
DiFIORE, Chief Judge (dissenting):
Rent stabilization is a critical government initiative
designed to foster socioeconomic diversity and make
New York City affordable for non-wealthy families.
There is no dispute in this case that “rent stabilization” applies to buildings receiving Real Property Tax
Law (RPTL) § 421–g benefits. Although the Rent
Stabilization Law was recently amended, during the
time period relevant to these appeals an owner’s
ability to collect a market-based rent on luxury apartments leased to tenants with the means to afford them
was an integral component of the rent stabilization
scheme pursuant to the 1993 Rent Regulation Reform
Act (RRRA). The question presented here is whether,
when it adopted the Lower Manhattan Revitalization
Plan (LMRP) in 1995, the Legislature intended to
subject section 421–g buildings to an enhanced form of
rent stabilization that precluded application of luxury
decontrol to individual apartments. The Legislature
determined that luxury decontrol was unavailable
only with respect to three classes of buildings expressly identified by statute but not section 421–g
buildings. Nevertheless–based on a purported plain
text analysis of language that makes no mention of
luxury decontrol–the majority retroactively confers

14a
this heightened form of rent stabilization on buildings
receiving RPTL 421–g tax benefits. Because I agree
with the unanimous decision of the Appellate Division
that this approach misinterprets the statutory text,
disregarding the broader regulatory scheme and
legislative purpose of the relevant statutes, I respectfully dissent.
The majority glosses over the context in which the
New York City government spearheaded the comprehensive legislation containing RPTL 421–g, despite
its prominence in the legislative history. Unlike today,
in the early 1990s Lower Manhattan was a depressed
area. Businesses were fleeing at “an alarming rate”
due in part to high taxes, economic development
packages offered by neighboring regions, and the
“antiquated” nature of Wall Street office space
(Governor’s Approval Mem, Bill Jacket L 1995, ch 4
at 5–6, 1995 NY Legis Ann at 46-47). Aging
skyscrapers increasingly stood empty–vacancy was at
a post-World War II high, tax assessment values were
“in a downward spiral,” and decreasing tax revenues
were causing multi-million-dollar losses for the City
(N.Y.C Office of the Mayor, Director of State
Legislative Affairs Mem in Support, Bill Jacket, L
1995 ch 4 at 44–46). The City government determined
that Lower Manhattan “demand[ed] . . . special
attention,” as worsening of this “deterioration” would
“have damaging impacts on the economic well-being
of the entire City” (id.). In response to this crisis, the
Mayor of New York City supervised the crafting of
the Lower Manhattan Revitalization Plan, a multifaceted benefits package designed to entice businesses
and the real estate industry to re-invest in Downtown
and thus “reverse the decline in [its] economy” (id.).
More specifically, it “addresse[d] the twin problems”
manifested by the downturn–“an aging commercial

15a
building stock . . . and a high vacancy rate in those
buildings” (id.). The drafters “carefully formulated”
a set of tax benefits to implement two overarching
strategies: “to stem the flow of businesses out of
Manhattan . . . and to encourage alternative uses for
obsolete commercial office buildings” (id.).
To achieve the first of these strategies, the plan
sought to “stimulate office and retail leasing activity”
in Lower Manhattan by “provid[ing] significantly
lower occupancy costs for commercial tenants” in the
form of commercial rent tax reductions, electricity cost
rebates for commercial tenants, and a real property
tax abatement for buildings that executed new
commercial leases (id.). By reducing occupancy costs,
the City intended to “place [the neighborhood] in
an excellent position to retain existing businesses
and attract new ones,” which it believed would, in
turn, result in “retention of thousands of jobs and
heightened economic activity” (id.).
To achieve the other major goal of the legislation—
finding alternative uses for obsolete office towers—the
plan encouraged the conversion of vacant commercial
buildings to residential use (id.). The conversions were
intended to “decrease the commercial vacancy rate”
and “help create a 24–hour community, spurring the
development of retail and entertainment uses that
will be a new source of revenue for the City” (id.). To
incentivize the developers in the private sector to
make “major investments” in Lower Manhattan’s
building stock, the plan included two tax benefit
programs. First, the program at issue here—enacted
at RPTL 421–g—granted a 12–year property tax
exemption and 14–year property tax abatement for
commercial buildings converted to at least 75% residential use. Second, a 12-year property tax exemption

16a
was granted to buildings whose configuration made
them suitable only for mixed commercial and residential use. Importantly, the City indicated that buildings
receiving benefits under both programs “would be
subject to rent stabilization during the benefit period”
(id.). The regulatory scheme for rent stabilization as it
stood then—contained largely in the Rent Stabilization Law of 1969(RSL)—prescribed detailed rules
limiting the types of buildings covered and provided a
system of government oversight regarding both the
rents that may be charged during rent stabilization
and circumstances in which apartments could be
transitioned to market rents under luxury decontrol.
The fact that “rent stabilization” encompassed the
entire regime in existence at that time, including its
luxury decontrol provisions adopted only two years
before, was made clear when the LMRP legislation
was before the Legislature. The measure was adopted
in 1995.
In reliance on this statute, the property owners
here—respondents in these actions or their predecessors in interest—purchased the subject buildings and
applied for RPTL 421–g benefits. In December 2002,
the West respondent purchased 90 West Street, a
historic and architecturally significant building whose
exterior is a designated landmark. Fifteen months
prior to the purchase, the building suffered extensive
damage in the September 11, 2001 terrorist attacks.
At 90 West Street, debris from the South Tower of the
World Trade Center located 100 yards away ruined the
copper mansard roof and ornamented granite façade,
and a fire that burned inside the building for over
a week destroyed eight of its twenty-four floors.
To purchase and renovate the building, the owner
secured a roughly $ 100 million low-interest mortgage
loan from the New York City Housing Development

17a
Corporation (HDC), a loan which it later refinanced.
Before investing in the property, the new owner of 90
West Street received assurances from the New York
City government that the entire rent stabilization
regime—including its luxury decontrol provisions—
would apply during the entire period that the owner
received section 421–g benefits. An intensive renovation ensued, including the closely regulated repair of
the historic exterior, which resulted in the creation of
410 new apartments from previously burned-out office
space. 140 of those apartments—roughly one third—
were leased below the rent threshold at which luxury
decontrol could be applied and were thus treated as
rent-regulated.
The property owner in Kuzmich purchased the
subject buildings—50 Murray Street and 53 Park
Place—in 2014 for $ 540,000,000. By the time the
current owner purchased the property, its predecessor
had been receiving section 421–g tax benefits for ten
years based on the earlier conversion of the building
to residential use. All of the apartments had been
initially leased at rents over the luxury decontrol
threshold and, thus, consistent with the RSL, the
rents for these apartments were not restricted. Like
the property owner in West, the owner in Kuzmich
sought and received government assurances that the
luxury decontrol provisions of the rent stabilization
scheme were both applicable and carried over from the
prior owner’s non-rent-regulated treatment of those
apartments.
Appellant tenants rented apartments in 90 West
Street, 50 Murray Street, and 53 Park Place at market
rents, a status that was reflected in leases stating that
the apartments were not rent-stabilized. Based on the
most recent lease renewals, the rents for the relevant

18a
apartments ranged from $ 2,000 to $ 5,300 per month
for the 90 West Street building and from $3,295 to
$10,295 per month for the Murray Street and Park
Place properties.
Construing RPTL 421–g(6) and the Rent Stabilization Law of 1969, incorporated therein, I disagree with
the majority’s conclusion that the luxury decontrol
provisions of the RSL were inapplicable to section
421–g buildings. We all agree that, by virtue of the
property owners’ receipt of tax benefits under RPTL
421–g, subsection (6) of that statute conferred rent
stabilization on the buildings—which otherwise would
not have been subject to that regulatory scheme—
while they received benefits. Subsection (6) states, in
relevant part,
“Notwithstanding the provisions of any local
law for the stabilization of rents in multiple
dwellings or the emergency tenant protection
act of nineteen seventy-four [EPTA] the rents
of each dwelling unit in an eligible multiple
dwelling shall be fully subject to control under
such local law, unless exempt under such
local law from control by reason of the
cooperative or condominium status of the
dwelling unit, for the entire period for which
the eligible multiple dwelling is receiving
benefits pursuant to this section . . . .”
(emphasis added).
In New York City, the primary “local law” governing
rent stabilization is the Rent Stabilization Law. The
prefatory phrase “notwithstanding other provisions of
law” is generally used by the Legislature to preempt
other conflicting statutes (see People v. Mitchell,
15 N.Y.3d 93, 97 [2010]). The only provisions of the
RSL that would conflict with the imposition of that

19a
body of law to these newly renovated and converted
buildings are the temporal limitations narrowing
its reach to buildings completed or substantially
rehabilitated between February 1, 1947 and January
1, 1974 (RSL [Administrative Code of City of NY] § 26–
504; EPTA § 5[a] [5]) {McKinney’s Uncons Laws of NY
§ 8625 (a) (5) (L 1974, ch 576, sec. 4 § 5, as amended)]).7
On its face, therefore, subsection (6) extends “full[ ] . . .
control” under the RSL to the apartments in 421–g
buildings for the duration that the owner receives the
tax benefits by using the “notwithstanding” prefatory
phrase to supersede the RSL’s temporal provisions.8
Had the Legislature omitted the “notwithstanding”
clause, the bare incorporation of the Rent Stabilization
Law would have had no practical effect because, by its
terms, that law would not have reached LMRP
buildings. The word “control” is defined as “the power
or authority to guide or manage” or “the regulation of
economic activity especially by government directive”
(Merriam-Webster
Online
Dictionary,
control,
[https://www.merriamwebster.com/dictionary/control]).
This plain text provides that apartments in section
421–g buildings fall within the governing or
regulating power of the RSL, i.e., that they are subject
to the rent stabilization scheme. There is no language
in section 421–g(6) indicating that the Legislature
intended to impose only a portion of the rent
7

Rent control generally applies to units in buildings completed
prior to February 1, 1947 in which the tenant has resided continuously since 1971 (N.Y.C Admin Code § 26–403[e][2]).
8

The statute also supersedes contradictory provisions of the
Emergency Tenant Protection Act (ETPA), which, broadly
speaking, authorized New York City to extend the RSL’s rent
stabilization regime to additional buildings not encompassed by
the original RSL. The RSL now incorporates the ETPA by reference (see RSL § 26–504[b]).

20a
stabilization scheme – much less that it intended to
exclude the critical luxury decontrol provisions in
place at that time.
Passed as part of the 1993 RRRA, the luxury decontrol provisions in the RSL governing the tenancies at
issue in these cases permitted deregulation of vacant
apartments when rent reached a certain threshold
(as relevant here, $ 2,000 per month) and occupied
apartments when both the rent and the tenants’
combined annual income exceeded certain threshold
amounts (RSL §§ 26–504.1, 26.504.2, 26.504.3). The
RSL contained provisions that specifically precluded
the application of luxury decontrol to buildings
“subject to the [RSL] (a) by virtue of receiving tax
benefits pursuant to section [421–a] or [489] of the
[RPTL] . . . , or (b) by virtue of article seven-C of
the multiple dwelling law” (RSL §§ 26–504.1, 26–
504.2[a]). 9 There was no similar exception for the
RPTL 421–g program. None was added to the luxury
decontrol provisions when the Legislature enacted
the RPTL 421–g program in 1995, two years after
adopting luxury decontrol, nor had section 421–g
buildings been exempted from luxury decontrol, despite subsequent amendments in 1997, 2000, 2003,
2011, and 2015. While we do not necessarily derive
meaning from legislative “inaction,” we place considerable significance on what the Legislature chooses
to omit when it does act. Although the majority
9

RPTL 421–a provides tax benefits to owners that build newconstruction, multi-unit residential buildings on vacant land in
certain areas of the City. RPTL 489 governs the “J–51” tax
exemption program for building owners that complete certain
projects, such as major capital improvements; and article 7–C of
the Multiple Dwelling Law protects residents of converted loft
buildings.

21a
departs from this rule today, when a statute includes
a list of exemptions we typically construe it as “evincing an intent to exclude any others not mentioned”
(Walker v. Town of Hempstead, 84 N.Y.2d 360, 367,
[1994]; Jericho Water Dist. v. One Call Users Council,
Inc., 10 N.Y.3d 385, 391 [2008] [“exceptions to
generally applicable statutory provisions should be
strictly construed”]). Thus, in light of the Legislature’s
clear exemption of three other categories of building
from luxury decontrol, the decision not to include
section 421–g buildings in that list reflects an intent
that they be fully subject to the entirety of the
rent stabilization regulatory scheme, including its
decontrol provisions. Had the Legislature intended to
take the substantial policy step of exempting luxury
decontrol, thereby imposing a specialized form of
rent stabilization on section 421–g buildings, it could
have—and would have—said so, as it did with respect
to RPTL 421–a and 489 and Multiple Dwelling Law
article 7–C buildings.
Notably, section 421–g(6) contains language substantively identical to the language in RPTL 421–
a(2)(f)—and was obviously modeled after that provision. 10 If, as the majority contends, the “control”
language common to both sections 421–a(2)(f) and
421–g(6) unambiguously excludes the application of
the luxury decontrol provisions on eligible buildings,
then why did the Legislature expressly exempt RPTL
421–a buildings from luxury decontrol in a separate
10

Section 421–a(2)(f) provides: “Notwithstanding the provisions of any local law for the stabilization of rents in multiple
dwellings or the [EPTA], the rents of a unit shall be fully subject
to control under such local law or such act, unless exempt under
such local law or such act from control by reason of the cooperative or condominium status of the unit . . . ”

22a
statute? The fact that the Legislature considered it
necessary to create a statutory exemption to luxury
decontrol for section 421–a apartments demonstrates
that it understood that, absent such exemption, the
entirety of the RSL—including luxury decontrol—
would apply to them. Its decision not to include section
421–g buildings in the exemption should be given that
effect. But, today, the majority adopts a construction
that either reads the essentially identical statements
in sections 421–a and 421–g to mean two different
things or renders the language specifically exempting
section 421–a apartments from luxury decontrol
superfluous. This strongly suggests that its purported
plain language analysis misses the mark.
The majority asserts that the specific exemptions for
RPTL 421–a and other buildings is a product of timing,
i.e., that they reflect legislative concern that the provisions conferring rent stabilization on those buildings
would fail to preclude luxury decontrol—not because
of their language—but merely because they were
enacted before luxury decontrol existed. But, when
subsequent legislation impacts the operation of an
existing statute, we presume the Legislature was
aware of this effect and we interpret the statute
according to its plain language, notwithstanding the
timing of its enactment (see Matter of Mancini v. Office
of Children & Family Servs., 32 N.Y.3d 521, 530,
[2018] [although Worker’s Compensation Law
§ 15(3)(v), a preexisting statute, expressly incorporated
section 15(3)(w), which was later amended, “the
Legislature necessarily altered the operation of
paragraph (v) . . . there was simply no need for the
Legislature to add language to paragraph (v) to reflect
changes in paragraph (w) because paragraph (v)
already wholly incorporated paragraph (w)’s . . .
regime”]). The more compelling explanation for the

23a
Legislature’s failure to expressly exempt section 421–
g buildings from luxury decontrol is the obvious one –
luxury decontrol was intended to apply to these
properties.11
Moreover, the majority is incorrect that the “decontrol”
provisions of subsection (6) “clearly contemplate[ ] the
suspension of decontrol provisions during the benefit
period” (majority op at 7) Because subsection (6)
subjects some apartments (those with rents below the
decontrol threshold) to rent stabilization but provides
11

The same is true under Public Housing Finance Law § 654–
d(18). Although the majority ignores this issue, I agree with the
Appellate Division that, in West, the building owner was entitled
to a declaration that it was not precluded from utilizing luxury
decontrol based on its receipt of low-interest mortgages from
HDC pursuant to the Public Housing Finance Law. Public
Housing Finance Law § 654–d(18) states, in relevant part:
“Notwithstanding the provisions of . . . the emergency
housing rent control law, the local emergency housing
rent control act, or local law enacted pursuant thereto,
all dwelling units in a multiple dwelling . . . which is
financed by a mortgage loan . . . except for [cooperative
and condominium units], shall be subject to the [RSL]”
(emphasis added).
The statute unqualifiedly subjects the apartments in eligible
buildings “to the rent stabilization law.” Thus, Private Housing
Finance Law § 654–d(18)—like RPTL 421–g(6)—confers the
entirety of the RSL, including its luxury decontrol provisions, on
buildings subject to its terms. Further, it is not listed among the
statutory exceptions to luxury decontrol and, here, the majority
cannot rely on the timing of the statute’s enactment in an attempt
to explain the omission. Private Housing Finance Law § 654–d was
enacted in 1992, one year before the 1993 RRRA (L 1992, ch 702).
Thus, when the Legislature amended the RSL to include the
luxury decontrol regime, it was fully aware of the Private Housing
Finance Law’s imposition of rent stabilization on eligible
buildings, yet it did not include PHFL buildings among those
expressly exempted from luxury decontrol.

24a
that this rent stabilization ends at the close of the
benefit period, the Legislature mandated that notice
procedures be followed prior to this type of decontrol.
Indeed, all apartments that are stabilized pursuant to
a tax benefit statute are eligible for decontrol at the
conclusion of the benefit period, regardless of whether
they meet other decontrol criteria in the RSL. But this
avenue for decontrol in no way forecloses other
avenues—i.e., luxury decontrol—prior to the close of
the benefit period, unless luxury decontrol provisions
have been expressly exempted, which did not occur
here.
The majority also cites language in subsection (6)
indicating that rent stabilization does not apply to
units in section 421–g buildings “exempt . . . from
control by reason of . . . cooperative or condominium
status,” asserting that this represents the sole exception to rent limitations intended by the Legislature.
The majority affords too much weight to this language
which, if anything, supports my interpretation outlined above. Again, RPTL 421–g(6) largely tracks
RPTL 421–a(2)(f). The condominium/cooperative clause
in section 421–a(2)(f), added in 1981, has long been
interpreted to “constitute a mere clarification of
the pre-existing law that rent stabilization laws do not
apply [to cooperatives and condominiums]” (Fasa
Props. v. Freidus, 103 A.D.2d 729, 730 [1st Dept.
1984]), indicating that the language making units
“fully subject to control” under the RSL—the same
language the Legislature later used in section 421–
g(6)—imported preexisting exceptions to rent
regulation.
Because the Legislature is “presumed to be familiar”
with existing case law, “where a statute has been
interpreted by the courts, the continued use of the

25a
same language by the Legislature subsequent to the
judicial interpretation is indicative that the legislative
intent [was] correctly ascertained” (Matter of Knight–
Rider Broadcasting v. Greenberg, 70 N.Y.2d 151, 157
[1987]). When, after the Fasa decision, the Legislature
enacted section 421–g using substantively identical
language as in section 421–a, it signaled approval of
that court’s conclusion that the condominium/
cooperative clause was merely explanatory, rather
than a separate substantive exemption. The
condominium/ cooperative language is not relevant to
this case. It adds nothing to any party’s position.
Far more significant is the legislative history of the
LMRP, which the majority largely ignores. The bill
jacket contains a letter from the Mayor of New York
City, the proponent of the legislation, to the Senate
Majority Leader, clarifying:
“In our discussion you asked that the legislation be amended to ensure that any
residential units created as a result of the
legislation are subject to the most current
Rent Stabilization Laws of the State. I have
discussed this matter with the drafters of
the legislation and with the Commissioner of
the Department of Housing Preservation and
Development (HPD), the City agency responsible for implementing the residential conversion program proposed in the legislation. The
City’s intention has always been that dwelling units in property receiving benefits under
the residential conversion program . . . would
be subject to rent stabilization to the same
extent as, but to no greater extent than, other
rent regulated property . . . Thus, the provisions of the [RRRA] of 1993 that provide for

26a
the exclusion of high rent accommodation and
for high income rent decontrol would apply to
property receiving benefits under the programs created by the Lower Manhattan
legislation” (Letter from Rudolph W. Giuliani
to Joseph Bruno, Aug. 16, 1995, Bill Jacket, L
1995 ch 4 at 51–52).
During the Senate debate, this letter was read into
the legislative record, and comments made on the floor
reflect an understanding that the entirety of rent
stabilization, including luxury decontrol, would apply
to section 421–g buildings. In fact, the only Senator to
vote against the bill opposed the legislation partly on
those grounds, noting it would “subsidize the conversion of commercial space . . . which is going to be
luxury housing.” Letters from associations representing buildings and property owners submitted to the
Governor in support of the legislation likewise note
that the 1993 RRRA would apply to residential units
created under the program (Letter from Robert A
Wieboldt, Executive Vice-President, NY St Builders
Assn, to Michael Finnegan, Esq., Counsel to Governor,
Oct. 27, 1995, Bill Jacket, L 1995 ch 4 at 20, 49–50).
Nothing in the bill jacket supports the contrary
interpretation now adopted by the majority. 12 We
routinely cite materials of this type as evidence of
legislative intent and have decided cases on legislative
history far less elucidating than these statements (see
e.g. Matter of Diegelman v. City of Buffalo, 28 N.Y.3d
12

The lone statement in the memorandum submitted to the
Assembly and Senate by the Mayor's office that “rent stabilization” would apply to section 421–g buildings is not to the contrary.
As explained, rent stabilization did and does apply to these
buildings. Nothing in that statement suggests that the luxury
decontrol provisions of the scheme would be excluded.

27a
231, 240 [2016]; Matter of Manouel v. Board of
Assessors, 25 N.Y.3d 46, 52 [2015]; People v. Mills, 11
N.Y.3d 527, 534–35 [2008]; Council of City of N.Y. v.
Giuliani, 93 N.Y.2d 60, 70 [1999]; Nowlin v. City of
New York, 81 N.Y.2d 81, 87 [1993]). But, today, these
statements are disregarded by the majority, which
dismisses them with a reference to inapposite federal
precedent.
Even viewed more broadly, the legislative history of
the Lower Manhattan Revitalization Plan offers a
simple explanation for why the Legislature treated
section 421–g buildings differently than some other
buildings subjected to rent stabilization by receipt of
tax benefits. The aim of this legislation was not the
creation of affordable housing. Rather, section 421–g
was enacted to address an economic crisis in the City:
the real estate depression in Lower Manhattan. The
legislative history materials emphasize—for both the
broader revitalization plan and for section 421–g—the
economic recovery of the neighborhood. Indeed, a significant portion of the revitalization plan was intended
to incentivize commercial, not residential, leasing.
Further, the conversion of old office space to apartments was specifically designed to decrease building
vacancy by finding a new use for obsolete buildings,
re-build the City’s tax base, and promote growth in
retail and entertainment spaces to generate revenue.
To be sure, requiring property owners granted tax
benefits to comply with the RSL—from which they
would have otherwise been entirely exempt based on
the post–1974 renovation dates—reflects the legislative extraction of a benefit from the real estate
industry on behalf of tenants. Indeed, the record
reflects that, between 1994 and 2012, almost 2,500
rent stabilized units were added to the housing stock

28a
by virtue of the section 421–g program. 13 But the
critical compromise reflected in the legislative history
materials was the provision of tax benefits in order to
incentivize developers to undertake “major investments” (i.e., substantial conversions and renovation
projects) in a risky neighborhood.
Consistent with the statute’s plain language and
clear legislative history, HPD promulgated regulations providing that luxury decontrol applied to
section 421–g buildings while they receive benefits (see
Rules of City of New York Housing Preservation and
Development § 32–05 [“Exempt Dwelling Units”—
defined in section 32–02 as including units exempt
under the 1993 RRRA—are not rent stabilized under
the section 421–g program]). Likewise, the New York
State Division of Housing and Community Renewal
(DHCR) (responsible for administering rent stabilization) has repeatedly issued informal guidance consistent with HPD’s interpretation, stating that “highrent deregulation is available with respect to Sec. 421–
g units” and that, further, “high-rent deregulation is
available from the inception of the first residential
tenancy” such that property owners need not wait
until the vacancy of the first tenant to treat a
converted unit as deregulated (see Letter from Charles
Goldstein, Associate Counsel, DHCR, to Sherwin
13

Although I agree with its holding, the Appellate Division's
statement in the Kuzmich decision that “most, if not all, apartments in these buildings would, in fact, never be rent stabilized”
(Kuzmich v. 50 Murray Street Acquisition LLC, 157 A.D.3d 556,
557, 69 N.Y.S.3d 627 [1st Dept. 2018] [emphasis added]) is
puzzling. It is clear from the record that apartments were
subjected to restricted rents as a result of this program – in fact,
in the West building alone, nearly one-third of the apartments
had regulated rents because they did not meet the criteria for
luxury decontrol.

29a
Belkin, Esq., Jan. 30, 1997 at 1–2; see also Letter from
Charles Goldstein, Associate Counsel, DHCR, Aug. 22,
2000 at 1; Letter from Charles Goldstein, Associate
Counsel, DHCR, Sept. 26, 2002 at 1).
While, as the majority correctly notes, agency rules
and guidance are not entitled to deference in this pure
statutory interpretation case, they cannot be dismissed as irrelevant. HPD promulgates regulations
pursuant to a traditional notice-and-comment procedure, but neither plaintiffs nor the majority have
provided any evidence that anyone ever construed
section 421–g(6) as precluding application of luxury
decontrol to section 421–g buildings during receipt of
tax benefits. To the contrary, it is clear from HPD’s
promulgated rules and forms, as well as DHCR’s
informal guidance, that the agencies most closely
involved in the implementation of the section 421–g
program and the property owners subject to that
program (not to mention the tenants that agreed to
market-rate rents) shared a common understanding—
that the entirety of the RSL applied to section 421–g
buildings, including its luxury decontrol provisions.
Property developers were induced by a legislative
benefits package to purchase and convert obsolete,
empty office buildings into apartments, in a depressed
and empty neighborhood that had no residential
community to speak of. Both property owners here
submitted sworn affidavits stating that they consulted
government agencies (including HPD) as to whether
luxury decontrol would apply as part of their due
diligence process and were “consistently advised” that
it would. They relied on these representations, in
addition to the DHCR guidance and legislative history, in purchasing and financing the properties.
Indeed, they averred that the availability of luxury

30a
decontrol was a “key component” in their decisions as,
without it, their investments in the buildings would
not have made “economic sense.”
In 1995, there was no guarantee that renters could
be drawn to Lower Manhattan, and the developers
bore that risk. But to the benefit of the City and State,
the section 421–g program worked. There is now a
robust 24–hour community in Lower Manhattan, as
hoped. The program succeeded in part because property owners believed—consistent with the text of the
statute, its legislative history and government guidance—that the rent stabilization law would function
as it did almost everywhere else in the City and, thus,
would include luxury decontrol. It is worth noting that
the majority’s decision today may unfairly subject
these property owners to substantial liability for rent
overcharges in direct contravention of the representations that mobilized the real estate industry to
transform Lower Manhattan in the first place.
The majority’s holding will lead to results antithetical to the Legislature’s aims in enacting both New
York City’s rent stabilization scheme and the 1995
Lower Manhattan Revitalization Plan. Soon, tenants
of Lower Manhattan buildings who agreed to lease
luxury apartments at market rates (in this case, at up
to $ 10,000 per month; and in the cases that will
inevitably follow, at potentially higher rents) will
converge on DHCR in an attempt to collect refunds,
based on the majority’s conclusion that their apartments should have been rent-stabilized for years.
Those “overcharge” refunds will be assessed against
property owners (or their successors in interest)
promised by government that they could lease the
tenants’ luxury apartments at market rents after
purchasing and developing previously-empty build-

31a
ings in exchange for section 421–g tax benefits. This
destabilization of the decades-old RPTL 421–g and
Private Housing Finance Law § 654–d programs does
nothing to further the worthy policies of rent
stabilization and is unlikely to result in the inclusion
of any additional apartments in the rent stabilization
program. Even worse, the next time government looks
to the private sector and asks developers to take risk
and finance a revitalization program, potential
investors will think twice about relying on a common
sense reading of legislation, clear legislative history
and the representations of implementing agencies—
none of which protected them here from the majority’s
retroactive reading of statutory text that dramatically
changes the terms of the bargain long after the
Legislature’s goals have been achieved. For all of these
reasons, I respectfully dissent.
In Kuzmich v. 50 Murray St. Acquisition LLC: Order
reversed, with costs, defendant’s motion for summary
judgment denied, plaintiffs’ motion for partial
summary judgment seeking a declaration in their
favor granted, case remitted to Supreme Court, New
York County, for further proceedings in accordance
with the opinion herein and certified question
answered in the negative.
Opinion by Judge Stein. Judges Rivera, Fahey, Garcia,
Wilson and Feinman concur. Chief Judge DiFiore
dissents and votes to affirm in an opinion.
In West v. B.C.R.E—90 W. St., LLC: Order reversed,
with costs, defendant B.C.R.E. 90—West Street, LLC’s
motion for summary judgment denied, plaintiffs’
motion insofar as it sought summary judgment
seeking a declaration in their favor granted, case
remitted to Supreme Court, New York County, for
further proceedings in accordance with the opinion

32a
herein and certified question answered in the
negative.
Opinion by Judge Stein. Judges Rivera, Fahey, Garcia,
Wilson and Feinman concur. Chief Judge DiFiore
dissents and votes to affirm in an opinion.

33a
APPENDIX B
157 A.D.3d 556
SUPREME COURT, APPELLATE DIVISION,
FIRST DEPARTMENT, NEW YORK
————
5479
Index 155266/16
————
JOHN KUZMICH, et al.,
Plaintiffs-Respondents,
v.
50 MURRAY STREET ACQUISITION LLC,
Defendant-Appellant.
THE REAL ESTATE BOARD OF NEW YORK AND THE
PUBLIC ADVOCATE FOR THE CITY OF NEW YORK,
Amici Curiae.
————
Entered: January 18, 2018
————
Attorneys and Law Firms
Holwell Shuster & Goldberg, LLP, New York (James
M. McGuire of counsel), for appellant.
Himmelstein, McConnell, Gribben, Donoghue &
Joseph LLP, New York (Serge Joseph of counsel), for
respondents.
Rosenberg & Estis, P.C., New York (Alexander
Lycoyannis of counsel), for the Real Estate Board of
New York, amicus curiae.

34a
Letitia James, Public Advocate for the City of New
York, New York (Molly Thomas–Jensen of counsel),
for the Public Advocate for the City of New York,
amicus curiae.
Acosta, P.J., Sweeny, Gische, Andrias, JJ.
OPINION
Order, Supreme Court, New York County (Carol R.
Edmead, J.), entered July 3, 2017, which, among other
things, denied defendant’s motion for summary judgment, granted plaintiffs’ cross motion for partial summary
judgment, declared that plaintiffs’ apartments are
subject to rent stabilization, and ordered that a special
referee be designated to hear and determine the
amount of overcharges and the amount of attorneys’
fees and costs incurred by plaintiffs in litigating this
action, unanimously reversed, on the law, without costs,
plaintiffs’ cross motion denied, defendant’s motion for
summary judgment granted to the extent of declaring
that plaintiffs’ apartments were properly deregulated
and are not subject to rent stabilization, the orders
regarding the special referee vacated, and the matter
remanded for further proceedings.
Except for condominiums and cooperatives, dwellings in buildings that receive tax benefits pursuant to
Real Property Tax Law § 421–g are subject to rent
stabilization for the entire period the building is receiving 421–g benefits (Real Property Tax Law § 421–g[6]).
However, 421–g buildings are subject to the luxury
vacancy decontrol provisions of Rent Stabilization Law
of 1969 [Administrative Code of City of NY] § 26–
504.2(a), unlike buildings that receive tax benefits
pursuant to Real Property Tax Law §§ 421–a and 489.
Real Property Tax Law § 421–g does not create
another exemption to Rent Stabilization Law § 26–

35a
504.2(a). Supreme Court essentially interpreted Real
Property Tax Law § 421–g(6)’s prefatory phrase “Notwithstanding the provisions of any *557 local law
for [rent stabilization]” to mean “Notwithstanding [the
luxury decontrol] provisions of any local law.” However,
“[a] statute or legislative act is to be construed as a
whole, and all parts of an act are to be read and
construed together to determine the legislative intent”
(New York State Psychiatric Assn., Inc. v. New York
State Dept. of Health, 19 N.Y.3d 17, 23–24, 945 N.Y.S.2d
191, 968 N.E.2d 428 [2012] [internal quotation marks
omitted] ). Accordingly, the prefatory phrase, which
also appears identically in RPTL 421–a(2)(f), must be
read in tandem with the coverage clause of that
section. The prefatory phrase and the coverage clause
were both necessary to extend rent stabilization to
certain dwellings in buildings receiving 421–g benefits.
As plaintiffs point out, if 421–g buildings are subject
to luxury vacancy decontrol, then most, if not all,
apartments in buildings receiving 421–g benefits would,
in fact, never be rent-stabilized, because the initial
monthly rents of virtually all such apartments were
set, as here, at or above the deregulation threshold.
Although courts should construe statutes to avoid “objectionable, unreasonable or absurd consequences” (Long
v. State of New York, 7 N.Y.3d 269, 273, 819 N.Y.S.2d
679, 852 N.E.2d 1150 [2006] ), the legislative history
in this case demonstrates that the legislature was
aware of such consequences during debate on the bill
that enacted Real Property Tax Law § 421–g.
Plaintiffs also argue that a dwelling in a building
receiving 421–g benefits cannot be deregulated upon
the setting of the initial rent at or above the deregulation threshold. They contend that a rent-stabilized
dwelling cannot be deregulated unless it is first regis-

36a
tered as a rent-stabilized apartment. However, this
Court recently rejected this contention in Matter of
Park v. New York State Div. of Hous. & Community
Renewal, 150 A.D.3d 105, 113, 50 N.Y.S.3d 377 [1st
Dept. 2017], lv dismissed 30 N.Y.3d 961, 64 N.Y.S.3d
662, 86 N.E.3d 555 [2017]).
We have considered plaintiffs’ remaining arguments
and find them unavailing.

37a
APPENDIX C
2017 WL 2840391 (N.Y.Sup.),
2017 N.Y. Slip Op. 31416(U) (Trial Order)
SUPREME COURT OF NEW YORK
NEW YORK COUNTY
————
No. 155266/16
————
JOHN KUZMICH, SANDRA MAY, JOSHUA SOCOLOW,
IGNATIUS NAVASCUES, KENDTRICK CROASMUN,
RISHI KHANNA, CAITLAN SENSKE, JAMIE AXFORD,
JONATHAN GAZDAK, SUZY HEIMAN, MICHAEL
GORZYNSKI, NIKESH DESAI, HEIDI BURKHART,
BEN DRYLIE-PERKINS, KEIRON MCCAMMON,
LISA ATWAN, JENNIFER SENSKE RYAN,
BRAD LANGSTON, ALEJANDRA GARCIA, LISA CHU,
SCOTT REALE, DAN SLIVJANOVSKI, SHIVA PEJMAN,
LAURIE KARR, ADAM SEIFER, ANAND SUBRAMANIAN,
DARCY JENSEN, ELIN THOMASIAN, HAZEL LYONS,
DAVID DRUCKER, HOWARD PULCHIN, JIN SUP LEE,
JENN WOOD, NICHOLAS APOSTOLATOS,
ALEX KELLEHER, BRIAN KNAPP, JEFF RIVES,
JASON LEWIS, LAURA FIESELER HICKMAN,
FRANKLIN YAP, AND STEVEN GREENES,
Plaintiffs,
v.
50 MURRAY STREET ACQUISITION LLC,
Defendants.
————
July 3, 2017
————

38a
TRIAL ORDER
Carol R. Edmead, J.
Defendant 50 Murray Street Acquisition LLC (Owner)
moves, pursuant to CPLR 3212 (a), for summary
judgment dismissing plaintiff tenants’ (Tenants) first
through sixth causes of action; granting Owner summary judgment on its first counterclaim, and declaring
that Tenants’ apartments are deregulated; and, granting Owner summary judgment on Owner’s second
counterclaim, and awarding a money judgment against
Tenants for attorneys’ fees and costs. Tenants crossmove for summary judgment declaring that their
apartments are subject to rent stabilization, that Tenants
are rent stabilized tenants thereof, and that the rents
charged to Tenants, since the commencement of their
tenancies, have been, and continue to be, unlawful;
and, for an order ordering a prompt trial to determine
the amount of rent overcharges and other damages.
The legal issue before the court may be stated
succinctly: is high rent deregulation applicable to
buildings receiving Real Property Tax Law (RPTL)
§ 421-g benefits?
In general, rent stabilized apartments cease to be
subject to rent regulation when their legal regulated
rent and the tenant’s yearly income in each of the two
preceding years exceed a certain amount, $2,700 per
month, in 2015 and $200,000, respectively.
Rent Stabilization Law (RSL) § 26-504.3 (a) (2) and
(3); Matter of Park v New York State Div. of Hous. &
Community Renewal, 150 AD3d 105 (2017).
RPTL § 421-g, enacted in 1995, was intended to spur
the conversion of non-residential buildings in lower
Manhattan to residential use. It provides both real

39a
estate tax exemptions and tax abatement benefits
when a building, used for non-residential purposes, is
converted to at least 75% residential use. RPTL § 421g (6) provides, in relevant part:
“Notwithstanding the provisions of any local
law for the stabilization of rents in multiple
dwellings or the emergency tenant protection
act of nineteen seventy-four, the rents of each
dwelling unit in an eligible multiple dwelling
shall be fully subject to control under such
local law, unless exempt under such local law
from control by reason of the cooperative or
condominium status of the dwelling unit, for
the entire period for which the eligible multiple dwelling is receiving benefits pursuant to
this section.”
The parties disagree as to whether, pursuant to
section 421-g (6), the high rent decontrol provisions of
the RSL are applicable during the benefit period.
Defendant argues that the phrase “such local law,”
in section 421-g (6), refers to the RSL as a whole,
including the provisions’ for decontrol, and that, when
the Legislature excepted condominium and cooperative apartments from the reach of rent regulation
under this statute, it could also have excepted apartments subject to high rent decontrol, but did not do so.
Defendant also points out that the language quoted
above, from section 421-g (6), is identical to the
language of RPTL § 421-a, and that, while, after RPTL
§ 421-a was enacted, the Legislature expressly excepted
luxury deregulation in respect to apartments in buildings that received tax benefits pursuant to RPTL
§ 421-a (see RSL § 26-504.2), it has not done so in

40a
respect to buildings receiving tax benefits pursuant to
RPTL § 421-g.
It is established that “‘all parts of a statute are to be
given effect and . . . a statutory construction which
renders one part meaningless should be avoided.’”
Matter of Avella v City of N. Y., ___ NY3d ___, 2017 WL
2427307, quoting Rocovich v Consolidated Edison, 78
NY2d 509, 515 (1991). Defendant’s first argument is
untenable, because, if adopted, it would render the
introductory “[n]othwithstanding” phrase, which defendant ignores, superfluous. That phrase clearly refers to
provisions in the RSL and the Emergency Tenant
Protection Act of 1974, such as the high rent and
high income decontrol provisions enacted in the Rent
Regulation Reform Act of 1993 (RSL § 26-504.3), that
are contrary to the regulation of rent. RPTL § 421-g
provides that, regardless of those provisions, “the rents
of each dwelling unit in an eligible multiple dwelling
shall be fully subject to control under” the RSL, except
for dwelling units that are exempted by the RSL,
because they are cooperatives or condominiums.
Defendant’s second argument also fails. RPTL § 421g (6) provides that, after the tax benefits of section 421g end,
“such rents shall continue to be subject to
such control, except that such rents that would
not have been subject to such control but
for this subdivision, shall be decontrolled if
the landlord has included in each lease and
renewal thereof . . . a notice . . . that the unit
shall become subject to such decontrol upon
the expirations of benefits pursuant to this
section.”

41a
It is patent, therefor, that section 421-g, unlike
section 421-a, imposed rent stabilization on units that,
but for that statute, would have been excepted from
rent stabilization, including units that would have been
deregulated, as the result of high rent and high income.
Accordingly, there was no need for the Legislature to
provide for such rent regulation in a separate enactment.
The parties contend that the legislative history
of RPTL § 421-g supports their respective positions.
Inasmuch as section 421-g is unambiguous, as both
parties also assert, the court needs not enter into that
discussion. See In Matter of RCN N.Y. Communications,
LLC v Tax Commn. of the City of N.Y., 95 AD3d 456,
457 (1st Dept 2012), quoting Matter of Lloyd v Grella,
83 NY2d 537, 545-546 (1994).
Defendant argues that this court should defer to
certain DHCR documents, which support defendant’s
position. Leaving aside the fact that those documents
consist of private letters that were issued without
notice or explanation, a court needs not defer to an
administrative agency where the “question is one of
pure statutory reading and analysis.” Matter of Ansonia
Residents Assn. v New York State Div. of Hous. &
Community Renewal, 75 NY2d 206, 214 (1989); see
also Matter of KSLM -Columbus Apts., Inc. v New York
State Div. of Hous. & Community Renewal, .5 NY3d
303, 312 (2005).
In a post-briefing letter to the court, defendant
urges it to follow the holding in the recently decided
case of Henry 85 LLC v Roodman Sup Ct, NY County,
May 15, 2017, Hagler, J., index No. 154499/2015.
The court declines to do so. The Henry 85 court held
that the high rent decontrol provisions of the RSL are
applicable to section 421-g housing, largely on two
grounds. First, the court opined that, if the cooperative

42a
or condominium status of an apartment is the only
exception to the rent control provision of section
421-g, then the primary residence requirement of the
RSL would be rendered ineffective. Second, the court
noted that, when the Legislature enacted the Rent
Regulation Reform Act of 1993, it expressly excluded
apartments in buildings receiving RPTL §§ 489 or
421-a tax abatements, but it has never specifically
excluded buildings receiving section 421-g tax benefits
from high rent deregulation. As to the first of these
grounds, section 421-g controls the rent in covered
apartments; it does not give tenants any additional
rights. Thus, an owner would be free to refuse to renew
a tenant’s lease, and to seek to evict a tenant, pursuant
to Rent Stabilization Code § 2524.4 (c), which is
applicable to tenants who do not use their apartments
as their primary residence. As to the second ground,
there was no reason for the Legislature to amend the
RSL, with reference to apartments covered by section
421-g, because, as noted above, that provision, itself,
imposes rent regulation on the apartments to which it
applies, including those that, otherwise, would be
subject to luxury decontrol.
Accordingly, plaintiffs are entitled to the declaration
that they seek, and to a trial to determine the amounts
of rent that they have been overcharged. Inasmuch as
plaintiffs’ leases include a provision for attorneys’ fees
in favor of defendant, plaintiffs, the prevailing parties,
here, are entitled to their attorneys’ fees (Real Property
Law § 234; Paganuzzi v Primrose Mgt. Co., 268 AD2d
213, 213 [1st Dept 2000]), with interest from the
date of the first overcharge. However, plaintiffs are
not entitled to treble damages, because defendant’s
actions cannot be said to have been “willful.” While, as
explained above, this court does not defer to the
DHCR advisory opinions concerning section 421-g (see

43a
Burden affirmation, exhibit F), it was not willful for
respondent to rely upon them.
Accordingly, it is hereby
ORDERED that the motion of defendant 50 Murray
Street Acquisition LLC for summary judgment is
denied; and it is further
ORDERED that the cross motion of plaintiffs John
Kuzmich, Sandra May, Joshua Socolow, Ignatius Navas,
Kendrick Croasmun, Rishi Khanna, Caitlan Senske,
Jamie Axford, Jonathan Gazdak, Suzy Heimann, Michael
Gorzynski, Nikesh Desai, Heidi Burkhart, Ben DryliePerkins, Keiron McCammon, Lisa Atwan, Jennifer
Senske Ryan, Brad Langston, Alejandra Garcia, Lisa
Chu, Scott Reale, Dan Slivjanovski, Shiva Pejman,
Laurie Karr, Adam Seifer, Anand Subramanian, Darcy
Jensen, Elin Thomasian, Hazel Lyons, David Drucker,
Howard Pulchin, Jin Sup Lee, Jenn Wood, Nicholas
Apostolotos, Alex Kelleher, Brian Knapp, Jeff Rives,
Jason Lewis, Laura Fieseler Hickman, Franklin Yap,
and Steven Greenes for partial summary judgment is
granted; and it is further
ADJUDGED and DECLARED that: (a) the apartments of said plaintiffs are subject to rent stabilization;
(b) said plaintiffs are the rent stabilized tenants thereof;
and (c) the rents charged to said plaintiffs since the
commencement of their tenancies have been unlawful;
and it is further
ORDERED that the Court, having on its own motion
determined to consider the appointment of a referee to
determine as follows, and it appearing to the Court
that a reference to determine is proper and appropriate pursuant to CPLR 4317 (b), in that an issue of
damages separately triable and not requiring a trial
by jury is involved, it is now hereby

44a
ORDERED that a Judicial Hearing Officer (JHO) or
Special Referee shall be designated to determine the
following individual issues of fact, which are hereby
submitted to the JHO/Special Referee for such
purpose:
(1) the amount that each plaintiff has been overcharged, said amounts to be calculated as follows: the
lowest rent registered, pursuant to Rent Stabilization
Code § 2528.3, for comparable apartments in the
building located at 50 Murray Street in Manhattan,
that were in effect on the date that said plaintiffs first
occupied their apartments; or, if defendant did not
register the rents of comparable apartments in said
building, amounts based upon data compiled by the
New York State Division of Housing and Community
Renewal, using sampling methods for regulated housing accommodations;
(2) the amount of attorneys’ fees and costs properly
incurred by the plaintiffs in litigating this action;
and it is further ORDERED that the powers of the
JHO/Special Referee shall not be limited further than
as set forth in the CPLR; and it is further
ORDERED that this matter is hereby referred to the
Special Referee Clerk (Room 119M, 646-386-3028 or
spref@nycourts.gov) for placement at the earliest
possible date upon the calendar of the Special Referees
Part (Part SRP), which, in accordance with the Rules
of that Part (which are posted on the website of this
Court at www.nycourts.gov/supctmanh at the “references” link under “Courthouse Procedures”) shall
assign this matter to an available JHO/Special Referee
to determine as specified above; and it is further
ORDERED that counsel shall immediately consult
one another and counsel for plaintiff shall, within 15

45a
days from the date of this Order, submit to the Special
Referee Clerk by fax (212-401-9186) or e-mail an
Information Sheet (which can be accessed at the
“References” link on the court’s website) containing all
the information called for therein and that, as soon as
practical thereafter, the Special Referee Clerk shall
advise counsel for the parties of the date fixed for the
appearance of the matter upon the calendar of the
Special Referees Part; and it is further
ORDERED that the plaintiff shall serve a prehearing memorandum within 24 days from the date of
this order and defendants shall serve a pre-hearing
memorandum within 20 days from service of plaintiffs’
papers, and the foregoing papers shall be filed with the
Special Referee Clerk at least one day prior to the
original appearance date in part SRP fixed by the
Clerk as set forth above; and it is further
ORDERED that the hearing will be conducted in the
same manner as a trial before a Justice without a jury
(CPLR 4320 [a]) (the proceeding will be recorded by a
court reporter, the rules of evidence apply, etc) and
that the parties shall appear for the reference hearing,
including with all such witnesses and evidence as they
may seek to present, and shall be ready to proceed on
the date first fixed by the Special Referee Clerk,
subject only to any adjournment by the Special Referee
Part in accordance with the Rules of that Part; and it
is further
ORDERED that, except as otherwise directed by the
assigned JHO/Special Referee for good cause shown,
the trial of the issue specified above shall proceed from
day to day until completion; and it is further

46a
ORDERED that counsel for Plaintiffs shall serve a
copy of this Order with Notice of Entry within twenty
(20) days of entry on all counsel.
Dated: July 3, 2017
ENTER:
<<signature>>
Carol Robinson Edmead, J.S.C.

47a
APPENDIX D
2019 WL 4383854
Unpublished Disposition
Note: This opinion will not appear in a printed
volume. The disposition will appear in the reporter.
This motion is uncorrected and subject to revision
before publication in the printed Official Reports.
COURT OF APPEALS OF NEW YORK
————
2019-743
————
JOHN KUZMICH, et al.,
Appellants,
v.
50 MURRAY STREET ACQUISITION LLC,
Respondent.
————
Decided September 12, 2019
————
OPINION
Motion for reargument denied with one hundred
dollars costs and necessary reproduction disbursements.

48a
APPENDIX E
COURT OF APPEALS
STATE OF NEW YORK
————
APL-2018-00078
New York County Clerk’s Index No. 155266/16
————
JOHN KUZMICH, SANDRA MAY, JOSHUA SOCOLOW,
IGNATIUS NAVASCUES, KENDTRICK CROASMUN,
RISHI KHANNA, CAITLAN SENSKE, JAMIE AXFORD,
JONATHAN GAZDAK, SUZY HEIMAN, MICHAEL
GORZYNSKI, NIKESH DESAI, HEIDI BURKHART,
BEN DRYLIE-PERKINS, KEIRON MCCAMMON,
LISA ATWAN, JENNIFER SENSKE RYAN,
BRAD LANGSTON, ALEJANDRA GARCIA, LISA CHU,
SCOTT REALE, DAN SLIVJANOVSKI, SHIVA PEJMAN,
LAURIE KARR, ADAM SEIFER, ANAND SUBRAMANIAN,
DARCY JENSEN, ELIN THOMASIAN, HAZEL LYONS,
DAVID DRUCKER, HOWARD PULCHIN, JIN SUP LEE,
JENN WOOD, NICHOLAS APOSTOLATOS,
ALEX KELLEHER, BRIAN KNAPP, JEFF RIVES,
JASON LEWIS, LAURA FIESELER HICKMAN,
FRANKLIN YAP AND STEVEN GREENES,
Plaintiffs-Appellants,
—against—
50 MURRAY STREET ACQUISITION LLC,
Defendant-Respondent.
————
July 25, 2019
————
MOTION FOR REARGUMENT
————

49a
JONATHAN LIPPMAN
LATHAM & WATKINS LLP
885 Third Avenue
New York, New York 10022
Telephone: (212) 906-1200
Facsimile: (212) 751-4864
MICHAEL E. BERN
(admitted pro hac vice)
LATHAM & WATKINS LLP
555 Eleventh Street, NW, Suite 1000
Washington, D.C. 20004
Telephone: (202) 637-2200
Facsimile: (202) 637-2201
Attorneys for Defendant-Respondent

50a
NOTICE OF MOTION FOR REARGUMENT
PLEASE TAKE NOTICE that Respondents 50
Murray Street Acquisition LLC and B.C.R.E. – 90
West Street LLC will move before this Court on
Monday, August 12, 2019, at the State of New York
Court of Appeals, 20 Eagle Street, Albany, New York,
for an order granting reargument pursuant to Rule
500.24 of this Court’s rules. In support of the motion,
Respondents submit the following brief.
Dated: July 25, 2019
/s/ Jonathan Lipmann
Jonathan Lipmann
LATHAM & WATKINS LLP
885 Third Avenue
New York, New York 10022
Telephone: (212) 906-1200
Facsimile: (212) 751-4864
Michael E. Bern
(admitted pro hac vice)
LATHAM & WATKINS LLP
555 Eleventh Street, NW, Suite 1000
Washington, D.C. 20004
Telephone: (202) 637-2200
Facsimile: (202) 637-2201

51a
DISCLOSURE STATEMENT
Pursuant to 22 N.Y.C.R.R. Part 500.1(f), 50 Murray
Street Acquisition LLC (“50 Murray”) states that its
parents are 50 Murray Mezz One LLC, 50 Murray
Mezz Two LLC, 50/53 JV LLC, Clipper Realty LP, and
Clipper Realty Inc., and its affiliate is Clipper Equity
LLC. It has no subsidiaries.

52a
TABLE OF CONTENTS
INTRODUCTION ........................................................ 1
ARGUMENT ................................................................ 6
I. The Majority Opinion Improperly Disregarded Legislative History On The Incorrect
Assumption That The Text Of § 421-g Was
Unambiguous ......................................................... 6
A. The Legislative History Renders The
Majority Opinion’s “Unambiguity” Finding
Unsustainable ................................................... 7
B. New York Statutes Consistently Use The
Phrase “Subject To Control” To Refer To
Entire Regimes of Rent Regulation ............... 11
C. The Majority Opinion’s Reading Leads
To Absurd Results, Imposing A Form Of
Enhanced Regulation On § 421-g Buildings Where The RSL’s Operative Provisions
Apply But Its Exemptions Do Not ................. 14
II. Reconsideration Is Warranted To Avoid
Serious Constitutional Issues .............................. 15
CONCLUSION .......................................................... 19

53a
TABLE OF AUTHORITIES
Page(s)
CASES
Matter of Aaron J.,
80 N.Y.2d 402 (1992).............................................. 12
Brinkerhoff-Faris Tr. & Sav. Co. v. Hill,
281 U.S. 673 (1930) ................................................ 16
Henry 85 LLC v. Roodman,
No. 154499/2015, 2017 WL 3401332
(N.Y. Sup. Ct. N.Y. Cty. May 2, 2017)................... 17
Matter of Jamie J.,
30 N.Y.3d 275 (2017).............................................. 15
Kuzmich v. 50 Murray St. Acquisition LLC,
2019 WL 2583118 (N.Y. June 25, 2019) ...........passim
Lingle v. Chevron U.S.A. Inc.,
544 U.S. 528 (2005) ................................................ 18
New York State Bankers Ass’n v. Albright,
38 N.Y.2d 430 (1975)............................................ 3, 7
Overstock.com, Inc. v. New York State
Dep’t of Taxation and Fin.,
20 N.Y.3d 586 (2013)................................................ 5
People v. Cahill,
2 N.Y.3d 14 (2003).................................................... 9
People v. Epton,
19 N.Y.2d 496 (1967).............................................. 18
Rent Stabilization Ass’n of New York City, Inc.
v. Higgins,
83 N.Y.2d 156 (1993).............................................. 17
Riley v. Cty. of Broome,
95 N.Y.2d 455 (2000)........................................ 3, 6, 7
Stop the Beach Renourishment, Inc. v. Florida
Department of Environmental Protection,
560 U.S. 702 (2010) .........................................passim

54a
Webb’s Fabulous Pharmacies, Inc. v. Beckwith,
449 U.S. 155 (1980) .................................... 16, 17, 18
STATUTES
1995 N.Y. Laws 153, 166, Ch. 4, § 14 ......................... 9
2000 N.Y. Laws 2895, 2905, Ch. 261, § 22 ................. 9
Emergency Tenant Protection Act ............................ 11
N.Y. STAT. LAW § 124 ................................................ 7
N.Y. UNCONSOL. LAW § 26-403(e)(2)(i)(6) ............. 12
N.Y. UNCONSOL. LAW §§ 26-403(e)(2)(a),
(e)(2)(c) ...................................................................... 4
N.Y. UNCONSOL. LAW §§ 26-403(e)(2)(a),
(e)(2)(c), (e)(2)(i)(7)(ii), (e)(2)(i)(7)(iii)..................... 11
N.Y. UNCONSOL. LAW § 26-504.2(a) (2015) .......... 13
N.Y. UNCONSOL. LAW § 2520.11(d), (m) ............... 15
Real Property Tax Law §§ 421-a, 489 ....................... 13
Real Property Tax Law § 421-g..........................passim
Rent Regulation Reform Act of 1993 .......................... 1
Rent Stabilization Law of 1969 ..........................passim
REGULATIONS
9 N.Y.C.R.R. § 2524.4(c) ............................................ 14
22 N.Y.C.R.R. § 500.24(d).......................................... 15
22 N.Y.C.R.R. 500.24(c) ............................................... 3
28 R.C.N.Y. §§ 32-02, 32-05 (effective Aug. 1,
1997) ....................................................................... 17
CONSTITUTIONAL PROVISIONS
U.S. Const. amend. V .......................................... 15, 18
U.S. Const. amend. XIV, § 1 ...................................... 16

55a
INTRODUCTION
§ 421-g of the Real Property Tax Law (RPTL) provides a tax benefit to owners of certain buildings in
Lower Manhattan, but in return it stipulates that housing units in those buildings will be “fully subject to
control” under the Rent Stabilization Law of 1969 (RSL)
while those benefits are in place. It is undisputed that
one of the two branches of the State Legislature (the
Senate) approved that statute by a 53-1 margin on the
specific understanding that “dwelling units in property receiving benefits under the residential conversion
program . . . would be subject to rent stabilization to
the same extent as, but to no greater extent than, other
rent regulated property,” such that “provisions of the
Rent Regulation Reform Act of 1993 that provide for
the exclusion of high rent accommodation and for
high income rent decontrol would apply to property
receiving benefits.” R.40 (emphasis added).
Not only that, but the party that proposed the
legislation, R.452, expressly affirmed that that interpretation was accurate before the Senate voted to
approve the bill, R.40, and there is zero legislative
history—no debates, no signing statements, nothing—
indicating that either the Governor or Assembly
understood the provision otherwise. The regulators
tasked with administering the RSL and RPTL proceeded to interpret § 421-g exactly as the Senate—and
the bill’s drafters—expected. R.29, 97, 103. And in
reliance on that shared understanding, billions of
dollars of investment flowed into Lower Manhattan—
exactly as the program’s drafters hoped.
Notwithstanding that powerful history evidencing
that § 421-g was intended to render properties fully
subject to the entire rent stabilization law, a majority
of this Court held on June 25, 2019 that the statutory

56a
language “unambiguously establishes the legislature’s
intent” to provide for the exact opposite result. Kuzmich
v. 50 Murray St. Acquisition LLC, 2019 WL 2583118,
at *4 (N.Y. June 25, 2019) (emphasis added). The
majority opinion concluded that the statutory language
was “unambiguous” even though the Chief Judge of
this Court, multiple panels of the Appellate Division,
the Senate, the City that proposed the 421-g program,
and the regulators charged with interpreting the RSL
and RPTL all interpreted § 421-g to mean otherwise—
and even though the majority opinion’s construction
results in identical language within two closely related
statutory provisions admittedly meaning the opposite
thing. See id., at *8 (DiFiore, C.J., dissenting). Upon
finding the statute unambiguous, the majority opinion
proceeded to reject any “attempt by defendants and
the dissent to a contextually use legislative history to
‘muddy clear statutory language,’” and concluded that
§ 421-g can be read only to subject properties to the
pro-regulatory, but not deregulatory, provisions of the
rent stabilization laws. Id., at *4 (quotation omitted).
The majority opinion’s premise that the Legislature
unambiguously intended to accomplish the exact opposite
of what the Senate (and so many others) expressly
understood the law to do was the lynchpin of its decision. But that finding is unsustainable and warrants
reargument for several reasons.
First, although the majority opinion relied on
inapposite federal caselaw to dismiss the significance
of the powerful legislative history undergirding § 421g, this Court has long indicated that legislative history
is essential to interpret statutory language—even
when that language supposedly is clear. See, e.g., Riley
v. Cty. of Broome, 95 N.Y.2d 455, 463-64 (2000). The
majority opinion’s suggestion that legislative history

57a
cannot be used to “muddy” purportedly clear statutory
language marks a drastic departure from a “long
tradition” of New York cases holding the opposite, see,
e.g., id.; New York State Bankers Ass’n v. Albright, 38
N.Y.2d 430, 436-37 (1975), and should be reconsidered. Here, as Chief Judge DiFiore explained in
dissent, the legislative and factual history leading to
§ 421-g overwhelmingly supports the conclusion that
the provision was intended to work exactly as the
Legislature expected—under which properties benefiting
from § 421-g would be fully subject to the provisions of
rent stabilization, including those provisions providing for decontrol.
The majority opinion’s holding is particularly incompatible with the Legislature’s decision to reauthorize
and extend § 421-g in 2000—which the majority
opinion did not address. See 22 N.Y.C.R.R. 500.24(c)
(identifying as grounds for reargument points “overlooked or misapprehended by the Court”). Following
the statute’s enactment, the regulatory agencies tasked
with administering the RSL and RPTL interpreted
the statute as envisioned by its drafters and the
Legislature. R.29, 97, 103. And because the tax break
underlying § 421-g was a wild success, some (though
hardly all) of the properties that were converted to
residential property and subjected to rent stabilization
quickly qualified for luxury decontrol. Rather than
protest that settled practice or indicate that the City
was misinterpreting § 421-g, the Legislature simply
reauthorized the program. That is powerful evidence
that § 421-g was intended to function exactly as it had
to date.
Second, the majority opinion’s contrary determination that “fully subject to control” cannot mean fully
subject to the entire rules of rent stabilization—

58a
including the purportedly “antithetical concept of
decontrol,” Kuzmich, 2019 WL 2583118, at *3 n.5—
overlooks that other statutes use “subject to control”
and similar phrases to subject properties to the entire
system of rent control. See, e.g., N.Y. UNCONSOL.
LAW §§ 26-403(e)(2)(a), (e)(2)(c) (describing properties
“subject to control under this chapter”). Such provisions expose properties to the entire rent control
statute, including provisions that are pro-regulatory,
as well as others providing for a process of “decontrol.”
Id. § (e)(2)(i)(6). Moreover, statutes distinguish situations in which a property is “not . . . subject to rent
control” at all from other situations in which a property is “eligible for decontrol.” Id. § (e)(1)(c). The
import is that a property may be subject to control, and
yet be eligible for decontrol.
Laboring under the mistaken impression that the
statutory text here was unambiguous, the majority
opinion also failed to account for practical consequences of its decision. As Chief Judge DiFiore’s
dissent correctly explained (Kuzmich, 2019 WL 2583118,
at *4), the majority opinion creates a never-beforeseen “enhanced form of rent stabilization” specifically
for § 421-g buildings, under which the RSL’s proregulatory provisions apply but its deregulatory
provisions and exemptions do not. Such results would
install a bizarre rent stabilization regime upon § 421-g
properties that no one envisioned and upend the
reasonable expectations of investors on whom the
§ 421-g program has relied for its unbridled success.
Finally, reargument is warranted because the majority opinion’s interpretation of § 421-g raises serious
constitutional problems—upsetting settled investment
expectations in a manner that would amount to a
taking under Stop the Beach Renourishment, Inc. v.

59a
Florida Department of Environmental Protection, 560
U.S. 702 (2010). In that case, a four-Justice plurality
of the U.S. Supreme Court recognized that an unconstitutional taking occurs where “a legislature or a court
declares that what was once an established right of
private property no longer exists.” Id. at 715 (plurality
opinion). Because the majority’s opinion presently produces those results, the Court should grant reargument
to interpret § 421-g as the Legislature intended—which
avoids this serious constitutional issue. Overstock.com,
Inc. v. New York State Dep’t of Taxation and Fin., 20
N.Y.3d 586, 593 (2013) (“[C]ourts must avoid, if possible, interpreting a presumptively valid statute in a
way that will needlessly render it unconstitutional.”).
For all these reasons, the Court should grant
reargument, and upon granting reargument, affirm
the result of the Appellate Division.
ARGUMENT
I. THE MAJORITY OPINION IMPROPERLY
DISREGARDED LEGISLATIVE HISTORY ON
THE INCORRECT ASSUMPTION THAT THE
TEXT OF § 421-g WAS UNAMBIGUOUS
Despite the contrary decisions of two separate panels
of the Appellate Division—and over Chief Judge
DiFiore’s vigorous dissent—the majority opinion
concluded that the phrase “fully subject to control
under [] local law” in § 421-g unambiguously refers
only to the pro-regulatory provisions of that “local
law,” as opposed to those which provide for deregulation. That interpretation is fundamentally incompatible
with the statute’s legislative history and wrongly
treated as “unambiguous” language that can—and
does—bear the alternative meaning that its drafters
and the Legislature intended.

60a
A. The Legislative History Renders The Majority Opinion’s “Unambiguity” Finding Unsustainable
“The primary consideration of courts in interpreting
a statute is to ‘ascertain and give effect to the intention
of the Legislature.’” Riley, 95 N.Y.2d at 463 (citation
omitted). In performing this exercise, this Court has
said repeatedly that courts must look to legislative
history, even when a statute appears to be facially
unambiguous. As the Court explained in New York
State Bankers Association: “While [] statutes may
appear literally ‘unambiguous’ on their face, the absence
of ambiguity facially is never conclusive. Sound principles of statutory interpretation generally require
examination of a statute’s legislative history and context
to determine its meaning and scope.” 38 N.Y.2d at 434;
see also N.Y. STAT. LAW § 124 (“In ascertaining the
purpose and applicability of a statute, it is proper to
consider the legislative history of the act . . . .”). By
giving short shrift to the legislative history and context here, the majority opinion wrongly cast aside, sub
silentio, a “long tradition” of New York law. Riley, 95
N.Y.2d at 464.
Here, both the legislative history of § 421-g and
longstanding agency practice clearly indicate that the
ambiguous phrase “subject to control” refers to the
entire rent stabilization law. In an exchange of letters,
then-Mayor Giuliani and then-Senate Majority Leader
Joseph Bruno (who played key roles in proposing and
approving the legislation) confirmed their mutual
understanding that buildings receiving benefits under
§ 421-g would continue to be subject to the entire
system of rent regulation. According to Mayor Giuliani,
the drafters’ intention “has always been that dwelling
units in property receiving benefits under [§ 421-g] . . .

61a
would be subject to rent stabilization to the same
extent as, but to no greater extent than, other rent
regulated property.” R.40-41. Thus, he explained,
“[a]ny provision of law that generally exempts any
housing accommodation from rent stabilization”—
including “the exclusion of high rent accommodation”
and “high income rent decontrol”—“would apply as
well to dwelling units” receiving § 421-g benefits. Id.
Senator Bruno responded in kind, explaining that the
city’s intention that § 421-g buildings would “be fully
subject to the deregulation provisions” at issue here
“comports with the Senate’s own reading of this
legislation.” R.42.
The lone senator to oppose the bill—Senator Franz
Leichter, who questioned whether a subsidy was
needed for “luxury housing”—similarly noted that
§ 421-g buildings “are not going to be controlled”
because of luxury deregulation. R.59. In response to
Senator Leichter’s statement, Senator Vincent Leibell
read Mayor Giuliani’s letter into the record, again
clarifying that § 421-g buildings would be subject to
rent regulation to the same extent as all other
buildings. R.65-68. The record of debate on the bill
reveals no disagreement with this interpretation. The
same is true of the Assembly, which sent the bill to the
Governor without amending it or otherwise indicating
that its understanding was contrary to the Senate’s.
The agencies tasked with administering the RSL
and § 421-g—the Department of Housing Preservation
& Development (HPD) and the Division of Housing &
Community Renewal (DHCR)—adopted the same interpretation. As Appellants conceded in their opening
brief to this Court (at 14-15), HPD adopted regulations
in 1997 interpreting the statute to “mak[e] high-rent
deregulation available for apartments subject to RPTL

62a
§ 421-g” throughout the City of New York. Relying on
the legislative history cited above, moreover, DHCR
issued an advisory opinion in 1997 stating that “highrent deregulation is available with respect to Sec. 421-g
units.” R.97.
Importantly, the Legislature ratified these interpretations in 2000, when it reauthorized § 421-g
benefits without changing the language of the statute
to exclude luxury decontrol. Compare 1995 N.Y. Laws
153, 166, Ch. 4, § 14, S. 5320, A. 8028 (initially authorizing the program until 2002), with 2000 N.Y. Laws
2895, 2905, Ch. 261, § 22, S. 8219 (reauthorizing the
program until 2007). By 2000, HPD’s regulation had
made high-rent deregulation available to § 421-g apartments for several years throughout New York City.
Rather than object to that settled practice or alter
the statute’s language to provide for a different result,
the Legislature reauthorized the program exactly as
it stood. Because this Court “presume[s] that the
Legislature [is] aware of” how its enactments have
been interpreted, People v. Cahill, 2 N.Y.3d 14, 118
(2003) (Read, J., concurring in part and dissenting in
part), the Legislature’s decision not to alter HPD’s
published interpretation of § 421-g strongly buttresses
the conclusion that the Legislature intended for
high-rent deregulation to apply to § 421-g buildings.
The majority opinion did not consider the statute’s
reauthorization; but that fact strongly counsels
against its analysis and supports reargument.
Finally, the historical backdrop of § 421-g also
suggests that luxury deregulation was meant to apply
to § 421-g buildings. As Chief Judge DiFiore’s dissent
explains, the purpose of § 421-g was to encourage investment in a then-depressed Manhattan neighborhood—
”not the creation of affordable housing.” See Kuzmich,

63a
2019 WL 2583118, at *10 (DiFiore, C.J., dissenting).
High-rent luxury apartments suited the Legislature’s
goal, since those apartments create the greatest tax
revenue increases, encourage the most retail growth,
and otherwise spur economic revitalization. See R.472.
Given this purpose, it made perfect sense for the
Legislature to encourage the construction of luxury
housing by preserving luxury deregulation for § 421-g
buildings.
The Legislature achieved that goal. Section 421-g
spurred significant investment in Lower Manhattan
real estate. In reliance on the settled legislative and
regulatory understanding that high-rent deregulation
applied to such buildings, R.34-35, 50 Murray alone
invested $540 million in two buildings containing 505
apartments. R.36-37. The total amount of investment
by 50 Murray and others in reliance on that understanding has easily amounted to billions of dollars.
B. New York Statutes Consistently Use The
Phrase “Subject To Control” To Refer To
Entire Regimes of Rent Regulation
The majority opinion’s sole justification for disregarding this clear legislative history was that the
statute on its face was unambiguous. Id., at *4. The
majority opinion rested its holding of unambiguity in
§ 421-g almost entirely on its assumption that the
word “control” in the phrase “subject to control” cannot
refer to “the antithetical concept of decontrol.” Id., at
*3 n.5. But as an examination of New York’s rent
regulation statutes reveals, that assumption is simply
incorrect.
New York rent regulation statutes frequently refer
to a property as being “subject to control under” a
regime of rent regulation. For example, the statute

64a
that governs rent control in New York City, the City
Rent and Rehabilitation Law (CRRL), repeats the
phrase “subject to control under this chapter” no fewer
than six times. See N.Y. UNCONSOL. LAW §§ 26403(e)(2)(a), (e)(2)(c), (e)(2)(i)(7)(ii), (e)(2)(i)(7)(iii); see
also id. § 26-401(b) (declaring it city policy “to encourage and promote the improvement and rehabilitation
of the housing accommodations subject to control
hereunder”). But “this chapter” contains the entire
CRRL, not just its pro-regulatory provisions. Similarly,
the Emergency Tenant Protection Act—which generally governs rent stabilization outside of New York
City—speaks of properties that are “subject” or “not
subject to control . . . under the provisions of” the RSL
and other rent regulation statutes. Id. § 8623(a); see
also id. (speaking of properties that are “subject to
stabilization or control under such rent stabilization
law”). This provision directly contradicts the majority
opinion’s assumption that the phrase “subject to
control” cannot mean “subject to ‘the provisions of’” a
regulatory regime. Kuzmich, 2019 WL 2583118, at *3
(emphasis in original).
New York’s rent regulation statutes also speak of
“decontrolled” units—that is, units that are deregulated under the rent stabilization laws. See, e.g., N.Y.
UNCONSOL. LAW § 26-403(e)(2)(i)(6) (authorizing New
York City’s rent agency to “decontrol[]” certain units
following the “substantial demolition” of a building);
id. § 26-414 (authorizing New York City’s rent agency
to decontrol a class of housing after finding that the
vacancy rate for that class exceeds 5%); see also id.
§ 26-504 (applying the RSL to units that were
“decontrolled . . . pursuant to section 26- 414”); id.
§ 8605 (prohibiting a locality from issuing regulations
to control a unit that has been “decontrolled either
by operation of law or by a city housing rent agency”).

65a
By distinguishing between units that have been
decontrolled and those that were never subject to
control in the first place, these provisions suggest that
a unit can be “subject to control” and yet also be
eligible for decontrol. But this is possible only if—
contrary to the majority opinion’s view—the term
“control” embraces a statute’s deregulatory provisions
as well as its pro-regulatory ones.
In any event, the majority opinion’s determination
of unambiguity is irreconcilable with this Court’s
“obligation to harmonize the various provisions of
related statutes and to construe them in a way that
renders them internally compatible.” Matter of Aaron J.,
80 N.Y.2d 402, 407 (1992). When the Legislature
enacted the 1993 provision permitting deregulation of
high-rent apartments, it prescribed an exclusive list of
enumerated exception to its application—including for
buildings subject to RPTL § 421-a (a provision containing language substantively identical to § 421-g). See
N.Y. UNCONSOL. LAW § 26-504.2(a) (2015) (providing
that luxury decontrol does not apply to buildings that
receive benefits under sections 421-a and 489 of the
Real Property Tax Law). In 1995, however, when enacting § 421-g—a provision with language substantively
identical to § 421-a—the Legislature declined to add
§ 421-g to the list of exceptions to the application of
high-rent decontrol. Whether or not one views that as
dispositive, the fact that Appellants’ reading of those
provisions requires “subject to control” to bear a
different meaning in two statutes enacted closely in
time, addressing the same subject, with substantially
identical surrounding language, at minimum, creates
ambiguity. To hold otherwise will impose harmful
consequences on the legislative process, requiring
the Legislature to anticipate that identical statutory
language will be interpreted to mean different things,

66a
undermining the Legislature’s ability to rely on
established principles of statutory interpretation,
and complicating its ability to draft legislation with
confidence about how it will be construed.
C. The Majority Opinion’s Reading Leads To
Absurd Results, Imposing A Form Of
Enhanced Regulation On § 421-g Buildings
Where The RSL’s Operative Provisions
Apply But Its Exemptions Do Not
Even if the clear indications of legislative intent
were not enough to resolve the ambiguity at play in §
421-g, then the absurd consequences of the majority
opinion’s interpretation would confirm that it cannot
be correct. As 50 Murray explained in its response
brief (at 34-41), the reading adopted by the majority
opinion nullifies numerous exemptions to rent regulation and decontrolling provisions for § 421-g buildings,
not just the luxury decontrol provisions. Thus, the
majority opinion subjects § 421-g buildings to a form
of super-regulation, whereby the operative provisions
of ordinary rent regulations apply but the exclusions
and deregulatory provisions do not.
The majority opinion recognized this concern. It
concluded (Kuzmich, 2019 WL 2583118, at *3 n.6) that
one exemption—the “primary residence” exemption—
would continue to apply to § 421-g buildings because
it merely provides mechanism to evict a tenant who
does not use a rent-stabilized property as his or her
primary residence. See 9 N.Y.C.R.R. § 2524.4(c). But
the majority opinion failed to explain why a mechanism for evicting certain noncompliant tenants represents
a form of “control” to which a 421-g building is
“subject” under the majority opinion’s narrow reading
of the statute. See Kuzmich, 2019 WL 2583118, at *3

67a
n.5 (concluding that the word “control” cannot
embrace “the antithetical concept of decontrol”).
And in any case, the majority opinion overlooked
other rent stabilization exemptions that would be
swept away under its reading. For example, Section
2520.11 of New York City’s Rent Stabilization Code
exempts from the RSL units in “buildings containing
fewer than six housing accommodations” and those
that are “occupied by domestic servants, superintendents, caretakers, managers or other employees to
whom the space is provided as part or all of their
compensation.” N.Y. UNCONSOL. LAW § 2520.11(d),
(m). Unlike the primary residence exception, these
exemptions indisputably remove an entire unit from
rent stabilization; under the majority opinion’s reading,
however, they would be nullified for § 421-g buildings.
II. RECONSIDERATION IS WARRANTED TO
AVOID SERIOUS CONSTITUTIONAL ISSUES
Reargument is also warranted in light of the serious
constitutional questions presented by the Court’s
interpretation of § 421-g. See Matter of Jamie J.,
30 N.Y.3d 275, 282 (2017) (courts should construe
statues “to avoid [constitutional] infirmity”). The
Court’s ruling eliminates property rights of apartment
owners long recognized by state and local regulators,
and thus implicates the federal Constitution’s Takings
Clause and due process limitations prescribed in Stop
the Beach Renourishment, Inc. v. Fla. Dep’t of Envtl.
Prot., 560 U.S. 702 (2010).1
1

These considerations provide additional reasons that the
Court should grant reargument and clarify that luxury
deregulation applies in § 421-g buildings. And, in any event,
special circumstances warrant their consideration at this stage,
see 22 N.Y.C.R.R. § 500.24(d), because they arise from the Court’s

68a
“[T]he Takings Clause bars the State from taking
private property without paying for it, no matter
which branch is the instrument of the taking.” Stop the
Beach, 560 U.S. at 715 (plurality opinion). For that
reason, “[i]f a legislature or a court declares that what
was once an established right of private property no
longer exists, it has taken that property, no less than
if the State had physically appropriated it or destroyed
its value by regulation.” Id. (emphasis in original); see
also Webb’s Fabulous Pharmacies, Inc. v. Beckwith,
449 U.S. 155, 161-65 (1980) (state supreme court
decision constituted taking because its interpretation
of state law violated “more than a unilateral expectation” of property owner and ran “contrary to [a] long
established general rule”).
The Due Process Clause likewise prevents courts
from suddenly eliminating or narrowing established
property rights. See, e.g., Brinkerhoff-Faris Tr. & Sav.
Co. v. Hill, 281 U.S. 673, 679-80 (1930) (“transgression” of due process may be “accomplished by the
state judiciary in the course of construing an otherwise
valid state statute”) (citation omitted). Because the
Due Process Clause is “a central limitation upon the
exercise of judicial power,” a court “decision that
eliminates or substantially changes established property rights, which are a legitimate expectation of the
owner, is ‘arbitrary or irrational’ under the Due
Process Clause.” Stop the Beach, 560 U.S. at 735, 737
(Kennedy, J., concurring).

decision. See Stop the Beach, 560 U.S. at 712 & n.4 (plurality
opinion) (recognizing unusual posture of judicial-takings claim
and entertaining a claim raised for the first time on rehearing to
the Florida Supreme Court).

69a
This Court’s interpretation violates both constitutional provisions because it vitiates what were, until
this Court’s decision, established rights of property
owners who invested significant sums developing apartments under § 421-g. Since the law’s enactment in
1995, regulators have consistently applied luxury
decontrol to apartments governed by § 421-g. In 1997,
for instance, HPD issued regulations providing that
luxury decontrol applies to § 421-g properties. See 28
R.C.N.Y. §§ 32-02, 32-05 (effective Aug. 1, 1997). HPD
has administered the § 421-g program consistent with
those regulations ever since—for example, by acknowledging dwelling units subject to luxury decontrol as a
specific exemption on § 421-g program paperwork. See
Henry 85 LLC v. Roodman, No. 154499/2015, 2017 WL
3401332, at *9 (N.Y. Sup. Ct. N.Y. Cty. May 2, 2017).
DHCR, which has “a broad mandate” to administer
“rent control and rent stabilization laws,” Rent
Stabilization Ass’n of New York City, Inc. v. Higgins,
83 N.Y.2d 156, 168 (1993), has interpreted § 421-g in
the same way. In 1997, DHCR issued guidance
confirming that “high-rent deregulation is available
with respect to [§] 421-g units.” R.97. DHCR’s position
on that point has not wavered since. See Kuzmich,
2019 WL 2583118, at *10 (DiFiore, C.J., dissenting).
By deeming the luxury decontrol provisions inapplicable to § 421-g properties, this Court “declare[d]
that what was once an established right of private
property no longer exists.” Stop the Beach, 560 U.S. at
715 (plurality opinion). Apartment owners, including
Respondents here, made significant investments with
“more than a unilateral expectation” that the luxury
decontrol provisions would continue to apply. Webb’s
Fabulous Pharmacies, 449 U.S. at 161-65; see also
Kuzmich, 2019 WL 2583118, at *6 (DiFiore, C.J.,

70a
dissenting) (noting that the Respondents purchased
properties “[i]n reliance on” the statutory scheme);
R.33-35. Thus, as in Webb’s Fabulous Pharmacies, the
sudden shift in interpretation of § 421-g violates
Respondents’ rights under the Takings Clause. 449
U.S. at 164-65. And the Court’s decision will, if
maintained, significantly diminish the value of § 421-g
properties, undermining owners’ reasonable investmentbacked expectations. See Lingle v. Chevron U.S.A.
Inc., 544 U.S. 528, 538-39 (2005).
The Court’s interpretation also violates Respondents’
due process rights because it “eliminates or substantially changes established property rights, which are a
legitimate expectation of the owner.” Stop the Beach,
560 U.S. at 737 (Kennedy, J., concurring). Regulators
assured owners that their investments would be
protected by luxury decontrol, and those protections
played an essential role in attracting the capital
necessary for § 421-g to serve its purpose. Respondents
invested in the properties at issue here in reliance on
the availability of luxury decontrol, and would not
have done so without that safety valve—indeed, in
most instances it is impossible to cover the cost of an
apartment conversion at the rental rates mandated by
the Rent Stabilization Law. See R.33-35. Exempting
the apartments from luxury decontrol now, long
after the fact, thus “substantially changes” the rights
“legitimate[ly] expect[ed]” by § 421-g apartment owners.
Stop the Beach, 560 U.S. at 737 (Kennedy, J., concurring).
Rather than maintain an interpretation that violates
the U.S. Constitution, the Court should reconsider its
decision. See People v. Epton, 19 N.Y.2d 496, 505-06
(1967) (reversing interpretation of statute where

71a
“previous interpretation . . . was [not] in harmony with
the Federal Constitution”).
CONCLUSION
For the foregoing reasons, the Court should grant 50
Murray’s motion for reargument and, upon reargument,
affirm the orders of the Appellate Division in these
cases, with costs of the appeal and of this motion.
Dated: July 25, 2019
/s/ Jonathan Lipmann
Jonathan Lipmann
LATHAM & WATKINS LLP
885 Third Avenue
New York, New York 10022
Telephone: (212) 906-1200
Facsimile: (212) 751-4864
Michael E. Bern
(admitted pro hac vice)
LATHAM & WATKINS LLP
555 Eleventh Street, NW, Suite 1000
Washington, D.C. 20004
Telephone: (202) 637-2200
Facsimile: (202) 637-2201

72a
APPENDIX F
CONSTITUTIONAL, STATUTORY, AND
REGULATORY PROVISIONS INVOLVED
CONSTITUTIONAL PROVISIONS
The Fifth Amendment to the United States Constitution provides in relevant part:
[N]or shall any person . . . be deprived of life,
liberty, or property, without due process of
law; nor shall private property be taken for
public use, without just compensation.
The Fourteenth Amendment to the United States
Constitution provides in relevant part:
No State shall make or enforce any law which
shall abridge the privileges or immunities of
citizens of the United States; nor shall any
State deprive any person of life, liberty, or
property, without due process of law; nor
deny to any person within its jurisdiction the
equal protection of the laws.

73a
STATUTORY PROVISIONS
New York State Real Property
Tax Law Provisions
Section 421-g(6) of the New York State Real
Property Tax Law provides:
Notwithstanding the provisions of any local
law for the stabilization of rents in multiple
dwellings or the emergency tenant protection
act of nineteen seventy-four, the rents of each
dwelling unit in an eligible multiple dwelling
shall be fully subject to control under such
local law, unless exempt under such local law
from control by reason of the cooperative or
condominium status of the dwelling unit,
for the entire period for which the eligible
multiple dwelling is receiving benefits pursuant to this section, provided, however, that
for purposes of this subdivision, an eligible
multiple dwelling receiving benefits pursuant
to this section whose benefits are suspended,
terminated or revoked by the department of
housing preservation and development shall
be deemed to be receiving benefits for the
length of time such benefits would have been
received if such benefits had not been suspended, terminated or revoked, or for the
period such local law is in effect, whichever is
shorter. Thereafter, such rents shall continue
to be subject to such control, except that such
rents that would not have been subject to
such control but for this subdivision, shall be
decontrolled if the landlord has included in
each lease and renewal thereof for such unit
for the tenant in residence at the time of such
decontrol a notice in at least twelve point type

74a
informing such tenant that the unit shall
become subject to such decontrol upon the
expiration of benefits pursuant to this
section.
Section 421-a(2)(f) of the New York State Real
Property Tax Law provides, in relevant part:
Notwithstanding the provisions of any local
law for the stabilization of rents or the
emergency tenant protection act of nineteen
seventy-four, all affordable housing units in
an extended affordability property shall be
fully subject to control under such local law or
such act during the extended affordability
period, provided that tenants holding a lease
and in occupancy of such affordable housing
units in an extended affordability property at
the expiration of the extended affordability
period shall have the right to remain as rent
stabilized tenants for the duration of their
occupancy. Upon any vacancy of an affordable
housing unit after the extended affordability
period, such affordable housing unit shall
remain fully subject to rent stabilization
unless the owner is entitled to remove such
affordable housing unit from rent stabilization
upon such vacancy by reason of the monthly
rent exceeding any limit established thereunder.
Luxury Decontrol Provisions
Section 26-504.1 of the New York City Administrative Code (effective June 24, 2011 to June 13, 2019)
provided:
Upon the issuance of an order by the division,
“housing accommodations” shall not include

75a
housing accommodations which: (1) are occupied by persons who have a total annual
income, as defined in and subject to the
limitations and process set forth in section 26504.3 of this chapter, in excess of the deregulation income threshold, as defined in section
26-504.3 of this chapter, for each of the two
preceding calendar years; and (2) have a legal
regulated monthly rent that equals or exceeds
the deregulation rent threshold, as defined in
section 26-504.3 of this chapter. Provided,
however, that this exclusion shall not apply to
housing accommodations which became or
become subject to this law (a) by virtue of
receiving tax benefits pursuant to section
four hundred twenty-one-a or four hundred
eighty-nine of the real property tax law,
except as otherwise provided in subparagraph (i) of paragraph (f) of subdivision two of
section four hundred twenty-one-a of the real
property tax law, or (b) by virtue of article
seven-C of the multiple dwelling law.
Section 26-504.2 of the New York City Administrative Code (effective June 15, 2015 to June 13, 2019)
provided [paragraph breaks added]:
(a) “Housing accommodations” shall not include: any housing accommodation which
becomes vacant on or after April first, nineteen hundred ninety-seven and before the
effective date of the rent act of 2011 and
where at the time the tenant vacated such
housing accommodation the legal regulated
rent was two thousand dollars or more per
month; or, for any housing accommodation
which is or becomes vacant on or after the

76a
effective date of the rent regulation reform act
of 1997 and before the effective date of the
rent act of 2011, with a legal regulated rent of
two thousand dollars or more per month; or
for any housing accommodation that becomes
vacant on or after the effective date of the rent
act of 2015, where such legal regulated rent
was two thousand seven hundred dollars or
more, and as further adjusted by this section.
Starting on January 1, 2016, and annually
thereafter, the maximum legal regulated rent
for this deregulation threshold, shall also be
increased by the same percent as the most
recent one year renewal adjustment, adopted
by the New York city rent guidelines board
pursuant to the rent stabilization law.
This exclusion shall apply regardless of
whether the next tenant in occupancy or any
subsequent tenant in occupancy is charged or
pays less than two thousand dollars a month;
or, for any housing accommodation with a
legal regulated rent of two thousand five
hundred dollars or more per month at any
time on or after the effective date of the rent
act of 2011, which is or becomes vacant on or
after such effective date, but prior to the
effective date of the rent act of 2015; or, any
housing accommodation with a legal regulated rent that was two thousand seven
hundred dollars or more per month at any
time on or after the effective date of the rent
act of 2015, which becomes vacant after the
effective date of the rent act of 2015, provided,
however, that starting on January 1, 2016,
and annually thereafter, such legal regulated

77a
rent for this deregulation threshold, shall also
be increased by the same percentage as the
most recent one year renewal adjustment,
adopted by the New York city rent guidelines
board.
This exclusion shall apply regardless of
whether the next tenant in occupancy or any
subsequent tenant in occupancy actually is
charged or pays less than two thousand seven
hundred dollars, as adjusted by the applicable rent guidelines board, a month.
Provided however, that an exclusion pursuant to this subdivision shall not apply to
housing accommodations which became or
become subject to this law (a) by virtue of
receiving tax benefits pursuant to section
four hundred twenty-one-a or four hundred
eighty-nine of the real property tax law,
except as otherwise provided in subparagraph (i) of paragraph (f) of subdivision two of
section four hundred twenty-one-a of the real
property tax law, or (b) by virtue of article
seven-C of the multiple dwelling law.
This section shall not apply, however, to or
become effective with respect to housing
accommodations which the commissioner
determines or finds that the landlord or any
person acting on his or her behalf, with intent
to cause the tenant to vacate, engaged in any
course of conduct (including, but not limited
to, interruption or discontinuance of required
services) which interfered with or disturbed
or was intended to interfere with or disturb
the comfort, repose, peace or quiet of the
tenant in his or her use or occupancy of the

78a
housing accommodations and in connection
with such course of conduct, any other general enforcement provision of this law shall
also apply.
(b) The owner of any housing accommodation
that is not subject to this law pursuant to the
provisions of subdivision a of this section or
subparagraph k of paragraph 2 of subdivision
e of section 26-403 of this code shall give
written notice certified by such owner to the
first tenant of that housing accommodation
after such housing accommodation becomes
exempt from the provisions of this law or the
city rent and rehabilitation law. Such notice
shall contain the last regulated rent, the
reason that such housing accommodation is
not subject to this law or the city rent and
rehabilitation law, a calculation of how either
the rental amount charged when there is no
lease or the rental amount provided for in the
lease has been derived so as to reach two
thousand dollars or more per month or, for a
housing accommodation with a legal regulated rent or maximum rent of two thousand
five hundred dollars or more per month on or
after the effective date of the rent act of 2011,
and before the effective date of the rent act of
2015, which is or becomes vacant on or after
such effective date, whether the next tenant in
occupancy or any subsequent tenant in
occupancy actually is charged or pays less
than a legal regulated rent or maximum rent
of two thousand five hundred dollars or more
per month, or two thousand seven hundred
dollars or more, per month, starting on
January 1, 2016, and annually thereafter, the

79a
maximum legal regulated rent for this deregulation threshold, shall also be increased by
the same percent as the most recent one year
renewal adjustment, adopted by the New
York city rent guidelines board pursuant to
the rent stabilization law, a statement that
the last legal regulated rent or the maximum
rent may be verified by the tenant by contacting the state division of housing and community renewal, or any successor thereto, and
the address and telephone number of such
agency, or any successor thereto. Such notice
shall be sent by certified mail within thirty
days after the tenancy commences or after the
signing of the lease by both parties, whichever occurs first or shall be delivered to the
tenant at the signing of the lease. In addition,
the owner shall send and certify to the tenant
a copy of the registration statement for such
housing accommodation filed with the state
division of housing and community renewal
indicating that such housing accommodation
became exempt from the provisions of this
law or the city rent and rehabilitation law,
which form shall include the last regulated
rent, and shall be sent to the tenant within
thirty days after the tenancy commences
or the filing of such registration, whichever
occurs later.
Section 26-504.3 of the New York City Administrative Code (effective June 15, 2015 to June 13, 2019)
provided:
(a) 1. For purposes of this section, annual
income shall mean the federal adjusted gross
income as reported on the New York state

80a
income tax return. Total annual income
means the sum of the annual incomes of all
persons whose names are recited as the
tenant or co-tenant on a lease who occupy the
housing accommodation and all other persons
that occupy the housing accommodation as
their primary residence on other than a temporary basis, excluding bona fide employees
of such occupants residing therein in connection with such employment and excluding
bona fide subtenants in occupancy pursuant
to the provisions of section two hundred
twenty-six-b of the real property law. In the
case where a housing accommodation is
sublet, the annual income of the tenant or
co-tenant recited on the lease who will
reoccupy the housing accommodation upon
the expiration of the sublease shall be
considered.
2. Deregulation income threshold means
total annual income equal to one hundred
seventy-five thousand dollars in each of the
two preceding calendar years for proceedings
commenced before July first, two thousand
eleven. For proceedings commenced on or
after July first, two thousand eleven, the
deregulation income threshold means the
total annual income equal to two hundred
thousand dollars in each of the two preceding
calendar years.
3. Deregulation rent threshold means two
thousand dollars for proceedings commenced
before July first, two thousand eleven. For
proceedings commenced on or after July first,
two thousand eleven, the deregulation rent

81a
threshold means two thousand five hundred
dollars. For proceedings commenced on or
after July first, two thousand fifteen, the
deregulation rent threshold means two thousand seven hundred dollars, provided, however, that on January first, two thousand
sixteen, and annually thereafter, such deregulation rent threshold shall be adjusted by
the same percentage as the most recent one
year renewal adjustment adopted by the
relevant guidelines board.
(b) On or before the first day of May in each
calendar year, the owner of each housing
accommodation for which the legal regulated
rent equals or exceeds the deregulation rent
threshold may provide the tenant or tenants
residing therein with an income certification
form prepared by the division of housing and
community renewal on which such tenant or
tenants shall identify all persons referred to
in subdivision (a) of this section and shall
certify whether the total annual income is in
excess of the deregulation income threshold
in each of the two preceding calendar years.
Such income certification form shall state
that the income level certified to by the tenant
may be subject to verification by the department of taxation and finance pursuant to
section one hundred seventy-one-b of the tax
law and shall not require disclosure of any
income information other than whether the
aforementioned threshold has been exceeded.
Such income certification form shall clearly
state that: (i) only tenants residing in housing
accommodations which have a legal regulated
monthly rent, that equals or exceeds the

82a
deregulation rent threshold are required to
complete the certification form; (ii) that tenants have protections available to them which
are designed to prevent harassment; (iii) that
tenants are not required to provide any
information regarding their income except
that which is requested on the form and may
contain such other information the division
deems appropriate. The tenant or tenants
shall return the completed certification to the
owner within thirty days after service upon
the tenant or tenants. In the event that the
total annual income as certified is in excess of
the deregulation income threshold in each of
the two preceding calendar years, the owner
may file the certification with the state division of housing and community renewal on or
before June thirtieth of such year. Upon filing
such certification with the division, the division shall, within thirty days after the filing,
issue an order providing that such housing
accommodation shall not be subject to the
provisions of this act upon the expiration of
the existing lease. A copy of such order shall
be mailed by regular and certified mail,
return receipt requested, to the tenant or
tenants and a copy thereof shall be mailed to
the owner.
(c) 1. In the event that the tenant or tenants
either fail to return the completed certification to the owner on or before the date
required by subdivision (b) of this section or
the owner disputes the certification returned
by the tenant or tenants, the owner may, on
or before June thirtieth of such year, petition
the state division of housing and community

83a
renewal to verify, pursuant to section one
hundred seventy-one-b of the tax law,
whether the total annual income exceeds the
deregulation income threshold in each of the
two preceding calendar years. Within twenty
days after the filing of such request with the
division, the division shall notify the tenant
or tenants named on the lease that such
tenant or tenants must provide the division
with such information as the division and
the department of taxation and finance
shall require to verify whether the total
annual income exceeds the deregulation
income threshold in each of the two preceding
calendar years. The division's notification
shall require the tenant or tenants to provide
the information to the division within sixty
days of service upon such tenant or tenants
and shall include a warning in bold faced type
that failure to respond will result in an order
being issued by the division providing that
such housing accommodation shall not be
subject to the provisions of this law.
2. If the department of taxation and finance
determines that the total annual income is in
excess of the deregulation income threshold
in each of the two preceding calendar years,
the division shall, on or before November
fifteenth of such year, notify the owner and
tenants of the results of such verification.
Both the owner and the tenants shall have
thirty days within which to comment on such
verification results. Within forty-five days
after the expiration of the comment period,
the division shall, where appropriate, issue
an order providing that such housing accom-

84a
modation shall not be subject to the provisions of this law upon the expiration of the
existing lease. A copy of such order shall be
mailed by regular and certified mail, return
receipt requested, to the tenant or tenants
and a copy thereof shall be sent to the owner.
3. In the event the tenant or tenants fail to
provide the information required pursuant to
paragraph one of this subdivision, the division shall issue, on or before December first of
such year, an order providing that such housing accommodation shall not be subject to the
provisions of this law upon the expiration of
the current lease. A copy of such order shall
be mailed by regular and certified mail,
return receipt requested, to the tenant or
tenants and a copy thereof shall be sent to the
owner.
4. The provisions of the state freedom of
information act shall not apply to any income
information obtained by the division pursuant to this section.
(d) This section shall apply only to section 26504.1 of this chapter.
(e) Upon receipt of such order of deregulation
pursuant to this section, an owner shall offer
the housing accommodation subject to such
order to the tenant at a rent not in excess of
the market rent, which for the purposes of
this section means a rent obtainable in an
arm's length transaction. Such rental offer
shall be made by the owner in writing to the
tenant by certified and regular mail and shall
inform the tenant that such offer must be

85a
accepted in writing within ten days of receipt.
The tenant shall respond within ten days
after receipt of such offer. If the tenant
declines the offer or fails to respond within
such period, the owner may commence an
action or proceeding for the eviction of such
tenant.
Other Rent Stabilization Provisions
The Emergency Tenant Protection Act of 1974 (N.Y.
Unconsol. Law § 8622) provides in relevant part:
The legislature hereby finds and declares that
a serious public emergency continues to exist
in the housing of a considerable number of
persons in the state of New York, that such
emergency necessitates the intervention of
federal, state and local government in order
to prevent speculative, unwarranted and
abnormal increases in rents; that there
continues to exist in many areas of the state
an acute shortage of housing accommodations
caused by continued high demand, attributable in part to new household formations and
decreased supply, in large measure attributable to reduced availability of federal subsidies,
and increased costs of construction and other
inflationary factors; that a substantial number of persons residing in housing not presently subject to the provisions of this act or
the emergency housing rent control law or the
local emergency housing rent control act are
being charged excessive and unwarranted
rents and rent increases; that preventive
action by the legislature continues to be
imperative in order to prevent exaction of
unjust, unreasonable and oppressive rents

86a
and rental agreements and to forestall profiteering, speculation and other disruptive
practices tending to produce threats to the
public health, safety and general welfare;
that in order to prevent uncertainty, hardship
and dislocation, the provisions of this act4 are
necessary and designed to protect the public
health, safety and general welfare; that the
transition from regulation to a normal market of free bargaining between landlord and
tenant, while the ultimate objective of state
policy, must take place with due regard for
such emergency; and that the policy herein
expressed shall be subject to determination of
the existence of a public emergency requiring
the regulation of residential rents within any
city, town or village by the local legislative
body of such city, town or village.

87a
REGULATORY PROVISIONS
New York State Regulations
Section 2520.6(o) of the Codes, Rules, and Regulations of the State of New York (9 N.Y.C.R.R.) provides:
Family member.
(1) A spouse, son, daughter, stepson, stepdaughter, father, mother, stepfather, stepmother, brother, sister, grandfather, grandmother, grandson, granddaughter, father-inlaw, mother-in-law, son-in-law or daughterin-law of the tenant or permanent tenant.
(2) Any other person residing with the tenant
or permanent tenant in the housing accommodation as a primary or principal residence,
respectively, who can prove emotional and
financial commitment, and interdependence
between such person and the tenant or permanent tenant. Although no single factor
shall be soley determinative, evidence which
is to be considered in determining whether
such emotional and financial commitment
and interdependence existed, may include,
without limitation, such factors as listed
below. In no event would evidence of a sexual
relationship between such persons be required or considered:
(i) longevity of the relationship;
(ii) sharing of or relying upon each other
for payment of household or family expenses,
and/or other common necessities of life;
(iii) intermingling of finances as evidenced
by, among other things, joint ownership of
bank accounts, personal and real property,

88a
credit cards, loan obligations, sharing a
household budget for purposes of receiving
government benefits, etc.;
(iv) engaging in family-type activities by
jointly attending family functions, holidays
and celebrations, social and recreational
activities, etc.;
(v) formalizing of legal obligations, intentions, and responsibilities to each other by
such means as executing wills naming each
other as executor and/or beneficiary, granting
each other a power of attorney and/or conferring upon each other authority to make
health care decisions each for the other, entering into a personal relationship contract,
making a domestic partnership declaration,
or serving as a representative payee for
purposes of public benefits, etc.;
(vi) holding themselves out as family members to other family members, friends, members of the community or religious institutions, or society in general, through their
words or actions;
(vii) regularly performing family functions,
such as caring for each other or each other's
extended family members, and/or relying
upon each other for daily family services;
(viii) engaging in any other pattern of
behavior, agreement, or other action which
evidences the intention of creating a longterm, emotionally committed relationship.

89a
Section 2522.5(b) of the Codes, Rules, and Regulations of the State of New York (9 N.Y.C.R.R.) provides:
(b) Renewal lease.
(1) For housing accommodations other
than hotels, upon such notice as is required
by section 2523.5 of this Title, the tenant
shall have the right of selecting at his or her
option a renewal of his or her lease for a oneor two-year term; except that where a
mortgage or a mortgage commitment existing
as of April 1, 1969 prohibits the granting of
one-year lease terms or the tenant is the
recipient of a Senior Citizen Rent Increase
Exemption pursuant to section 26-509 of the
Administrative Code of the City of New York,
the tenant may not select a one-year lease.
The owner shall furnish to the tenant signing
a renewal lease form, pursuant to section
2523.5 of this Title, a copy of the fully
executed renewal lease form, bearing the
signatures of the owner and tenant, and the
beginning and ending dates of the lease term,
within 30 days from the owner's receipt of the
renewal lease form signed by the tenant. Such
renewal lease form shall conform to the intent
of section 5-702 of the General Obligations
Law.
New York City Regulations
Section 32-02 of the Rules of the City of New York
(28 R.C.N.Y.) provides in relevant part:
Exempt Dwelling Unit. “Exempt Dwelling
Unit” shall mean a dwelling unit exempt from
rent regulation or deregulated pursuant to
the Rent Regulation Reform Act of 1993, the

90a
Rent Regulation Reform Act of 1997, Local
Law 4 of 1994, or by reason of the condominium or cooperative status of the dwelling unit.
Section 32-05 of the Rules of the City of New York
(28 R.C.N.Y.) provides:
(a) Applicability of Rent Regulation: Notwithstanding the provisions of the City Rent
and Rehabilitation Law (§ 26-401 et seq. of
the Administrative Code), as amended; or the
Rent Stabilization Law of 1969 (§ 26-501 et
seq. of the Administrative Code), as amended;
or the Emergency Tenant Protection Act of
1974, as amended, the rents of each dwelling
unit in an Eligible Multiple Dwelling, except
Exempt Dwelling Units, shall be fully subject
to control under such local laws and act for
the entire period for which the Eligible Multiple Dwelling is receiving benefits pursuant to
the Act. An Eligible Multiple Dwelling receiving benefits pursuant to the Act whose
benefits are suspended, terminated or revoked by the Department shall be deemed to
be receiving benefits for the length of time
such benefits would have been received if
such benefits had not been suspended, terminated or revoked, or for the period such local
law is in effect, whichever is shorter.
(b) Deregulation of Units: After the expiration of the Benefit Period, such rents shall
continue to be subject to rent regulation,
except that such rents that would not have
been subject to such rent regulation but for
this Section, shall be decontrolled if the landlord has included in each lease and renewal
thereof for such unit for the tenant in resi-

91a
dence at the time of such decontrol a notice in
at least twelve point type informing such
tenant that the unit shall become subject to
such decontrol upon the expiration of benefits
pursuant to the Act.

92a
APPENDIX G
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF NEW YORK
————
Index No.

/2016

————
JOHN KUZMICH, SANDRA MAY, JOSHUA SOCOLOW,
IGNATIUS NAVASCUES, KENDRICK CROASMUN,
RISHI KHANNA, CAITLAN SENSKE, JAMIE AXFORD,
JONATHAN GAZDAK, SUZY HEIMANN, MICHAEL
GORZYNSKI, NIKESH DESAI, HEIDI BURKHART, BEN
DRYLIE-PERKINS, KEIRON MCCAMMON, LISA ATWAN,
JENNIFER SENSKE RYAN, BRAD LANGSTON, ALEJANDRA
GARCIA, LISA CHU, SCOTT REALE, DAN SLIVJANOVSKI,
SHIVA PEJMAN, LAURIE KARR, ADAM SEIFER, ANAND
SUBRAMANIAN, DARCY JENSEN, ELIN THOMASIAN,
HAZEL LYONS, DAVID DRUCKER, HOWARD PULCHIN,
JIN SUP LEE, JENN WOOD, NICHOLAS APOSTOLATOS,
ALEX KELLEHER, BRIAN KNAPP, JEFF RIVES, JASON
LEWIS, LAURA FIESELER HICKMAN FRANKLIN YAP,
and STEVEN GREENES,
Plaintiffs,
-against50 MURRAY STREET ACQUISITION LLC
Defendant.
————
SUMMONS
————

93a
TO THE ABOVE NAMED DEFENDANTS:
YOU ARE HEREBY SUMMONED to answer the
Complaint in this action and to serve a copy of your
answer, or if the Complaint is not served with this
Summons, to serve a notice of appearance, on the
Plaintiffs within twenty (20) days after service of this
Summons, exclusive of the day of service (or within 30
days after the service is complete if this Summons is
not personally delivered to you within the State of New
York); and in case of your failure to appear or answer,
judgment will be taken against you by default for the
relief demanded in the Complaint.
The basis of the venue designated is the location of
the Apartment and the Building that are the subject
of this action.
Dated: New York, New York
June 21, 2016
HIMMELSTEIN, McCONNELL, GRIBBEN,
DONOGHUE & JOSEPH LLP
Attorneys for Plaintiffs
By: /s/ Serge Joseph
Serge Joseph, Esq
15 Maiden Lane, 17th Floor
New York, New York 10038
(212) 349-3000

94a
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF NEW YORK
————
Index No.

/2016

————
JOHN KUZMICH, SANDRA MAY, JOSHUA SOCOLOW,
IGNATIUS NAVASCUES, KENDRICK CROASMUN,
RISHI KHANNA, CAITLAN SENSKE, JAMIE AXFORD,
JONATHAN GAZDAK, SUZY HEIMANN, MICHAEL
GORZYNSKI, NIKESH DESAI, HEIDI BURKHART, BEN
DRYLIE-PERKINS, KEIRON MCCAMMON, LISA ATWAN,
JENNIFER SENSKE RYAN, BRAD LANGSTON, ALEJANDRA
GARCIA, LISA CHU, SCOTT REALE, DAN SLIVJANOVSKI,
SHIVA PEJMAN, LAURIE KARR, ADAM SEIFER, ANAND
SUBRAMANIAN, DARCY JENSEN, ELIN THOMASIAN,
HAZEL LYONS, DAVID DRUCKER, HOWARD PULCHIN,
JIN SUP LEE, JENN WOOD, NICHOLAS APOSTOLATOS,
ALEX KELLEHER, BRIAN KNAPP, JEFF RIVES, JASON
LEWIS, LAURA FIESELER HICKMAN FRANKLIN YAP,
and STEVEN GREENES,
Plaintiffs,
-against50 Murray Street Acquisition LLC
Defendant.
———
VERIFIED COMPLAINT
————
Plaintiffs named above, as and for their Complaint
in this action, by their undersigned attorneys, bring
this action against, and allege as follows:

95a
I. Introduction
1. Plaintiffs, current tenants of 50 Murray Street
and 53 Park Place, New York, New York, bring this
action against Defendant for: (1) a judicial declaration
that their respective apartments are subject to the
Rent Stabilization Law (hereinafter “RSL”) and Code
(hereinafter “RSC”), and that renewal lease forms be
provided to Plaintiffs by Defendant in the form
prescribed by the RSL and RSC; (2) an order enjoining
Defendant and/or their agents, assigns and successors
from offering any lease renewal in violation of the
terms of the RSL and RSC; (3) for money damages for
residential overcharges pursuant to Civil Practice Law
and Rules (“CPLR”) § 213-a, to recover the amount
overcharged along with interests, costs, attorneys’ fees
and treble damages as provided by law; (4) relief
pursuant to General Business Law § 349, enjoining
Defendant from engaging in the deceptive business
practices set forth in the Complaint, and recovering
monetary damages for Plaintiffs’ injuries; and (5)
injunctive relief enjoining Defendant from commencing eviction proceedings against Plaintiffs based upon
expiration of Plaintiffs’ leases, since this will cause
Plaintiffs irreparable damage as they will be listed on
Tenant Screening Bureaus, also known as “Black
Lists”, which may impair their credit ratings, ability
to obtain credit or mortgages or rent other apartments
in the future.
2. Plaintiffs have been, and continue to be,
illegally charged rents in excess of the legal rent stabilized levels for their apartments even as Defendant
has been receiving real estate tax benefits pursuant to
Real Property Tax Law § 421-g (“the 421-g Program”).
The 421-g Program grants property owners tax abatements and exemptions for the conversion of commer-

96a
cial buildings, or portions of such buildings, into
residential multiple dwellings in the Financial District area of Manhattan. Benefits of the program
include a construction period exemption, exemption
from the increase in real estate taxes resulting from
the work, and abatement of real estate taxes. However, the 421-g Program conditions the tax benefits on
the regulation of rents in the subject building.
3. Although Defendant, as owner of 50 Murray
Street and 53 Park Place, has enjoyed tax benefits
under the 421-g Program, Defendant has failed to treat
Plaintiffs’ apartments as rent stabilized, and has
improperly charged Plaintiffs rents in excess of the
lawful rents.
4. Plaintiffs are thus entitled to reimbursement of
the excess rent amounts which they have paid while
Defendant was participating in the 421-g Program.
Further, as Defendant is still participating in the 421g Program, and will continue to receive 421-g benefits
until approximately June, 2017, and as Defendant has
failed to include a notice in each of Plaintiffs’ lease and
renewal thereof in at least twelve point type informing
Plaintiffs that their respective apartments shall become subject to decontrol upon the expiration of the
421-g benefits, Plaintiffs are entitled to all the rights
of rent stabilized tenants, including but not limited to
regulated rents going forward and the rights of renewal and succession.
II. The Parties
5. All Plaintiffs are natural persons residing in the
State and County of New York.
6. Defendant is a Delaware Limited Liability
Company doing business in the State of New York. Its

97a
primary place of business is in the State and County
of New York.
7. Defendant maintains an office at 46-1112th
Avenue, Suite 1-L, Brooklyn, New York 11219.
III. Venue
8. Plaintiffs have selected the County of New York
as the place of trial, based upon the residence of Plaintiffs.
IV. Statement of facts Common to All Plaintiffs
A. 50 Murray Street
9. 50 Murray Street is a residential apartment
building located in lower Manhattan, between West
Broadway and Church Streets, just north of the World
Trade Center site. Completed in 1964 it was originally
an office building.
10. The building was converted into residential use,
and upon information and belief reopened for occupancy in or about 2001. The building has 21 stories
and contains 395 housing accommodations.
11. Beginning in or around July, 2003, and continuing through the present time, Defendant as owner
and managing agent and on behalf of 50 Murray
Street, have applied for, and received from, New York
City real estate tax relief under the 421-g Program.
12 A Certificate of Eligibility for the 421-g Program was issued by the City of New York, Department
of Housing Preservation and Development, on July 1,
2003.
13. Despite its participation in the 421-g Program,
Defendant has charged and collected rents in excess of
the lawful stabilized rents in violation of Real property

98a
Tax Law § 421-g, and caused numerous dwelling units
at 50 Murray Street to be improperly deregulated.
B. 53 Park Place
14. 53 Park Place is a residential apartment building
also located in lower Manhattan, between West Broadway and Church Streets, just north of the World Trade
Center site. Completed in 1922 it was originally an office building.
15. The building was converted into residential use,
and upon information and belief reopened for occupancy in or about 2001. The building has 12 stories
and contains 115 housing accommodations.
16. Beginning in or around July 1, 2001 Defendant
as owner and managing agent and on behalf of 53 Park
Place, have applied for, and received from, New York
City real estate tax relief under the 421-g Program.
17. A Certificate of Eligibility for the 421-g Program was issued by the City of New York, Department
of Housing Preservation and Development, on July 1,
2001.
18. Despite its participation in the 421-g Program,
Defendant has charged and collected rents in excess of
the lawful stabilized rents in violation of Real property
Tax Law § 421-g, and caused numerous dwelling units
at 53 Park Place to be improperly deregulated.
B. The 421-g Program
19. In 1995, the New York State Legislature enacted Real Property Tax Law (RPTL) § 421-g, which
enabled the City of New York to attempt the revitalization of Lower Manhattan through real property
tax abatements, commercial rent tax reductions
and energy rebates, and through programs providing

99a
incentives to convert commercial office buildings to
residential and mixed-use buildings.
20. The statute amended the RPTL to provide tax
abatements and exemptions to convert commercial
buildings in Lower Manhattan to residential use. Eligible buildings would receive a tax exemption for 12
years, and a tax abatement for 14 years. Initially, the
statute was to expire on March 31, 1999.
21. In September 1997, the RPTL § 421-g statute
was extended for an additional three years. Thereafter, in 2002, the RPTL § 421-g was further extended.
22. The plain terms of the statute reflect that the
Legislature intended to impose rent regulation on any
building that received tax benefits under the RPTL
§ 421-g statute, unless exempt under such local law
from control by reason of the cooperative or condominium status of the dwelling unit.
23. RPTL § 421-g (6) states in pertinent part:
Notwithstanding the provisions of any local
law for the stabilization of rents in multiple
dwellings or the emergency tenant protection
act of nineteen seventy-four, the rents of each
dwelling unit in an eligible multiple dwelling
shall be fully subject to control under such
local law, unless exempt under such local law
from control by reason of the cooperative or
condominium status of the dwelling unit.
24. RTPL § 421-g (6) further provides that property
owners must keep the dwelling units in subject
buildings rent stabilized at least for the duration of the
421-g tax benefit period. At the end of the 421-g benefit
period, the unit can be destabilized, assuming the tenant receives the requisite notice and there is no other

100a
basis for stabilization. If the landlord fails to give proper notice, the unit can be destabilized on the occurrence of the first vacancy of such unit after the benefits
expire.
25. In pertinent part, RPTL § 421-g (6) provides:
Thereafter [at the expiration of the benefits],
such rents shall continue to be subject to such
control, except that such rents that would not
have been subject to such control but for this
subdivision, shall be decontrolled if the landlord has included in each lease and renewal
thereof for such unit for the tenant in residence at the time of such decontrol a notice in
at least twelve point type informing such
tenant that the unit shall become subject to
such decontrol upon the expiration of benefits
pursuant to this section.
B. The Rent Regulation Reform Act of 1993 and
1997
26. In 1993, the Legislature enacted the Rent
Regulation Reform Act, which amended the RSL and
Emergency Tenant Protection Act [“ETPA”] to exclude
certain high income renters and high rent accommodations from rent stabilization. See Admin. Code [RSL]
§§ 26-504.1 & 26-504.2(a). See also ETPA § 5 (a)(13).
27. The act excluded from rent stabilization (1) any
apartment occupied whose rental annual income
exceeded $250,000 for each of the two preceding years
and whose monthly rent equaled $2,000 or more, and
(2) apartments with a monthly regulated rent upon
vacancy of $2,000 or more [the “Luxury Deregulation
Exclusion”]. The act provided, however, that this exclusion “shall not apply to housing accommodations
which became or become subject to this law by virtue

101a
of receiving tax benefits pursuant to section four hundred twenty-one-a or four hundred eighty-nine of the
real property tax law...”
28. Two years later, the Legislature enacted RPTL
§ 421-g. Presumably, the Legislature was aware of all
the exclusions and exemptions contained in the RSL
and ETPA, including the Luxury Deregulation Exclusion.
29. Yet, in enacting the 421-g Program in 1995, the
Legislature decided without reservation or equivocation that the “rents of each dwelling unit” in a building
receiving benefits under the RPTL § 421-g “shall be
fully subject” to rent regulation, “[n]otwithstanding
the provisions of any local law for the stabilization of
rents in multiple dwellings or the emergency tenant
protection act of nineteen seventy-four.” Equally important, the Legislature also decided to exclude from
rent stabilization coverage only cooperatives and condominiums.
30. In 1997, the Legislature enacted the Rent Regulation Reform Act of 1997 (“1997 RRRA”), which reduced the “high income” threshold for deregulation
from $250,000 to the current $175,000.00, and extended the RSL until June 15, 2003. The 1997 RRRA
made no changes to the statutory exception to the
Luxury Deregulation Exclusion. Consistent with long
standing public policy, the 1997 RRRA included a
“guarantee that all new housing construction taking
place after the effective date of the Act will not be
subject to rent regulation, except where owners voluntarily accept government benefits in exchange for
placing units under regulation.” (Assembly Speaker
Sheldon Silver, Memorandum in Support of Legislation, June 19, 1997; accord Signing Memorandum,
Governor George E. Pataki, June 19, 1997.

102a
31. Thus, regardless of whether the legal regulated
rent reaches $2,000 per month or whether a tenant’s
income exceeds $175,000.00 per year, dwelling units
in any building receiving 421-g benefits must remain
rent stabilized at least during the duration of the
benefits and may not be deregulated.
32. Accordingly, apartments which may have been
treated as deregulated pursuant to high rent vacancy
deregulation or high rent, high income deregulation
are in fact rent stabilized.
33. Plaintiffs are individuals residing in apartments in the Building.
34. Each Plaintiff entered into possession of his or
her respective apartment pursuant to a written lease.
35. Each Plaintiff’s apartment has been, and remains, subject to the provisions of the Rent
Stabilization Law (NYC Adm Code § 26-501 et seq).
36. Plaintiffs’ apartments were not treated as rent
stabilized nor did any of Plaintiffs’ initial leases, nor
any renewals thereof, contain any rider or notice pursuant to RPTL § 421-g (6), informing Plaintiffs that
their respective apartments shall be subject to deregulation upon the expiration of the 421-g benefit period.
37. Upon information and belief, the initial leases
entered into by Plaintiffs are titled “Standard Form
Lease For Apartments Not Subject to the Rent Stabilization Law.”
38. At no time were Plaintiffs ever provided with
any written explanation as to how it was determined
that their apartments were deregulated, nor were any
Plaintiffs ever provided with any calculation as to how
the amount of the monthly rent was determined.

103a
39. No Plaintiff has ever been offered a renewal
lease in the form required by the Division of Housing
and Community Renewal (“DHCR”) pursuant to the
Rent Stabilization Law and Code.
40. No Plaintiff has ever received a “Rent Stabilization Rider.”
41. At all times, Defendants, through its members,
officers, agents, and employees, have represented to
Plaintiffs that their apartments are exempt from rent
stabilization.
42. At all relevant times, Defendants have represented to the public at large, and continue to so represent, that the apartments in the building are exempt
from rent regulation.
43. Defendants through their members, officers,
employees and agents, knew or reasonably should
have known, that the provisions of high rent vacancy
deregulation and high rent, high income deregulation
did not apply to buildings receiving 421-g tax benefits.
44. Each Plaintiff’s apartment has been and still is
subject to the registration requirements of the Rent
Stabilization Law set forth at NYC Admin Code §26517, which provides at subdivision (e) thereof that the
failure to file a proper and timely initial or annual
registration with the DHCR shall, until such time as
such registration is filed, bar an owner from applying
for or collecting any rent in excess of the legal regulated rent in effect on the date of the last preceding
proper registration statement.
45. The legal regulated rent for each Plaintiff’s
apartment is set at the amount of rent reflected in the
last properly filed registration with the DHCR.

104a
46. Any DHCR registration during the period of
Defendants’ receipt of 421-g benefits which did not
state that the apartment was subject to rent stabilization is null and void.
47. In each case Plaintiffs have paid the rent set
forth in the initial lease and the lease renewals entered
into for the subject apartment.
48. Plaintiffs have paid a security deposit equivalent to the amount contained in their leases, in violation of the RSL and RSC.
49. The treatment of Plaintiffs’ apartments as
exempt from rent stabilization was unlawful.
50. As a result of the unlawful exemption of Plaintiffs’ apartments from rent stabilization, the illegal
assessment of rent increases, and the illegal collection
of rent in excess of the amount in the last proper
DHCR registration statement, Plaintiffs have been
and continue to be overcharged in their rents.
51. The aforesaid acts and practices of Defendants
were and continue to be consumer-oriented, aimed at
the public at large.
52. The aforesaid acts and practices of Defendants
were and continue to be misleading in a material way.
53. Plaintiffs have suffered injury as a result of the
deceptive acts and practices of Defendants.
54. Defendants willingly or knowingly violated the
provisions of General Business Law § 349.
55. Pursuant to NYC Adm Code § 26-516(a), any
owner of a housing accommodation who has been
found, after a reasonable opportunity to be heard, to
have collected an overcharge above the rent authorized for a housing accommodation subject to the Rent

105a
Stabilization Law shall be liable to the tenant for a
penalty equal to three times the amount of such overcharge; but if the owner establishes by a preponderance of the credible evidence that overcharge was not
willful, the penalty shall be established as the amount
of the overcharge plus interest.
56. Also, RSL, NYC Adm Code § 26-516(a), provides
that an owner found to have overcharged may be
charged the reasonable costs and attorneys’ fees of the
proceeding and interest from the date of the overcharge at the rate payable on a judgment pursuant to
CPLR § 5004; and such reasonable costs and attorneys’ fees and interest should be charged to Defendants herein.
57. Upon information and belief, most if not all of
Plaintiffs’ leases provide that the landlord may recover
attorneys’ fees and/or expenses as the result of the
failure of the tenant to perform any covenant or agreement contained in the lease, and that in that event the
amounts shall be paid by the tenant as additional rent.
58. Accordingly, pursuant to Real Property Law
(“RPL”) § 234, there is implied in each of Plaintiffs’
leases which contain such a provision, a covenant by
the landlord to pay the tenant’s attorneys’ fees and/or
expenses incurred as the result of the failure of the
landlord to perform any covenant or agreement under
the lease.
59. Thus, Plaintiffs are entitled to an award of
attorneys’ fees pursuant to the RSL and RPL.
60. Plaintiffs face the risk that Defendants will
refuse to renew their leases when they expire, and
further risk that Defendants will commence holdover
proceedings or ejectment actions based upon expira-

106a
tion of lease, which is not a lawful basis for removal of
Plaintiffs under the RSL.
61. If eviction proceedings are brought against
Plaintiffs for expiration of lease, Plaintiffs will be
listed on Tenant Screening Bureaus, also known as
“Black Lists”, which may impair their credit ratings,
ability to obtain credit or mortgages or rent other
apartments in the future.
62. Plaintiffs lack an adequate remedy at law.
V. Statement of Facts as to Individual Plaintiffs
A. John Kuzmich – 50 Murray Street, Apartment 1121
63. Plaintiff John Kuzmich entered into possession
of Apartment 1121 pursuant to an initial lease commencing on April 1, 2007. The lease stated that the
apartment is not subject to the rent stabilization law.
64. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on April 1, 2016 and is scheduled to
terminate on March 31, 2017 at a rental of $4,625.00
per month.
65. Upon information and belief, there is no record
of a registration statement on file with DHCR.
B. Sandra May – 50 Murray Street, Apartment
301
66. Plaintiff Sandra May entered into possession of
Apartment 301 pursuant to an initial lease commencing in August 2005. The lease stated that the apartment is not subject to the rent stabilization law.
67. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on September 1, 2015 and is scheduled to

107a
terminate on August 31, 2016 at a rental of $8,500.00
per month.
68. Upon information and belief, there is no record
of a registration statement on file with DHCR.
C. Joshua Socolow – 50 Murray Street, Apartment 302
69. Plaintiff Joshua Socolow entered into possession of Apartment 302 pursuant to an initial lease
commencing on July 1, 2008. The lease stated that the
apartment is not subject to the rent stabilization law.
70. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on July 1, 2016 and is scheduled to
terminate on June 30, 2017 at a rental of $7,600.00 per
month.
71. Upon information and belief, there is no record
of a registration statement on file with DHCR.
D. Ignatius Navascues – 50 Murray Street,
Apartment 308
72. Plaintiff Ignatius Navascues entered into possession of Apartment 308 pursuant to an initial lease
commencing on August 1, 2013. The lease stated that
the apartment is not subject to the rent stabilization
law.
73. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on August 1, 2015 and is scheduled to
terminate on July 31, 2016 at a rental of $6,250.00 per
month.
74. Upon information and belief, there is no record
of a registration statement on file with DHCR.

108a
E. Kendrick Croasmun – 50 Murray Street,
Apartment 309
75. Plaintiff Kendrick Croasmun entered into possession of Apartment 309 pursuant to an initial lease
commencing April 1, 2008. The lease stated that the
apartment is not subject to the rent stabilization law.
76. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on April 1, 2015 and terminated on March
31, 2016 at a rental of $6,075.00 per month.
77. Upon information and belief, there is no record
of a registration statement on file with DHCR.
F. Rishi Khanna – 50 Murray Street, Apartment 322
78. Plaintiff Rishi Khanna entered into possession
of Apartment 322 pursuant to an initial lease commencing on November 1, 2009. The lease stated that
the apartment is not subject to the rent stabilization
law.
79. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on November 1, 2015 and is scheduled to
terminate on October 31, 2016 at a rental of $5,175.00
per month.
80. Upon information and belief, there is no record
of a registration statement on file with DHCR.
G. Caitlin Senske – 50 Murray Street, Apartment 414
81. Plaintiff Caitlin Senske entered into possession
of Apartment 414 pursuant to an initial lease commencing July 1, 2014. The lease stated that the apartment is not subject to the rent stabilization law.

109a
82. The lease was renewed pursuant to a renewal
lease, commencing on July 1, 2015 and ending on June
30, 2016 at a rental of $5,795.00 per month.
83. There is no record of a registration statement on
file with DHCR.
H. Jamie Axford – 50 Murray Street, Apartment 503
84. Plaintiff Jamie Axford entered into possession
of Apartment 503 pursuant to an initial lease commencing on July 1, 2004. The lease stated that the
apartment is not subject to the rent stabilization law.
85. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on July 1, 2015 and is scheduled to terminate on June 30, 2016 at a rental of $7,875.00 per
month.
86. Upon information and belief, there is no record
of a registration statement on file with DHCR.
I. Jonathan Gazdak – 50 Murray Street,
Apartment 801
87. Plaintiff Jonathan Gazdak entered into possession of Apartment 801 pursuant to an initial lease
commencing on May 1, 2012. The lease stated that the
apartment is not subject to the rent stabilization law.
88. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on May 1, 2015 and terminating on April
30, 2016 at a rental of $10,295.00 per month.
89. Upon information and belief, there is no record
of a registration statement on file with DHCR.

110a
J. Suzy Heimann – 50 Murray Street, Apartment 821
90. Plaintiff Suzy Heimann entered into possession
of Apartment 821 pursuant to an initial lease commencing on April 1, 2011. The lease stated that the
apartment is not subject to the rent stabilization law.
91. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on April 1, 2016 and is scheduled to
terminate on March 31, 2017 at a rental of $4,480.00
per month.
92. Upon information and belief, there is no record
of a registration statement on file with DHCR.
K. Michael Gorzynski – 50 Murray Street,
Apartment 908
93. Plaintiff Michael Gorzynski entered into
possession of Apartment 908 pursuant to an initial
lease commencing October 1, 2009. The lease stated
that the apartment is not subject to the rent stabilization law.
94. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on October 1, 2015 and is scheduled to
terminate on September 30, 2016 at a rental of $6,085.00
per month.
95. Upon information and belief, there is no record
of a registration statement on file with DHCR.
L. Nikesh Desai – 50 Murray Street, Apartment 1009
96. Plaintiff Nikesh Desai entered into possession
of Apartment 1009 pursuant to an initial lease com-

111a
mencing February 1, 2010. The lease stated that the
apartment is not subject to the rent stabilization law.
97. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on March 1, 2016 and is scheduled to terminate on February 28, 2017 at a rental of $6,150.00 per
month.
98. Upon information and belief, there is no record
of a registration statement on file with DHCR.
M. Heidi Burkhart – 50 Murray Street, Apartment 1402
99. Plaintiff Heidi Burkhart entered into possession of Apartment 1402 pursuant to an initial lease
commencing in January 2014. The lease stated that
the apartment is not subject to the rent stabilization
law.
100. The lease was renewed on at least two occasions, the latest of which pursuant to a renewal lease
for a term of one year, commencing on February 1,
2016 and is scheduled to terminate on January 31,
2017 at a rental of $6,6955.00 per month.
101. Upon information and belief, there is no record
of a registration statement on file with DHCR.
N. Ben Drylie-Perkins – 50 Murray Street,
Apartment 1413
102. Plaintiff Ben Drylie-Perkins entered into possession of Apartment 1413 pursuant to an initial lease
commencing July 1, 2012. The lease stated that the
apartment is not subject to the rent stabilization law.
103. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on September 1, 2015 and is scheduled to

112a
terminate on August 31, 2016 at a rental of $4,325.00
per month.
104. Upon information and belief, there is no record
of a registration statement on file with DHCR.
O. Keiron McCammon – 50 Murray Street,
Apartment 1507
105. Plaintiff Keiron McCammon entered into possession of Apartment 1507 pursuant to an initial lease
commencing in January 2014. The lease stated that
the apartment is not subject to the rent stabilization
law.
106. The lease was renewed pursuant to a renewal
lease, commencing on August 1, 2015 and ending on
July 31, 2016, at a rental of $4,400.00 per month.
107. Upon information and belief, here is no record
of a registration statement on file with DHCR.
P. Lisa Atwan – 50 Murray Street, Apartment
1511
108. Plaintiff Lisa Atwan entered into possession of
Apartment 1511 pursuant to an initial lease commencing on September 1, 2011. The lease stated that the
apartment is not subject to the rent stabilization law.
109. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on September 1, 2015 and is scheduled to
terminate on August 31, 2016 at a rental of $5,725.00
per month.
110. Upon information and belief, there is no record
of a registration statement on file with DHCR.

113a
Q. Jennifer Senske Ryan – 50 Murray Street,
Apartment 1711
111. Plaintiff Jennifer Senske Ryan entered into
possession of Apartment 1711 pursuant to an initial
lease commencing September 2014. The lease stated
that the apartment is not subject to the rent
stabilization law.
112. The lease was renewed pursuant to a renewal
lease, commencing on September 1, 2015, and ending
on August 31, 2016 at a rental of $4,900 per month.
113. Upon information and belief, there is no record
of a registration statement on file with DHCR.
R. Brad Langston
Apartment 2009

–

50

Murray

Street,

114. Plaintiff Brad Langston entered into possession
of Apartment 2009 pursuant to an initial lease commencing September 1, 2006. The lease stated that the
apartment is not subject to the rent stabilization law.
115. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on September 1, 2015 and is scheduled to
terminate on August 31, 2016 at a rental of $6,895.00
per month.
116. Upon information and belief, there is no record
of a registration statement on file with DHCR.
S. Alejandra Garcia – 50 Murray Street, Apartment 2011
117. Plaintiff Alejandra Garcia entered into possession of Apartment 2001 pursuant to an initial commencing in October 2012. The lease stated that the
apartment is not subject to the rent stabilization law.

114a
118. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on November 1, 2015 and is scheduled to
terminate on October 31, 2016 at a rental of $5,295.00
per month.
119. Upon information and belief, there is no record
of a registration statement on file with DHCR
T. Lisa Chu – 50 Murray Street, Apartment
2012
120. Plaintiff Lisa Chu entered into possession of
Apartment 2012 pursuant to an initial lease commencing in March 2010. The lease stated that the apartment is not subject to the rent stabilization law.
121. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on March 1, 2016 and is scheduled to
terminate on February 28, 2017 at a rental of $6,895.00
per month.
122. Upon information and belief, there is no record
of a registration statement on file with DHCR.
U. Scott Reale – 50 Murray Street, Apartment
1202
123. Plaintiff Scott Reale entered into possession of
Apartment 1202 pursuant to an initial lease commencing on March 1, 2003. The lease stated that the apartment is not subject to the rent stabilization law.
124. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on March 1, 2016 and is scheduled to terminate on February 28, 2017 at a rental of $7,125.00
per month.

115a
125. Upon information and belief, there is no record
of a registration statement on file with DHCR.
V. Dan Slivjanovski – 50 Murray Street, Apartment 616
126. Plaintiff Dan Slivjanovski entered into possession of Apartment 616 pursuant to an initial lease
commencing in July, 2012. The lease stated the apartment is not subject to the rent stabilization law.
127. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on September 1, 2015 and is scheduled to
terminate on August 31, 2016 at a rental of $4,400.00
per month.
128. Upon information and belief, there is no record
of a registration statement on file with DHCR.
W. Shiva Pejman –
Apartment 1714

50

Murray

Street,

129. Plaintiff Shiva Pejman entered into possession
of Apartment 1714 pursuant to an initial lease commencing in July, 2007. The lease stated that the apartment is not subject to the rent stabilization law.
130. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on November 1, 2015 and is scheduled to
terminate on October 31, 2016 at a rental of $4,335.00
per month.
131. Upon information and belief, there is no record
of a registration statement on file with DHCR.
X. Laurie Karr – 50 Murray Street. Apartment
1805
132. Plaintiff Laurie Karr entered into possession of
Apartment 1805 pursuant to an initial lease commenc-

116a
ing in June, 2014. The lease stated that the apartment
is not subject to the rent stabilization law.
133. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on June 1, 2016 and is scheduled to terminate May 31, 2016 at a rental of $4,095.00 per
month.
134. Upon information and belief, there is no record
of a registration statement on file with DHCR.
Y. Adam Seifer – 50 Murray Street, Apartment
1301
135. Plaintiff Adam Seifer entered into possession of
Apartment 1301 pursuant to an initial lease commencing in September 1, 2010. The lease stated that the
apartment is not subject to the rent stabilization law.
136. The lease was renewed pursuant to a renewal
lease for a term of one year, commencing on September
1, 2015 and is scheduled to terminate on August 31,
2016 at a rental of $9,125.00 per month.
137. Upon information and belief, there is no record
of a registration statement on file with DHCR.
Z. Anand Subramanian – 50 Murray Street
Apartment 1411
138. Plaintiff Anand Subramanian entered into possession of Apartment 1411 pursuant to an initial lease
commencing in January 2014. The lease stated that
the apartment is not subject to the rent stabilization
law.
139. The lease was renewed pursuant to a renewal
lease for a term of one year, commencing on April 1,
2015 and terminated on March 31, 2016 at a rental of
$6,000.00 per month.

117a
140. Upon information and belief, there is no record
of a registration statement on file with DHCR.
AA. Darcy Jensen – 50 Murray Street, Apartment 422
141. Plaintiff Darcy Jensen entered into possession
of Apartment 422 pursuant to an initial lease commencing in November, 2002. The lease stated that the
apartment is not subject to the rent stabilization law.
142. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on December 1, 2015 and is scheduled to
terminate on November 30, 2016 at a rental of $5,995.00
per month.
143. Upon information and belief, there is no record
of a registration statement on file with DHCR.
BB. Elin Thomasian – 50 Murray Street, Apartment 813
144. Plaintiff Elin Thomasian entered into possession of Apartment 813 pursuant to an initial lease
commencing in May, 2012. The lease stated that the
apartment is not subject to the rent stabilization law.
145. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on May 1, 2016 and is scheduled to terminate on April 30, 2017 at a rental of $4,195.00 per
month.
146. Upon information and belief, there is no record
of a registration statement on file with DHCR.
CC. Hazel Lyons – 50 Murray Street, Apartment 1115
147. Plaintiff Hazel Lyons entered into possession of
Apartment 1115 pursuant to an initial lease commenc-

118a
ing in October, 2014. The lease stated that the apartment is not subject to the rent stabilization law.
148. The lease was for a term of one year term and
commenced on October 15, 2015 and terminated on
October 31, 2016 at a rental of $3,550.00 per month.
Plaintiff Lyon’s lease was renewed for a one year term
commencing November 1, 2015 and terminating October
31, 2016 at a rental rate of $3,650.00 per month.
149. Upon information and belief, there is no record
of a registration statement on file with DHCR.
DD. David Drucker – 50 Murray Street, Apartment 1807
150. Plaintiff David Drucker entered into possession
of Apartment 1807 pursuant to an initial lease commencing in October 1, 2006. The lease stated that the
apartment is not subject to the rent stabilization law.
151. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on October 1, 2014 and terminating
September 30, 2015 at a rental of $4895.00 per month.
152. Upon information and belief, there is no record
of a registration statement on file with DHCR.
EE. Howard Pulchin – 50 Murray Street, Apartment 917
153. Plaintiff Howard Pulchin entered into possession of Apartment 917 pursuant to an initial lease
commencing in 2002. The lease stated that the apartment is not subject to the rent stabilization law.
154. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on March 1, 2014 and terminating on

119a
February 28, 2015 at a rental of $5,695.00 .00 per
month.
155. Upon information and belief, there is no record
of a registration statement on file with DHCR.
FF. Laura Fieseler Hickman – 53 Park Place,
Apartment 6F
156. Plaintiff Laura Fieseler Hickman entered into
possession of Apartment 6F pursuant to an initial
lease commencing in August, 2011. The lease stated
that the apartment is not subject to the rent stabilization law.
157. The lease was renewed, the latest of which is
for a term of one year, commencing on October 1, 2012
and is scheduled and terminated June 30, 2013 at a
rental of $3,295.00 per month.
158. Upon information and belief, there is no record
of a registration statement on file with DHCR.
GG. Jin Sup Lee – 53 Park Place, Apartment 4C
159. Plaintiff Jin Sup Lee entered into possession of
Apartment 4C at 53 Park Place pursuant to an initial
lease commencing in March, 2010. The lease stated
that the apartment is not subject to the rent stabilization law.
160. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on March 1, 2016 and is scheduled to
terminate on February 28, 2017 at a rental of $4,150.00
per month.
161. Upon information and belief, there is no record
of a registration statement on file with DHCR.

120a
HH. Jenn Wood – 53 Park Pace, Apartment 7C
162. Plaintiff Jenn Wood entered into possession of
53 Park Place, Apartment 7C pursuant to an initial
lease commencing in March, 2004. The lease stated
that the apartment is not subject to the rent stabilization law.
163. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on March 1, 2016 and is scheduled to
terminate on February 28, 2017 at a rental of $4,100.00
per month.
164. Upon information and belief, there is no record
of a registration statement on file with DHCR.
II. Jeff Rives – 53 Park Place, Apartment 11E
and PHJ
165. Plaintiff Jeff Rives initially entered into possession of Apartment 11E pursuant to an initial lease
commencing in June 1, 2011. The lease stated that the
apartment is not subject to the Rent Stabilization
Law.
166. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on June 1, 2013 and terminating on June
1, 2014 at a rental of $3,450.00 per month.
167. Thereafter Jeff Rives entered into possession of
Apartment PHJ pursuant to an initial lease commencing February 1, 2014 at a rental rate of $4,295.00 per
month. The lease stated that the apartment is not
subject to the rent stabilization law.
168. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on February 1, 2014 and terminating
April 31, 2015 at a rental of $4,600.00 per month. The

121a
lease stated that the apartment is not subject to the
rent stabilization law.
169. Upon information and belief, there is no record
of a registration statement on file with DHCR.
JJ. Steven Greenes – 53 Park Place, Apartment
7E
170. Plaintiff Steven Greenes entered into possession of Apartment 7E pursuant to an initial lease
commencing in January, 2010. The lease stated that
the apartment is not subject to the rent stabilization
law.
171. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on March 1, 2016 and terminating February 28, 2017 at a rental of $3,650.00 per month.
172. Upon information and belief, there is no record
of a registration statement on file with DHCR.
KK. Franklin Yap – 53 Park Place, Apartment
PHG
173. Plaintiff Franklin Yap entered into possession
of Apartment PHG pursuant to an initial lease commencing in January, 2002. The lease stated that the
apartment is not subject to the rent stabilization law.
174. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of six
months, commencing on January 1, 2016 and terminating June 30, 2016 at a rental of $4,160.00 per month.
175. Upon information and belief, there is no record
of a registration statement on file with DHCR.

122a
LL. Jason Lewis – 53 Park Place, Apartment
PHH
176. Plaintiff Jason Lewis entered into possession of
Apartment PHH pursuant to an initial lease commencing in May, 2005. The lease stated that the apartment is not subject to the rent stabilization law.
177. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on June 1, 2015 and terminating May 31,
2016 at a rental of $3,350.00 per month.
178. Upon information and belief, there is no record
of a registration statement on file with DHCR.
MM. Brian Knapp – 53 Park Place, Apartment
PHJ
179. Plaintiff Brian Knapp entered into possession
of Apartment PHJ pursuant to an initial lease
commencing in June, 2007. The lease stated that the
apartment is not subject to the rent stabilization law.
180. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,
commencing on February 1, 2013 and terminating
January 31, 2014 at a rental of $3,795.00 per month.
181. Upon information and belief, there is no record
of a registration statement on file with DHCR.
NN. Alex Kelleher – 53 Park Place, Apartment
6J
182. Plaintiff Alex Kelleher entered into possession
of Apartment 6J pursuant to an initial lease commencing in January, 2012. The lease stated that the apartment is not subject to the rent stabilization law.
183. The lease was renewed pursuant to a series of
renewals, the latest of which is for a term of one year,

123a
commencing on February 1, 2016 and terminating
January 31, 2017 at a rental of $4,675.00 per month.
184. Upon information and belief, there is no record
of a registration statement on file with DHCR.
OO. Nicholas Apostolatos – 53 Park Place,
Apartment 8D and PHB
185. Plaintiff Nicholas Apostolatos entered into possession of Apartment 8D pursuant to an initial lease
commencing in August, 2001. The lease stated that the
apartment is not subject to the rent stabilization law.
Thereafter Plaintiff Nicholas Apostolatos moved into
Apartment PHB in May, 2007. The lease for PHB also
stated that the apartment is not subject to the rent
stabilization law.
186. The lease for Apartment PHB was renewed
pursuant to a series of renewals, the latest of which is
for a term of one year, commencing on May 1, 2013 and
terminating May 31, 2014 at a rental of $4,395.00 per
month.
187. Upon information and belief, there is no record
of a registration statement on file with DHCR.
VI. Causes of Action
FIRST CAUSE OF ACTION
(Declaratory Relief)
188. Plaintiffs repeat and specifically incorporate the
allegations of paragraphs 1 through 187 of this Complaint.
189. A justiciable controversy exists.
190. Plaintiffs have no adequate remedy at law.
191. Based upon the foregoing, Plaintiffs are entitled to a declaratory judgment adjudging and deter-

124a
mining that their apartments are subject to the Rent
Stabilization Law and Code, and determining the
amount of the legal regulated rents for their respective
apartments.
SECOND CAUSE OF ACTION
(Declaratory Relief)
192. Plaintiffs repeat and specifically incorporate the
allegations of paragraphs 1 through 191 of this Complaint.
193. Plaintiffs are entitled to a declaratory judgment adjudging and determining that any leases for
subsequent terms offered to Plaintiffs by Defendant
are invalid and unlawful unless they are offered on renewal lease forms prescribed by the DHCR and Rent
Stabilization Law and Code; and enjoining Defendant,
and its agents, assigns and successors from offering
lease renewals in violation of the terms of the Rent
Stabilization Law and Code; and determining that
Plaintiffs are not required to pay any renewal lease
increase unless and until a valid lease renewal offer is
made.
THIRD CAUSE OF ACTION
(Injunctive Relief)
194. Plaintiffs repeat and specifically incorporate
the allegations of paragraphs 1 through 193 of this
Complaint.
195. Plaintiffs face the risk that Defendant will
refuse to renew their leases when they expire, and the
risk that Defendant will commence holdover proceedings or ejectment actions based upon expiration of
lease, which is not a lawful basis for removal of Plaintiffs under the Rent Stabilization Law.

125a
196. If eviction proceedings are brought against
Plaintiffs for expiration of lease, Plaintiffs will be
listed on Tenant Screening Bureaus, also known as
“Black Lists”, which may impair their credit ratings,
ability to obtain credit or mortgages or rent other apartments in the future.
197. Plaintiffs lack an adequate remedy at law.
198. Accordingly, Defendant should be enjoined
from initiating any proceedings to terminate or
otherwise interfere with Plaintiffs’ tenancies based
upon expiration of Plaintiffs leases.
199. The balance of hardships also favors the Plaintiffs in this matter.
200. Defendant’s harm is less tangible and far less
prejudicial. Under these circumstances, Plaintiffs have
the most immediate and rightful claims.
201. Unless the injunctive relief requested herein is
granted, Plaintiffs have no adequate remedy at law.
FOURTH CAUSE OF ACTION
(Rent Overcharge)
202. Plaintiffs repeat and specifically incorporate
the allegations of paragraphs 1 through 201 of this
Complaint.
203. Defendant has overcharged Plaintiffs in violation of the Rent Stabilization Law and Code, by collecting rent and other consideration in excess of the legal
regulated rent.
204. As a result of Defendant’s rent overcharges
described above, Plaintiffs have been damaged and are
entitled to an award of money damages against Defendant equal to such overcharges in an amount to be
determined at trial.

126a
205. In addition, Plaintiffs are entitled to an award
of interest on the rent overcharges as described above,
with such interest accruing from the date of the overcharge.
206. Further, the overcharges were willful. As such,
Defendant is liable to Plaintiffs for a penalty equal to
three times the overcharges.
207. Plaintiffs also demand reimbursement of any
rent overcharges collected during the pendency of this
action.
FIFTH CAUSE OF ACTION
(Injunctive Relief)
208. Plaintiffs repeat and specifically incorporate
the allegations of paragraphs 1 through 207 of this
Complaint.
209. Pursuant to General Business Law § 349 (h),
Plaintiffs are entitled to an order and judgment
against Defendant enjoining the unlawful acts and
practices set forth in the Complaint, and recovering
their actual damages or fifty dollars, whichever is
greater; and in addition, increasing the award of
damages to an amount not to exceed three times the
actual damages up to one thousand dollars because of
Defendant’s willing or knowing violation of this provision; and awarding reasonable attorneys’ fees to Plaintiffs.
SIXTH CAUSE OF ACTION
(Award of Attorneys’ Fees)
210. Plaintiffs repeat and specifically incorporate
the allegations of paragraphs 1 through 209 of this
Complaint.

127a
211. Plaintiffs are entitled to recover their reasonable attorneys’ fees, costs and expenses incurred in the
prosecution of this action.
WHEREFORE, Plaintiffs respectfully request the
following relief:
(A) Judgment declaring and adjudging that Plaintiffs’ apartments are subject to the Rent Stabilization Law and Code, and determining the
amount of the legal regulated rents for their
respective apartments;
(B) Judgment adjudging and determining that the
renewal lease forms provided to Plaintiffs by
Defendant is invalid and unlawful; enjoining
Defendant, and their agents, assigns and successors from offering lease renewals in violation of the terms of the Rent Stabilization Law
and Code; determining that Defendant is required to offer lease renewals in accordance
with the DHCR and Rent Stabilization Law
and Code, and determining that Plaintiffs are
not required to pay any renewal lease increase
unless and until a valid lease renewal offer is
made;
(C) Judgment permanently enjoining Defendant
from initiating any proceedings to terminate or
otherwise interfere with Plaintiffs’ tenancies
based upon expiration of Plaintiffs’ leases.
(D) Separate judgments in favor of each individual
Plaintiff for his or her respective apartment
and against Defendant for the amount determined by the Court to have been overcharged,
together with treble damages, interest, attorneys’ fees, costs and expenses allowed by the
Rent Stabilization Law and Code;

128a
(E) Pursuant to General Business Law § 349(h),
Plaintiffs are entitled to an order and judgment against Defendant enjoining the unlawful acts and practices set forth in the Complaint, and recovering their actual damages or
fifty dollars, whichever is greater; and in addition, increasing the award of damages to an
amount not to exceed three times the actual
damages up to one thousand dollars because of
Defendant’s willing or knowing violation of
this provision; and awarding reasonable attorneys’ fees to Plaintiffs;
(F) Judgment for the reasonable attorneys’ fees,
costs and expenses incurred by Plaintiffs in the
prosecution of this action; and
(G) Costs, disbursements, and such other and further relief as this Court may deem just, proper,
and equitable.
Dated: New York, New York
June 21, 2016
HIMMELSTEIN, McCONNELL, GRIBBEN,
DONOGHUE & JOSEPH LLP
Attorneys for Plaintiffs
By: /s/ Serge Joseph
Serge Joseph, Esq
15 Maiden Lane, 17th Floor
New York, New York 10038
(212) 349-3000

129a
APPENDIX H
Affidavit of JJ Bistricer, for Defendant,
in Support of Motion, sworn to January 31, 2017
————
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF NEW YORK
————
Index No. 155266/2016
————
JOHN KUZMICH, SANDRA MAY, JOSHUA SOCOLOW,
KENDRICK CROASMUN, RISHI KHANNA,
CAITLAN SENSKE, JAMIE AXFORD, JONATHAN GAZDAK,
SUZY HEIMANN, MICHAEL GORZYNSKY, NIKESH DESAI,
HEIDI BURKHART, BEN DRYLIE-PERKINS,
KEIRON MCCAMMON, LISA ATWAN, JENNIFER SENSKE
RYAN, BRAD LANGSTON, ALEJANDRA GARCIA,
LISA CHU, SCOTT REALE, DAN SLIVJANOVSKI,
SHIVA PEJMAN, LAURIE KARR, ADAM SEIFER,
ANAND SUBRAMANIAN, DARCY JENSEN,
ELIN THOMASIAN, HAZEL LYONS, DAVID DRUCKER,
HOWARD PULCHIN, JIN SUP LEE, JENN WOOD,
NICHOLAS APOSTOLATOS, ALEX KELLEHER, BRIAN
KNAPP, JEFF RIVES, JASON LEWIS, LAURA FIESLER
HICKMAN, FRANKLIN YAP, AND STEVEN GREENES,
Plaintiffs,
-against50 MURRAY STREET ACQUISITION LLC,
Defendant.
————
AFFIDAVIT IN SUPPORT OF DEFENDANT’S
MOTION FOR SUMMARY JUDGMENT
————

130a
STATE OF NEW YORK
COUNTY OF NEW YORK

)
)
)

ss.:

JJ BISTRICER, being duly sworn, hereby deposes and
says:
1. I am a managing member of Defendant 50
Murray Street Acquisition LLC (the “Owner”), the
owner of the buildings located at 50 Murray Street, New
York, New York (“50 Murray Street”) and 53 Park Place,
New York, New York (“53 Park Place”) (collectively
referred to as the “Buildings”). I am familiar with the
facts and circumstances set forth below. I submit this
affidavit in support of the motion by the Owner
seeking summary judgment.
2. This case is all about the Tenants’ attempt
to obtain a financial windfall. Not only do the Tenants
ask this Court to disregard the legislative history and
interpretations by the agencies tasked with implementing Real Property Tax Law (“RPTL”) § 421-g, and
substantially decrease the Tenants’ legal rents, but
also the Tenants seek millions on alleged overcharges
and treble damages. It is respectfully submitted that
the Owner has, at all times, followed the law as it
was intended, and all of Tenants’ apartments were
properly deregulated.
3. The Owner’s motion should be granted because
there are no triable issues of fact. The units in the
Buildings were lawfully deregulated pursuant to the
luxury deregulation provisions of the Rent Stabilization Law (“RSL”) despite receiving RPTL § 421-g tax
benefits.

For the reasons discussed below, in the accompanying affirmation of Joseph Burden, and in the
4.

131a
accompanying Memorandum of Law, the Court should
declare that these units are deregulated.
PRELIMINARY STATEMENT
5. Although Rent Stabilization Law applies to
RPTL § 421-g units, Plaintiffs (collectively referred to
as the “Tenants”) ask the Court to selectively pick and
choose which sections of the RSL are applicable. The
Owner asks that the entire RSL be applied. The statutory language, legislative history and administrative
agency interpretations all apply the entire statute,
including high rent deregulation.

Owner purchased 50 Murray Street and 53
Park Place in 2014 (see Exhibits J and K, respectively). In doing our “due diligence” we came to learn
that both the Buildings received tax benefits pursuant
to RPTL § 421-g. We also learned that high rent
deregulation, or luxury deregulation, applied to buildings that receive § 421-g tax benefits. This was a key
component in deciding to buy the Buildings.
6.

7. In reliance upon its inquiries, Owner learned
about the legislative history and administrative
agency interpretations discussed below (and in the
accompanying papers and exhibits), which make clear
that the deregulation provisions of the RSL added in
1993, applied to units made subject to the RSL by
virtue of the receipt of § 421-g tax benefits.
8. Not only did Owner receive information from
the Mayor’s Office, the Speaker of the New York State
Senate and the Alliance for Downtown New York, Inc.,
to that effect (see Exhibits A, B, and E), but we
received a copy of an advisory opinion from DHCR,
that the units would be exempt from Rent Stabilization if they were rented for $2,000.00 or more per
month (see Exhibit F).

132a
9. Following the enactment of RPTL § 421-g in
1995, many buildings in lower Manhattan were converted to residential use and thousands of apartments
were created in reliance upon the same representations that they would be subject to rent stabilization
to the same extent, but to no greater extent than other
rent regulated properties. The high-rent deregulation
provisions of the Rent Stabilization Law would be
applicable to these buildings. As a result of the promises made by government officials and representatives,
an entire residential community was created in lower
Manhattan.
10. Owner relied upon these repeated representations by City and State officials in electing to
purchase the Building. If we thought that the units in
the Building would be subject to rent stabilization (but
not high-rent deregulation) during the entire period
that tax benefits were being received, we would not
have purchased the Building. It would have not made
economic sense without high rent deregulation!
11. If luxury deregulation did not apply, rents

would be rolled back to levels which would be insufficient to cover mortgage costs and other expenses
for the Buildings. Further, Owner would be liable for
millions in overcharges.
FACTUAL BACKGROUND
12. Owner purchased 50 Murray Street, a 390

luxury apartment building, by deed dated December
15, 2014 (a copy of the 50 Murray deed is annexed
hereto as Exhibit J).
13. Owner purchased 53 Park Place, a 115 luxury
apartment building, by deed dated December 15, 2014
(a copy of the deed is annexed hereto as Exhibit K).

133a
14. Prior to acquiring the Building, we made various inquiries with governmental agencies, including
HPD, to confirm that the residential units in the
Buildings were not subject to rent stabilization because the rents for those units were over $2,000.00
per month. We were consistently advised by public
officials, HPD and the Downtown Alliance that they
would not be and received various documents confirming that these units were properly deregulated
(see Exhibits A, B and E).
15. We were made to understand that the reason
for this exemption being combined with tax benefits
was to jump start the lower Manhattan real estate
market in 1995 by quickly creating thousands of
residential units to create a vibrant 24-hour a day,
mixed-use neighborhood.
16. The assurances and repeated confirmation that

apartments in the Building would be deregulated if
the initial or subsequent legal rent was over $2,000
per month were major reasons to purchase the Buildings.
17. Our due diligence showed that the prior owner,

110 Church Owner LLC (the “Prior Owner”), initially
rented all of Tenants’ apartments (and all apartments
within the Buildings) at a monthly rental in excess of
$2,000.00 per month and properly deregulated said
apartments based upon high rent/vacancy deregulation. We further learned that the prior owner submitted continuing use certificates each year while receiving § 421-g benefits.
18. In reliance upon the legislative history, the

letter from the Downtown Alliance, and the advice and
opinion letter from DHCR, and our due diligence
showing that the prior owner properly deregulated all

134a
of Tenants’ apartments (and all apartments within
the Buildings) we were able to secure financing to
purchase the Buildings. In total, we expended in
excess of $540,000,000.00 to purchase the Buildings.
19. I understand that approximately 25,000 apartments were created as a result of Section 421-g, albeit
not registered as rent stabilized with DHCR, because
the initial rents were over $2,000 per month. Approximately 2,500 rent regulated apartments were created.
A vibrant community, known as FiDi was created.1
20. Our due diligence revealed that in or about

2003, the Prior Owner applied for § 421-g benefits and
received a Certificate of Eligibility from HPD. The
benefits period commenced on July 1, 2003 and ended
on June 30, 2015.
21. The Prior Owner was required to include HPD’s

application checklist as part of the application. The
HPD checklist confirms HPD’s position that apartments may be deregulated under the RSL, while a
building receives benefits. HPD’s application requires
the applicant to provide as part of the application
either (i) copies of rent registration forms filed with
DHCR for rental units, or (ii) copies of leases for
exempt rental units (one full lease and the first and
last pages showing signature and rent, $2,000.00 or
more if luxury unit, for each remaining exempt lease),
or (iii) proof of filing with the Attorney General for
residential coop or condo units (see Exhibit H).
22. During the receipt of § 421-g tax benefits, the

Prior Owner, and subsequently the Owner also filed
1

A copy of the New York City Rent Guidelines Board’s study,
“Changes to the Rent Stabilized Housing Stock in New York City
in 2012” is annexed hereto as Exhibit S.

135a
with HPD annual continuing use certification forms
which required the Owner to represent that dwelling
units are in compliance with Rent Stabilization or are
Exempt Dwelling Units,” and also to disclose the number of “Newly Exempt Dwelling Units” (see Exhibit L).
A. 50 Murray Street
23. I have reviewed the rental history records for 50

Murray Street and apartments 301, 302, 308, 309, 322,
414, 422, 503, 616, 801, 813, 821, 908, 917, 1009, 1115,
1202, 1301, 1402, 1411, 1413, 1507, 1511, 1711, 1714,
1805, 1807, 2009, 2011, and 2012 (the “50 Murray
Apartments”) were all initially rented at a rate in
excess of $2,000.00 per month (Copies of the first page
of each initial lease for the 50 Murray Apartments are
annexed hereto as Exhibit M) .
24. The initial rent exceeded $2,000.00 per month

for each of the apartments and at no point after the
initial leases did the monthly rent ever fall below
$2,000.00 for any of the apartments.
B. 53 Park Place
25. I have reviewed the rental history records for 53
Park Place and apartments 4C, 6F, 6J, 7C, 7E, PHB,
PHG, PHH, and PHJ (the “53 Park Place Apartments”) were all initially rented at a rate in excess of
$2,000.00 per month (copies of the first page of each
initial lease for the 53 Park Place Apartments are
annexed hereto as Exhibit N).
26. The initial rent exceeded $2,000.00 per month
for each of the apartments and at no point after the
initial leases did the monthly rent ever fall below
$2,000.00 for any of the apartments.
27. As each of the 53 Park Place Apartments

initially rented for more than $2,000.00, all of the

136a
53 Park Place Apartments were registered with DHCR
as permanently exempt pursuant to the applicable
luxury deregulation provisions in the RSL (see
Exhibit 0).
CONCLUSION
28. Based upon all of the foregoing, and the additional reasons set forth in the accompanying affirmation and Memorandum of Law, Owner’s motion should
be granted in its entirety.

/s/ JJ Bistricer
JJ BISTRICER
Sworn to before me this
31 day of January 2017
/s/ Jeffrey A. Kunin
Notary Public
Jeffrey A. Kunin
Notary Public, State of New York
No. 30-4955985
Qualified in Nassau County
Commission Expires Sept. 11, 2017

137a
Exhibit A to Foregoing Documents –
Letter from Rudolph W. Giuliani to
Joseph Bruno, dated August 16, 1995
[LOGO]
The City of New York
Office of the Mayor
New York, N.Y. 10007
August 16, 1995
Honorable Joseph Bruno
Senator
N.Y.S. Legislative Office Building
Albany, New York 12246
Dear Senator Bruno,
I am writing as a follow up to our conversation
regarding passage of the Lower Manhattan legislation. In our discussion you asked that the legislation
be amended to ensure that any residential units created as a result of the legislation are subject to the
most current Rent Stabilization Laws of the State.
I have discussed this matter with the drafters of the
legislation and with the Commissioner of the Department of Housing Preservation and Development
(HPD), the City agency responsible for implementing
the residential conversion program proposed in the
legislation. The City’s intention has always been that
the dwelling units in property receiving benefits under
the residential conversion program (bill section 14)
and the mixed-use program (bill section 15) would be
subject to rent stabilization to the same extent as, but
to no greater extent than, other rent regulated property. Any provision of law that generally exempts any
housing accommodation from rent stabilization would
apply as well to dwelling units in property receiving

138a
benefits under the aforementioned programs. Thus,
the provisions of the Rent Regulation Reform Act of
1993 that provide for the exclusion of high rent
accommodation and for high income rent decontrol
would apply to property receiving benefits under the
programs created by the Lower Manhattan legislation.
Any future amendments to the rent stabilization law
would also apply to these properties.
The City agencies responsible for administering the
residential conversion and mixed-use programs will
promulgate rules that reflect our intention to apply
the rent stabilization law as a whole, including any
provisions that exempt housing accommodations from
rent stabilization, to property receiving benefits under
those programs.
If you have any further questions regarding this
matter please do not hesitate to contact me. On behalf
of myself, the business community of New York and
the people of New York City generally I ask for your
assistance in ensuring the passage of this legislation
at the earliest possible moment.
Sincerely,
/s/ Rudy Giuliani
Rudolph W. Giuliani
Mayor

139a
Exhibit B to Foregoing Documents –
Letter from Joseph L. Bruno to
Rudolph W. Giuliani, dated August 31, 1995
————
THE SENATE
STATE OF NEW YORK
ALBANY 12247
[SEAL]
Joseph L. Bruno
President Pro Tem
Majority Leader
August 31, 1995
The Honorable Rudolph W. Giuliani
The City of New York Office of the Mayor
New York, N.Y. 10007
Dear Mayor Giuliani,
Thank you or your recent letter in reply to issues
I raised regarding legislation for Lower Manhattan
that is currently before the Senate. I appreciate your
attention to my concerns on this matter.
Your letter notes that the city specifically intended
that residential property receiving benefits pursuant
to programs created in this legislation be fully subject
to the deregulation provisions established by the Rent
Reform Act of 1993. I am gratified that your intent
comports with the Senate’s own reading of this legislation and I appreciate your willingness to clarify this
issue. In view of your comments and the importance of
this legislation to the revitalization of Lower Manhattan, the Senate will pass this bill when it reconvenes
in October.

140a
While this legislation represents an important
step toward forging a new economic revival in Lower
Manhattan, further reform of City rent regulation
laws is equally important to achieving the goal of longterm economic revitalization. As you know, I have long
advocated the importance of such reform and introduced legislation that culminated in the adoption of
luxury de-control measures by the Legislature in 1993.
The current system, must be overhauled,
Your anticipation of future amendments to the rent
laws, as stated in your letter, is welcome. I look forward to working cooperatively with your administration to expand on the 1993 reforms to insure New
York’s economic future.
Sincerely,
/s/ Joe
Joseph L. Bruno

141a
Exhibit C to Foregoing Documents –
Excerpts from the Transcript of Senate Debate,
Dated October 12, 1995
SENATE DEBATE TRANSCRIPTS
————
1995
CHAPTER 4
33 Pages
————
New York Legislative Service, Inc.
The Research Specialist on Legislative Intent
and Current Legislation
A New York Not-For-Profit Corporation,
Established 1932
15 Maiden Lane, New York, NY 10038
(212) 962-2826 www.nyls.org
————
October 12, 1995
————
[12362] SENATOR BRUNO: Mr. President. Can we
now call up calendar 1603.
ACTING PRESIDENT NOZZOLIO: Secretary will
read.
THE SECRETARY; Senator Bruno from the Committee on Rules moves to discharge **** Assembly Bill
Number 8028 and substitute it for the identical
Calendar Number 1603.
ACTING PRESIDENT NOZZOLIO: Substitution
ordered. Read the last section. Explanation is asked
for. Read the bill.

142a
* * *
Not a good development, though. Not good for the
City. But, you know, the City will be in no worse
position than it was before it started.
So I would urge everyone, seriously, to vote yes because I think we do have to do this. We’ve done some
similar things, some similar things for other boroughs,
that are in this bill; and I think Lower Manhattan
needs this shot in the arm to bounce back.
Thank you, Mr. President.
ACTING PRESIDENT NOZZOLIO: Senator Leibell.
SENATOR LEIBELL: Thank you, Mr. President.
When this legislation came before us in June,
Senator Bruno and I had expressed some concerns
regarding some provisions of the original bill.
[12384] I understand now that the Mayor has contacted us and cleared up this concern, and I would like
to have the opportunity, if I might, to just read in the
Mayor’s letter, Mayor Giuliani’s letter to Senator
Bruno, dated August 16, this year.
Dear Senator Bruno: “I am writing as a follow-up to
our conversation regarding passage of the Lower Manhattan legislation. In our discussion, you asked that
the legislation be amended to insure that any residential units created as a result of the legislation are
subject to the most current rent stabilization laws of
the state. I have discussed this matter with the
drafters of the legislation and with the Commissioner
of the Department of Housing Preservation and
Development (HPD), the City agency responsible for
implementing the residential conversion program
proposed in the legislation. The City’s intention has
always been that dwelling units and property receiv-

143a
ing benefits under the residential conversion program,
bill Section 14, and the mixed use program, bill Section
15, would be subject to rent stabilization to the [12385]
same extent as but to no greater extent than other
rent-regulated property. Any provision of law that
generally exempts any housing accommodation from
rent stabilization would apply as well to dwelling units
in property receiving benefits under the aforementioned program; thus, the provisions of the Rent
Regulation Reform Act of 1993 that provide for the
exclusion of high rent accommodation and for high
income rent decontrol Would apply to property receiving benefits under the program created by the Lower
Manhattan legislation. Any future amendments to the
Rent Stabilization Law would also apply to these
properties. The City agencies responsible for administering the residential conversion and mixed use programs will promulgate rules that reflect our intention
to apply the Rent Stabilization Law as a whole, including any provisions that exempt housing accommodations from rent stabilization to property receiving
benefits under those programs.
“If you have any further questions regarding this
matter, please do not hesitate to contact me. .0n behalf
of myself the [12386] business community of New York
and the people of New York City generally, I ask
for your assistance in insuring the passage of this
legislation at the earliest possible moment. “Sincerely,
Rudolph Giuliani, Mayor of the City of New York.”
Thank you, Mr. President.
ACTING PRESIDENT NOZZOLIO: Senator Goodman.

144a
SENATOR GOODMAN; Mr. President. For some
years before becoming a state Senator, I happened to
have worked in this downtown area which is the sub* * *
THE SECRETARY: Ayes 53. Nays 1.
Senator Leichter recorded in the negative.
ACTING PRESIDENT NOZZOLIO:
The bill is passed.
Senator Bruno.
SENATOR BRUNO Mr. President. Can we now call
up Calendar Number 1630.
ACTING PRESIDENT NOZZOLIO: Secretary will
read.
THE SECRETARY; Senator Bruno moves to
discharge from the Committee on Rules Assembly
Print 8142 and substitute it for the identical Calendar
Number 1630.
ACTING PRESIDENT NOZZOLIO: substitution so
ordered.
THE SECRETARY: Calendar Number 1630, by the
Assembly Committee and Rules,
***

145a
Exhibit F to Foregoing Documents –
Various Letters from New York State Division
of Housing and Community Renewal
[LOGO]
New York State
Division Of Housing and Community Renewal
Office of Rent Administration
Gertz Plaza / 92-31 Union Hall St.
Jamaica, NY 11433
George E. Pataki, Governor
January 30, 1997
Sherwin Belkin, Esq.
Belkin Burden Wenig & Goldman, LLP
342 Madison Ave.
New York, NY 10173-0035
Dear Mr. Belkin;
Your letter of January 7 to Assistant Commissioner
Seavey and your follow-up fax submissions of January
13 and January 16 have. been referred to the undersigned, for reply. You inquired about a situation arising under Real Property Tax Law (RPTL) Sec. 421-g
enacted by Chapter 4 of the Laws of 1995, which.
provide for a program of tax abatements for Lower
Manhattan conversions from nonresidential to residential use. Specifically you inquired whether highrent deregulation. applies to converted units which
will rent for $2,000 or more per month and whether, if
so, such deregulated status would apply if tenants are
granted rent abatements during the completion of
construction, with such abatements bringing the rent
below $2,000 per month.
Subdivision 6 of RPTL Sec. 421-g reads: “Notwithstanding the provisions of any local law for the stabilization of rents in multiple dwellings or the emer-

146a
gency tenant protection act of nineteen seventy-four,
the rents of each dwelling unit in an eligible multiple
dwelling shall be fully subject to control under such
local law, unless exempt under such local law from
control by reason of the cooperative or condominium
status of the dwelling unit, for the entire period’ for
which the eligible multiple dwelling is receiving benefits pursuant to this section . . . .”
The wording of this subdivision does not address
whether high-rent deregulation is available with
respect to the relevant units. You have submitted an
exchange of correspondence from 1995 (shortly before
the passage of Chapter 4) between Mayor Giuliani and
Senate Majority Leacher Bruno which indicates an
intention that high-rent deregulation be available.
Senator Bruno observed that such availability “comports with the Senate’s own reading of this legislation
. . . .” This indicates that the issue was discussed by
members of at least one house. We have examined the
bill jacket, and we find nothing differing from this
interpretation. We conclude that high-rent deregulation is available with respect to Sec. 421-g units.
Another issue is whether, considering that high-rent
deregulation operates upon. vacancy, deregulated
status must await the vacancy of the first residential
tenant or is available from the inception of residential
tenancy. We consider the situation you described to be
analogous to the “first rent” scenario, which applies
when the outer dimensions of an apartment are
changed and which is discussed Point: I.A.2.d. of Operational Bulletin 95-3. As with the “first rent” situations the subject apartments in your situation did not
exist on the base date of rent stabilization. conclude
that high-rent deregulation is available from the
inception of the first residential tenancy.

147a
You have also asked whether the proposed construction-related rent abatements would operate to
preclude high-rent deregulation. We agree that the
term “preferential rent” is inapplicable to such abatements. The abatements. would more accurately be
described as concessions for specific months on a onetime basis, not to be prorated throughout the lease
term. Under the limited circumstances you described,
provided the lease specifies an initial monthly rent: of
at least $2,000, and also provided that the terms of the
abatement are fully set forth in the lease, such rental
amount of at least $2,000 per month which the tenant
agrees to -pay can. be considered the legal regulated
rent (even if the number of months the abated rent will
continue is not known at the outset because of uncertainty regarding the duration of the completion of
construction), and the unit would have deregulated
status during, as well as after, the period of abated
rent. Our opinion assumes, of course, that all aspects
of the transactions involved, are conducted in good
faith and without any attempt to evade rent laws and
regulations. The renovation work must be completed
within a reasonable time, with the rent abatements for
the affected units thus terminating, and the tenants
thereupon being charged and actually paying rents of
$2,000 or more per month as provided in their leases.
Please be advised that this opinion letter is not a
substitute for a formal agency order issued upon prior
notice to all parties, such parties having been afforded
an opportunity to be heard.
Very truly yours,
Charles Goldstein
Associate Counsel
/s/ Erik Strangeways
by: Erik Strangeways Senior Attorney

148a
George E. Pataki
Governor

Joseph B. Lynch
Commissioner

[LOGO]
New York State Division of Housing and
Community Renewal
Office of Rent Administration
Gertz Plaza
92-31 Union Hall Street
Jamaica, NY 11433
August 22, 2000
Your letter of July 25 has been referred to the undersigned for reply, as noted in Deputy Commissioner
Roldan’s letter to you of August 17. Please note for the
future that requests for opinion letters should be addressed to Charles Goldstein Esq., Associate Counsel.
You inquire about the rent regulatory status of
housing accommodations in a building that was recently converted from commercial to residential use
with the assistance of the tax benefit program available under Real Property Tax Law (RPTL) Sec. 421-g
(the Lower Manhattan initiative), where each apartment, from its creation, rents for an amount in excess
of $2,000 per month.
We have had occasion previously to consider the
interaction between RPTL Sec, 421-g and the highrent decontrol provisions of the rent laws. Based on
our examination of the relevant factors, including the
legislative history of Chapter 4 of the Laws of 1995,
which enacted RPTL Sec. 421-g, it is our opinion
that where there are Sec, 421-g benefits being used
and where the first tenant of a newly created apartment is actually charged and actually pays $2,000 per
month or more, the apartment is exempt from rent
regulation from the inception of occupancy.

149a
Under these limited circumstances, where there is
no period of rent regulatory jurisdiction, it would not
be necessary to register the units.
We trust that we have fully answered your inquiry.
Please be advised that this opinion letter is not a
substitute for a formal agency order issued upon prior
notice to all parties, such parties having been afforded
an opportunity to be heard.
Very truly yours,
Charles Goldstein
Associate Counsel
/s/ Erik Strangeways
by: Erik Strangeways Senior Attorney
CG:ES
cc: Deputy Commissioner Rolden
(COL-962)

150a
George E. Pataki
Governor

Judith A. Calgero
Commissioner

[LOGO]
New York State Division of Housing and
Community Renewal
Office of Rent Administration
Gertz Plaza
92-31 Union Hall Street
Jamaica, NY 11433
September 26, 2002
This is in response to your letter of August 12. You
refer to an opinion letter from our agency dated
August 22, 2000 which you state conflicts with the
New York City Department of Housing Preservation
and Development’s (HPD) procedures as they relate to
Real Property Tax Law Sec. 421-g benefits. In particular, you explain that HPD requires that all apartments
benefitting from 421-g improvements must be subject
to rent stabilization, whereas our letter explains that
apartments renting at an initial rent of $2,000 or more
per month are not subject to rent regulation.
You request “reassurance” from this agency regarding the position taken in our letter dated August 22,
2000.
We reiterate the position taken in that letter, and
state, once again, that based on our examination of the
relevant factors, including the legislative history of
Chapter 4 of the Laws of 1995, which enacted RPTL
Sec. 421-g, it is our opinion that where there are Sec.
421-g benefits being used and where the first tenant of
a newly created apartment is actually charged and
actually pays $2,000 per month or more, the apartment is exempt from rent regulation from the inception of occupancy.

151a
We trust that we have fully responded to your
inquiry.
Please be advised that this opinion. letter is not a
substitute for a formal agency order issued upon prior
notice to all parties and with all parties having been
afforded an opportunity to be heard.
Very truly yours,
Charles Goldstein
Associate Counsel
By: /s/ John D. Lance
John D. Lance
Senior Attorney
CG: JDL
cc: Deputy Commissioner Roldan
(COL-1359)

152a
Exhibit G to Foregoing Documents –
421-g Affidavit
THE CITY OF NEW YORK DEPARTMENT OF
HOUSING PRESERVATION AND DEVELOPMENT
OFFICE OF DEVELOPMENT
TAX INCENTIVE PROGRAMS
————
421-g Affidavit
————
INTERIM AFFIDAVIT OF RENT REGISTRATION
OR DOCUMENTATION OF EXEMPT UNITS
FOR NEWLY CREATED DWELLING UNITS
IN RENTAL BUILDINGS
STATE OF NEW YORK
CITY OF NEW YORK
COUNTY OF
I,

)
)
)

SS.

being duly sworn, depose and say:

I am the [owner, officer, etc] of the premises at [street,
address] Block:
Lot(s):
and make this affidavit in support of an application for
tax benefits pursuant to §421-g of the Real Property
Tax Law of the State of New York. I hereby affirm that
for each of the dwelling units in the premises, other
than exempt dwelling units, a filing for rent registration with the New York State Division of Housing and
Community Renewal (DHCR) as required by law, will
be made no later than thirty (30) days after initial
occupancy or at the earliest date thereafter permitted
by DHCR and a copy will be sent to the Tax Incentive
Programs Office. For every exempt unit, I will provide
a copy of the first and signature page of the lease and
such other verification as may be required to the Tax

153a
Incentive Programs Office within 30 days after Initial
Occupancy.
I make these statement to induce the City of New York
to grant tax exemption and know that the City of New
York will rely on the veracity of such statements in
granting tax exemption benefits.
Sworn to me this
day of
Notary Seal
(Signature)

154a
Exh
ib
i
t HtoForego
ing Documen
ts–
Check
l
is
tfor421
-g App
l
ica
t
ion
————
CHECKL
ISTFOR421
-gAPPL
ICAT
ION
PROJECTADDRESS
B
lo
ck
Lo
t
Subm
i
t
tedby
:
Phone
:

Fax
:

Thedo
cumen
ta
t
ionno
tedbe
lowha
sbeensubm
i
t
tedto
the O
f
f
i
cefo
rrev
iewinconne
c
t
i
on w
i
thanapp
l
i
ca
t
ion
fo
rtax bene
f
i
t
s pu
r
suan
tto § 421
-g o
fthe RPTL
.
(App
l
i
ca
t
i
on
sf
o
rth
eon
e
yea
rp
re
comp
le
t
ionexemp
t
ion(
“P
re
l
im
ina
ry Bene
f
i
t
s
”
) requ
i
re a
f
f
idav
i
t
sfo
r
i
tem
s4
,7and8
.
)
1
.

App
l
i
ca
t
ion
: Che
ck ALL app
l
i
cab
le
: P
re
l
im
i
na
ry
; B
lank
; Pa
r
t
ia
l E
l
ig
ib
i
l
i
ty (
In
i
t
ia
l
)
;
[
i
l
leg
ib
le
][
see a
l
so“Supp
lemen
ta
l
”che
ck
l
i
s
t
fo
rF
ina
la
f
te
rP
re
l
im
ina
ry ORPa
r
t
ia
l
]

2
. P
roo
fo
fp
re
conve
r
s
i
onnon
re
s
iden
t
ia
lu
sage
:
p
r
io
rCo
fOfo
rnon
re
s
iden
t
ia
lu
se
;AND P
r
io
r
U
se Le
t
te
rf
romthe Bo
rough Supe
r
in
tenden
t
,
Bu
i
ld
ing
s Depa
r
tmen
t
, OR
O
the
r______
3
.

Anin
i
t
ia
l pe
rm
i
tfo
r conve
r
s
ion da
ted a
f
te
r
7
/1
/95and w
i
th
in3yea
rso
fcomp
le
t
ion w
i
th
ase
to
fp
lan
sa
sapp
rovedbythe Depa
r
tmen
t
o
f Bu
i
ld
ing
s(
“DOB
”
)w
i
ththe DOBs
tampo
r
ve
r
i
f
ieda
ssu
chbyana
r
ch
i
te
c
t
’
sa
f
f
idav
i
tAND
PW
-1
,P1
-A
,1BandPW
-2

4
.

Acopyo
fthepo
s
t
con
ve
r
s
ionCo
f Oo
rTCo
fO
da
t
ed p
r
i
o
rt
oth
er
e
l
evan
t Janua
ry 5f
o
ra
l
l
un
i
t
sc
la
imedonth
eapp
l
i
ca
t
i
ono
r

155a
fo
rP
re
l
im
ina
rye
l
ig
ib
i
l
i
tyana
f
f
idav
i
t mu
s
tbe
re
ce
ivedby Ap
r
i
l29
;s
ta
t
ingtha
tno Co
f Oo
r
TCo
fOhadbeeni
s
su
eda
so
fAp
r
i
l15
.Fo
run
i
t
s
w
i
th Hom
eO
c
cupa
t
ion U
sag
e,lea
seo
ro
f
fe
r
ing
p
lan
s mu
s
tin
c
ludethezon
ingre
s
t
r
i
c
t
ion
s
.
5
. Twocop
ie
so
facomp
le
tedSpa
ce Repo
r
t(Fo
rm
G
-2
)tobecon
f
i
rmedbythe O
f
f
i
ce
.
6
. P
roo
fo
flo
t appo
r
t
ionmen
t
,i
f any
,f
romthe
D
epa
r
tm
en
to
fF
inan
c
e
:tw
oc
op
i
e
so
fth
en
ew
tax map w
i
thn
ewo
rt
en
ta
t
iv
etaxl
o
tnumb
e
r
s
andacopyo
fthe De
c
la
ra
t
iono
f Condom
in
ium
.
Acomp
le
te app
l
i
ca
t
ionfo
rlo
t appo
r
t
ionmen
t
w
i
thp
lan
sandtheDe
c
la
ra
t
iono
fCondom
in
ium
mu
s
t have beenf
i
led a
tthe Depa
r
tmen
to
f
F
inan
ceby De
cembe
r1
.
7
. P
r
o
o
fo
f Mu
l
t
ip
l
e Dw
e
l
l
ing Reg
i
s
t
ra
t
ion(MDR
)
w
i
th HPD
.
8
.

a
. copyo
fren
treg
i
s
t
ra
t
i
onfo
rm
sf
i
led w
i
th
DHCRfo
rren
ta
lun
i
t
s(a
l
lpage
s
) OR
b
. cop
ie
so
fl
ea
se
sfo
rexemp
tren
ta
l un
i
t
s
(
on
efu
l
ll
ea
s
e andth
ef
i
r
s
t andla
s
t pag
e
s
sh
ow
ings
igna
tu
r
eandr
en
t
,$2
,000o
rm
o
r
ef
o
r
luxu
ryun
i
t
,fo
rea
chrema
in
ingexemp
tl
ea
se
)
,
OR
c
. p
roo
fo
ff
i
l
ing w
i
thth
eA
t
to
rney Gene
ra
l
fo
rre
s
iden
t
ia
lcoopo
rcondoun
i
t
s
9
. P
r
in
tou
tf
rom the Depa
r
tmen
to
f F
inan
ce
show
ingtha
tthe app
l
i
can
ti
sthe pa
r
tyob
l
i
ga
tedtopaytaxe
sandtha
ta
l
lcha
rge
sa
reup
toda
tea
so
ftheJanua
rybe
fo
rebene
f
i
t
sa
reto
b
eimp
l
em
en
t
ed
. Ad
e
edo
rn
e
tl
ea
s
e may b
e
subm
i
t
tedfo
rp
roo
ftha
ttheapp
l
i
can
ti
sob
l
i
ga
tedtopaytaxe
s
.

156a
10
.P
r
in
tou
tf
romthe Depa
r
tmen
to
f Env
i
ronmen
ta
lP
ro
te
c
t
ionshow
ingtha
ta
l
l wa
te
rcha
rge
s
a
r
epa
ida
so
fth
eJanua
ryb
e
f
o
r
eb
en
e
f
i
t
sa
r
et
o
beimp
lemen
ted
.
11
.P
roo
fo
flandma
rks
t
a
tu
s(
i
fany
)f
romthe NYC
Landma
rk
sP
re
se
rva
t
ionComm
i
s
s
ion
.(Copyo
f
(a
) Landma
rk De
s
igna
t
ion
,(b
) Pe
rm
i
t
,and(
c
)
Le
t
te
ro
f Comp
l
ian
ce
, un
le
s
s a
l
l wo
rk i
s
in
te
r
io
r
.
)
12
. Comp
le
teda
f
f
idav
i
t(Fo
rm G
-3
)rega
rd
ingha
r
a
s
smen
t
/a
r
sonconv
i
c
t
ion
s
.
14
. Fee
s
: A non
re
fundab
lefee(
ce
r
t
i
f
iedche
cko
r
money o
rde
r
) payab
letothe New Yo
rk C
i
ty
Depa
r
tmen
to
fF
inan
ce w
i
ththeno
ta
t
ion
,“421
gf
e
e
.
”
1
)ba
sefeeo
f$1
,500
$1
,500
2
)p
lu
s$250pe
rdwe
l
l
ingun
i
t
(No
.un
i
t
s______X$250
)=
$_______
TOTAL(no
ttoex
ceed$25
,000
) $_______

157a
Exhibit I to Foregoing Documents –
421-g Continuing Use Certification
CITY OF NEW YORK DEPARTMENT OF HOUSING
PRESERVATION AND DEVELOPMENT
§421-G CONTINUING USE CERTIFICATION –
DUE Jan. 6, 2014
DOCKET # 4G051-02/06 Block 126; Lot 27
EFFECTIVE YEAR:

7/1/2002

PROPERTY ADDRESS: 110-120 Church Street
§421-G RECIPIENT:

David Lowenfeld, Member
c/o World Wide Holdings,
950 Third Avenue, 18 Fir.,
New York, NY 10022
Phone: 212-486-2000:

AGENT:

Richard Lebow
950 Third Avenue, 18F,
New York, NY 10022
Phone: 212-500-1223;
Fax: 212-486-4665

Send to:
100 Gold Street, Room 8-D07, New York, NY 10038.
ALL RECIPIENTS MUST FILE ANNUALLY TO
ESTABLISH CONTINUING ELIGIBILITY ON OR
BEFORE THE JANUARY 6th TAXABLE STATUS
DATE. PURSUANT TO §32-06 OF THE §421-g
RULES, FAILURE TO FILE TIMELY WILL RESULT
IN REVOCATION OF §421-g TAX BENEFITS.
FILED THIS YEAR BY:
COMPANY:
ADDRESS:
PHONE:

FAX:

158a
REPRESENTAT
IONS(F
i
l
lina
sno
tedands
ign
}
1
.E
l
ig
ib
lere
s
iden
t
ia
l and e
l
ig
ib
le non
re
s
iden
t
ia
l
f
loo
ra
reacon
t
inuetorep
re
sen
tp
.34o
fth
eagg
re
ga
tef
loo
ra
reainthetaxlo
t
(
s
)and390 C
la
s
sA
dwe
l
l
ingun
i
t
shavebeenand w
i
l
lc
on
t
inu
et
ob
e
u
s
edf
o
rdw
e
l
l
ingpu
rp
o
s
e
so
rhav
eb
e
enand w
i
l
l
con
t
inuetobehe
ldou
tfo
rsu
chu
se
. Noneo
fthe
se
C
la
s
s Adwe
l
l
ingun
i
t
shavebeeno
rw
i
l
lbeu
sed
a
spa
r
to
faho
te
l
.Theu
seo
fthep
rope
r
tycomp
l
ie
s
w
i
ththe Ce
r
t
i
f
i
ca
teo
fO
c
cupan
cyp
rov
ided w
i
th
the§421
-gapp
l
i
ca
t
ion
.
YES
OR

NO–P
lea
sea
t
ta
chade
s
c
r
ip
t
iono
fth
echange
(
s
)
andind
i
ca
te wh
i
cho
fthefo
l
low
ing
,i
fany
,app
ly
:
changeinthe numbe
ro
fC
la
s
s A dwe
l
l
ing
un
i
t
s
;and
/o
r
changeinpe
r
cen
tag
eo
fe
l
ig
ib
lef
loo
ra
reaa
s
showninthenew Agg
rega
teF
loo
rA
reaand
Non
-Re
s
iden
t
ia
lSpa
ceRepo
r
ta
t
ta
ched
.

2
.A
l
l dwe
l
l
ing un
i
t
sa
reincomp
l
ian
ce w
i
th Ren
t
S
tab
i
l
i
za
t
iono
ra
re Exemp
t Dwe
l
l
ing Un
i
t
s(
see
the§421
-gRu
le
s
)
.
A
t
ta
ch
edI
s ac
opyo
fth
e annua
l apa
r
tm
en
t
reg
i
s
t
ra
t
ionsumma
ryfo
rmf
i
led w
i
th DHCRfo
r
:
(no
.
)Ren
tS
tab
i
l
i
zeddwe
l
l
ingun
i
t
s
;and
/o
r
(no
.
) Exemp
t Dwe
l
l
ing Un
i
t
sa
sp
rev
i
ou
s
ly
do
cumen
ted
;and
/o
r
(no
.
) New
lyExemp
t Dwe
l
l
ing Un
i
t
s
.
OR

(no
.
) Dwe
l
l
ingun
i
t
sa
reExemp
t Dwe
l
l
ing Un
i
t
s
duetocoope
ra
t
iveo
rcondom
in
iums
ta
tu
s
.

3
.Ne
i
the
rth
eRe
c
ip
ien
t
,no
ranyind
iv
idua
lo
ren
t
i
ty
own
ingo
rcon
t
ro
l
l
inganin
te
re
s
to
ftenpe
r
cen
t

159a
(10%
)o
r mo
reo
ftheabovere
fe
ren
cedtaxlo
t
,o
r
anyo
the
rPe
r
sonde
s
c
r
ibedIn§32
-06
(a
)(3
)o
fth
e
§421
-gru
le
s
,wa
s(1
)f
ina
l
lyad
jud
i
ca
tedbyacou
r
t
o
fcompe
ten
tju
r
i
sd
i
c
t
ionfo
ro
r(2
)i
sthesub
je
c
to
f
p
end
ingcha
rg
e
sf
o
r hav
ingv
io
la
t
ed§235o
fth
e
R
ea
lP
r
op
e
r
tyLawo
ranys
e
c
t
i
ono
fA
r
t
i
c
l
e150o
f
thePena
lLawo
ranys
im
i
la
ra
r
sonlawo
fano
the
r
ju
r
i
sd
i
c
t
ion
.Thea
cqu
i
s
i
t
iono
fanin
te
re
s
to
f10%
o
r mo
reinthep
rope
r
tybyanyInd
iv
idua
lo
ren
t
i
ty
no
t namedinthe o
r
ig
ina
l app
l
i
ca
t
i
onsha
l
lb
e
repo
r
tedonthef
i
r
s
tCon
t
inu
ing U
seCe
r
t
i
f
i
ca
t
ion
a
f
te
rsu
cha
cqu
i
s
i
t
ion
.
The
reha
sbeennoowne
r
sh
ipchanges
in
cethe
p
rev
iou
sa
f
f
idav
i
t
.
OR

SeenewA
r
sonA
f
f
idav
i
ta
t
ta
ched
.

4
.TheP
ro
j
e
c
tcon
t
inu
e
stobeincomp
l
ian
ce w
i
tha
l
l
the s
ta
tu
to
ry and regu
la
to
ry requ
i
remen
t
so
f
§421
-go
f Rea
lP
rope
r
tyTaxLawandthe§421
-g
Ru
le
sinChap
te
r32o
fT
i
tl
e28o
fth
eRu
l
e
so
fth
e
C
i
tyo
f NewYo
rk
.
S
ta
teo
f NewYo
rk)
C
i
tyo
f NewYo
rk)
S
IGNATUREAND NOTAR
IZAT
ION
I[PR
INT NAME
] be
ingdu
lyswo
rns
ta
tetha
tIam
the [T
ITLE
]
o
ftheabovenamed§421
-gre
c
ip
i
en
tandth
es
ta
temen
t
scon
ta
inedinth
i
sce
r
t
i
f
i
ca
t
i
on
a
ret
rue
.I maketh
i
ss
ta
temen
ttoindu
cethe C
i
tyo
f
N
ewY
o
rkt
oc
on
t
inu
etaxb
en
e
f
i
t
sund
e
r§421
-go
fth
e
Rea
lP
rope
r
tyTaxLawfo
rthefo
l
low
ingf
i
s
ca
lyea
r
.
Sub
s
c
r
ibedandswo
rntobe
fo
re me
the dayo
f
No
ta
ryPub
l
i
co
rComm
is
s
ione
ro
f Deed
s
(
s
igna
tu
re
)

